<html>
<title> - SECOND CHANCE ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       SECOND CHANCE ACT OF 2007 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1593

                               __________

                             MARCH 20, 2007

                               __________

                           Serial No. 110-51

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

34-176 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
[Vacant]

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel



















                            C O N T E N T S

                              ----------                              

                             MARCH 20, 2007

                                                                   Page

                              TEXT OF BILL

H.R. 1593, the ``Second Chance Act of 2007''.....................     1

                           OPENING STATEMENT

The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    33
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    35

                               WITNESSES

Mr. Stefan LoBuglio, Chief, Pre-Release and Re-Entry Services, 
  Montgomery County Department of Correction and Rehabilitation, 
  Rockville, MD
  Oral Testimony.................................................    36
  Prepared Statement.............................................    39
Mr. Roger H. Peters, Ph.D., Chairman and Professor, Department of 
  Mental Health Law and Policy, University of South Florida, 
  Tampa, FL
  Oral Testimony.................................................    48
  Prepared Statement.............................................    51
Mr. Steve Lufburrow, President and CEO, Goodwill Industries of 
  Houston, Houston, TX
  Oral Testimony.................................................    60
  Prepared Statement.............................................    61
Mr. Jack G. Cowley, National Director, Alpha for Prisons and Re-
  Entry, Wichita Falls, TX
  Oral Testimony.................................................    63
  Prepared Statement.............................................    65
Mr. George T. McDonald, President, Doe Fund, Inc., New York, NY
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    36

                                APPENDIX

Material Submitted for the Hearing Record........................    86


                       SECOND CHANCE ACT OF 2007

                              ----------                              


                        TUESDAY, MARCH 20, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:52 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
C. Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Nadler, Johnson, Jackson 
Lee, Conyers, Forbes, Gohmert, Coble, Chabot, and Lungren.
    Staff present: Keenan Kelly, Majority Counsel; Michael 
Volkov, Minority Counsel; and Veronica Eligan, Professional 
Staff Member.
    Mr. Scott. The Subcommittee will come to order.
    And I want to apologize for the delay. We have votes on the 
floor. And hopefully we will have a little time without 
interruption.
    I am pleased to welcome you to the hearing on the Second 
Chance Act of 2007.
    [The text of the bill, H.R. 1593, follows:]

<bullet>HR 1593 IH  ___________________________________________________

                                                                      I
110th CONGRESS
    1st Session

                                H. R. 1593

To reauthorize the grant program for reentry of offenders into the 
    community in the Omnibus Crime Control and Safe Streets Act of 
    1968, to improve reentry planning and implementation, and for other 
    purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                             March 20, 2007
Mr. Davis of Illinois (for himself, Mr. Cannon, Mr. Conyers, Mr. Coble, 
    Mr. Scott of Virginia, Mr. Smith of Texas, Mrs. Jones of Ohio, Mr. 
    Forbes, Mr. Schiff, Mr. Sensenbrenner, Mr. Chabot, Ms. Jackson-Lee 
    of Texas, Mr. Cummings, Mr. Johnson of Georgia, and Ms. Clarke) 
    introduced the following bill; which was referred to the Committee 
    on the Judiciary
                               __________

                                 A BILL

To reauthorize the grant program for reentry of offenders into the 
    community in the Omnibus Crime Control and Safe Streets Act of 
    1968, to improve reentry planning and implementation, and for other 
    purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Second Chance Act of 2007: Community 
Safety Through Recidivism Prevention'' or the ``Second Chance Act of 
2007''.

SEC. 2. TABLE OF CONTENTS.

    The table of contents for this Act is as follows:

    Sec. 1. Short title.
    Sec. 2. Table of contents.
    Sec. 3. Findings.
    Sec. 4. Submission of reports to Congress.

   TITLE I--AMENDMENTS RELATED TO THE OMNIBUS CRIME CONTROL AND SAFE 
                          STREETS ACT OF 1968

             Subtitle A--Improvements to Existing Programs

    Sec. 101. Reauthorization of adult and juvenile offender State and 
local reentry demonstration projects.
    Sec. 102. Improvement of the residential substance abuse treatment 
for State offenders program.

  Subtitle B--New and Innovative Programs to Improve Offender Reentry 
                                Services

    Sec. 111. State and local reentry courts.
    Sec. 112. Grants for comprehensive and continuous offender reentry 
task forces.
    Sec. 113. Prosecution drug treatment alternative to prison 
programs.
    Sec. 114. Grants for family substance abuse treatment alternatives 
to incarceration.
    Sec. 115. Prison-based family treatment programs for incarcerated 
parents of minor children.
    Sec. 116. Grant programs relating to educational methods at 
prisons, jails, and juvenile facilities.

                   Subtitle C--Conforming Amendments

    Sec. 121. Use of violent offender truth-in-sentencing grant funding 
for demonstration project activities.

     TITLE II--ENHANCED DRUG TREATMENT AND MENTORING GRANT PROGRAMS

                       Subtitle A--Drug Treatment

    Sec. 201. Grants for demonstration programs to reduce drug use and 
recidivism in long-term substance abusers.
    Sec. 202. Grants for demonstration programs by local partnerships 
to reduce illegal drug demand by providing drug treatment.
    Sec. 203. Offender drug treatment incentive grants.
    Sec. 204. Ensuring availability and delivery of new pharmacological 
drug treatment services.
    Sec. 205. Study of effectiveness of depot naltrexone for heroin 
addiction.

                        Subtitle B--Job Training

    Sec. 211. Technology careers training demonstration grants.

                         Subtitle C--Mentoring

    Sec. 221. Mentoring grants to nonprofit organizations.
    Sec. 222. Bureau of Prisons policy on mentoring contacts.

             Subtitle D--Administration of Justice Reforms

             Chapter 1--Improving Federal Offender Reentry

    Sec. 231. Federal prisoner reentry program.
    Sec. 232. Identification and release assistance for Federal 
prisoners.
    Sec. 233. Improved reentry procedures for Federal prisoners.
    Sec. 234. Duties of the Bureau of Prisons.
    Sec. 235. Authorization of appropriations for Bureau of Prisons.
    Sec. 236. Encouragement of employment of former prisoners.
    Sec. 237. Elderly nonviolent offender pilot program.

                      Chapter 2--Reentry Research

    Sec. 241. Offender reentry research.
    Sec. 242. Grants to study parole or post-incarceration supervision 
violations and revocations.
    Sec. 243. Addressing the needs of children of incarcerated parents.

            Chapter 3--Correctional Reforms to Existing Law

    Sec. 251. Clarification of authority to place prisoner in community 
corrections.
    Sec. 252. Residential drug abuse program in Federal prisons.
    Sec. 253. Medical care for prisoners.
    Sec. 254. Contracting for services for post-conviction supervision 
offenders.

SEC. 3. FINDINGS.

    Congress finds the following:
            (1) In 2002, over 7,000,000 people were incarcerated in 
        Federal, State, or local prisons or jails, or were under parole 
        or court supervision. Nearly 650,000 people are released from 
        Federal and State incarceration into communities nationwide 
        each year.
            (2) There are over 3,200 jails throughout the United 
        States, the vast majority of which are operated by county 
        governments. Each year, these jails will release more than 
        10,000,000 people back into the community.
            (3) Nearly \2/3\ of released State prisoners are expected 
        to be rearrested for a felony or serious misdemeanor within 3 
        years after release.
            (4) According to the Bureau of Justice Statistics, 
        expenditures on corrections alone increased from $9,000,000,000 
        in 1982 to $59,600,000,000 in 2002. These figures do not 
        include the cost of arrest and prosecution, nor do they take 
        into account the cost to victims.
            (5) The Serious and Violent Offender Reentry Initiative 
        provided $139,000,000 in funding for State governments to 
        develop and implement education, job training, mental health 
        treatment, and substance abuse treatment for serious and 
        violent offenders. This Act seeks to build upon the innovative 
        and successful State reentry programs developed under the 
        Serious and Violent Offender Reentry Initiative, which 
        terminated after fiscal year 2005.
            (6) Between 1991 and 1999, the number of children with a 
        parent in a Federal or State correctional facility increased by 
        more than 100 percent, from approximately 900,000 to 
        approximately 2,000,000. According to the Bureau of Prisons, 
        there is evidence to suggest that inmates who are connected to 
        their children and families are more likely to avoid negative 
        incidents and have reduced sentences.
            (7) Released prisoners cite family support as the most 
        important factor in helping them stay out of prison. Research 
        suggests that families are an often underutilized resource in 
        the reentry process.
            (8) Approximately 100,000 juveniles (ages 17 years and 
        under) leave juvenile correctional facilities, State prison, or 
        Federal prison each year. Juveniles released from secure 
        confinement still have their likely prime crime years ahead of 
        them. Juveniles released from secure confinement have a 
        recidivism rate ranging from 55 to 75 percent. The chances that 
        young people will successfully transition into society improve 
        with effective reentry and aftercare programs.
            (9) Studies have shown that between 15 percent and 27 
        percent of prisoners expect to go to homeless shelters upon 
        release from prison.
            (10) Fifty-seven percent of Federal and 70 percent of State 
        inmates used drugs regularly before going to prison, and the 
        Bureau of Justice Statistics report titled ``Trends in State 
        Parole, 1990-2000'' estimates the use of drugs or alcohol 
        around the time of the offense that resulted in the 
        incarceration of the inmate at as high as 84 percent.
            (11) Family-based treatment programs have proven results 
        for serving the special populations of female offenders and 
        substance abusers with children. An evaluation by the Substance 
        Abuse and Mental Health Services Administration of family-based 
        treatment for substance-abusing mothers and children found that 
        6 months after such treatment, 60 percent of the mothers 
        remained alcohol and drug free, and drug-related offenses 
        declined from 28 percent to 7 percent. Additionally, a 2003 
        evaluation of residential family-based treatment programs 
        revealed that 60 percent of mothers remained clean and sober 6 
        months after treatment, criminal arrests declined by 43 
        percent, and 88 percent of the children treated in the program 
        with their mothers remained stabilized.
            (12) A Bureau of Justice Statistics analysis indicated that 
        only 33 percent of Federal inmates and 36 percent of State 
        inmates had participated in residential in-patient treatment 
        programs for alcohol and drug abuse 12 months before their 
        release. Further, over \1/3\ of all jail inmates have some 
        physical or mental disability and 25 percent of jail inmates 
        have been treated at some time for a mental or emotional 
        problem.
            (13) State Substance Abuse Agency Directors, also known as 
        Single State Authorities (SSAs), manage the Nation's publicly 
        funded substance abuse prevention and treatment systems. SSAs 
        are responsible for planning and implementing State-wide 
        systems of care that provide clinically appropriate substance 
        abuse services. Given the high rate of substance use disorders 
        among offenders reentering our communities, successful reentry 
        programs require close interaction and collaboration with SSAs 
        when planning, implementing, and evaluating reentry programs.
            (14) According to the National Institute of Literacy, 70 
        percent of all prisoners function at the lowest literacy 
        levels.
            (15) Less than 32 percent of State prison inmates have a 
        high school diploma or a higher level of education, compared to 
        82 percent of the general population.
            (16) Approximately 38 percent of inmates who completed 11 
        years or less of school were not working before entry into 
        prison.
            (17) The percentage of State prisoners participating in 
        educational programs decreased by more than 8 percent between 
        1991 and 1997, despite growing evidence of how educational 
        programming while incarcerated reduces recidivism.
            (18) The National Institute of Justice has found that 1 
        year after release, up to 60 percent of former inmates are not 
        employed.
            (19) Transitional jobs programs have proven to help people 
        with criminal records to successfully return to the workplace 
        and to the community, and therefore can reduce recidivism.

SEC. 4. SUBMISSION OF REPORTS TO CONGRESS.

    Not later than January 31 of each year, the Attorney General shall 
submit all reports received under this Act and the amendments made by 
this Act during the preceding year to the Committee on the Judiciary of 
the Senate and the Committee on the Judiciary of the House of 
Representatives.

   TITLE I--AMENDMENTS RELATED TO THE OMNIBUS CRIME CONTROL AND SAFE 
                          STREETS ACT OF 1968

             Subtitle A--Improvements to Existing Programs

SEC. 101. REAUTHORIZATION OF ADULT AND JUVENILE OFFENDER STATE AND 
                    LOCAL REENTRY DEMONSTRATION PROJECTS.

    (a) Adult and Juvenile Offender Demonstration Projects 
Authorized.--Section 2976(b) of the Omnibus Crime Control and Safe 
Streets Act of 1968 (42 U.S.C. 3797w(b)) is amended by striking 
paragraphs (1) through (4) and inserting the following:
            ``(1) establishing or improving the system or systems under 
        which--
                    ``(A) correctional agencies and other criminal and 
                juvenile justice agencies of the grant recipient 
                develop and carry out plans to facilitate the reentry 
                into the community of each offender in the custody of 
                the jurisdiction involved;
                    ``(B) the supervision and services provided to 
                offenders in the custody of the jurisdiction involved 
                are coordinated with the supervision and services 
                provided to offenders after reentry into the community, 
                including coordination with Comprehensive and 
                Continuous Offender Reentry Task Forces under section 
                2902 or with similar planning groups;
                    ``(C) the efforts of various public and private 
                entities to provide supervision and services to 
                offenders after reentry into the community, and to 
                family members of such offenders, are coordinated; and
                    ``(D) offenders awaiting reentry into the community 
                are provided with documents (such as identification 
                papers, referrals to services, medical prescriptions, 
                job training certificates, apprenticeship papers, and 
                information on obtaining public assistance) useful in 
                achieving a successful transition from prison, jail, or 
                a juvenile facility;
            ``(2) carrying out programs and initiatives by units of 
        local government to strengthen reentry services for individuals 
        released from local jails, including coordination with 
        Comprehensive and Continuous Offender Reentry Task Forces under 
        section 2902 or with similar planning groups;
            ``(3) assessing the literacy, educational, and vocational 
        needs of offenders in custody and identifying and providing 
        services appropriate to meet those needs, including follow-up 
        assessments and long-term services;
            ``(4) facilitating collaboration among corrections 
        (including community corrections), technical schools, community 
        colleges, businesses, nonprofit, and the workforce development 
        and employment service sectors--
                    ``(A) to promote, where appropriate, the employment 
                of people released from prison, jail, or a juvenile 
                facility through efforts such as educating employers 
                about existing financial incentives;
                    ``(B) to facilitate the creation of job 
                opportunities, including transitional jobs and time-
                limited subsidized work experience (where appropriate);
                    ``(C) to connect offenders to employment (including 
                supportive employment and employment services before 
                their release to the community), provide work supports 
                (including transportation and retention services), as 
                appropriate, and identify labor market needs to ensure 
                that education and training are appropriate; and
                    ``(D) to address obstacles to employment that are 
                not directly connected to the offense committed and the 
                risk that the offender presents to the community and 
                provide case management services as necessary to 
                prepare offenders for jobs that offer the potential for 
                advancement and growth;
            ``(5) providing offenders with education, job training, 
        responsible parenting and healthy relationship skills training 
        (designed specifically to address the needs of fathers and 
        mothers in or transitioning from prison, jail, or a juvenile 
        facility), English literacy education, work experience 
        programs, self-respect and life skills training, and other 
        skills useful in achieving a successful transition from prison, 
        jail, or a juvenile facility;
            ``(6) providing structured post-release housing and 
        transitional housing (including group homes for recovering 
        substance abusers (with appropriate safeguards that may include 
        single-gender housing)) through which offenders are provided 
        supervision and services immediately following reentry into the 
        community;
            ``(7) assisting offenders in securing permanent housing 
        upon release or following a stay in transitional housing;
            ``(8) providing substance abuse treatment and services, 
        including providing a full continuum of substance abuse 
        treatment services that encompasses outpatient services, 
        comprehensive residential services and recovery, and recovery 
        home services to offenders reentering the community from 
        prison, jail, or a juvenile facility;
            ``(9) expanding family-based drug treatment centers that 
        offer family-based comprehensive treatment services for parents 
        and their children as a complete family unit, as appropriate to 
        the safety, security, and well-being of the family;
            ``(10) encouraging collaboration among juvenile and adult 
        corrections, community corrections, and community health 
        centers to allow access to affordable and quality primary 
        health care for offenders during the period of transition from 
        prison, jail, or a juvenile facility;
            ``(11) providing or facilitating health care services to 
        offenders (including substance abuse screening, treatment, and 
        aftercare, infectious disease screening and treatment, and 
        screening, assessment, and aftercare for mental health 
        services) to protect the communities in which offenders will 
        live;
            ``(12) enabling prison, jail, or juvenile facility mentors 
        of offenders to remain in contact with those offenders 
        (including through the use of all available technology) while 
        in prison, jail, or a juvenile facility and after reentry into 
        the community, and encouraging the involvement of prison, jail, 
        or a juvenile facility mentors in the reentry process;
            ``(13) systems under which family members of offenders are 
        involved in facilitating the successful reentry of those 
        offenders into the community (as appropriate to the safety, 
        security, and well-being of the family), including removing 
        obstacles to the maintenance of family relationships while the 
        offender is in custody, strengthening the family's capacity to 
        function as a stable living situation during reentry, and 
        involving family members in the planning and implementation of 
        the reentry process;
            ``(14) creating, developing, or enhancing offender and 
        family assessments, curricula, policies, procedures, or 
        programs (including mentoring programs)--
                    ``(A) to help offenders with a history or 
                identified risk of domestic violence, dating violence, 
                sexual assault, or stalking reconnect with their 
                families and communities (as appropriate to the safety, 
                security, and well-being of the family), and become 
                non-abusive parents or partners; and
                    ``(B) under which particular attention is paid to 
                the safety of children affected and the confidentiality 
                concerns of victims, and efforts are coordinated with 
                victim service providers;
            ``(15) maintaining the parent-child relationship, as 
        appropriate to the safety, security, and well-being of the 
        child as determined by the relevant corrections and child 
        protective services agencies, including--
                    ``(A) implementing programs in correctional 
                agencies to include the collection of information 
                regarding any dependent children of an offender as part 
                of intake procedures, including the number, age, and 
                location or jurisdiction of such children;
                    ``(B) connecting those identified children with 
                services as appropriate and needed;
                    ``(C) carrying out programs (including mentoring) 
                that support children of incarcerated parents, 
                including those in foster care and those cared for by 
                grandparents or other relatives (which is commonly 
                referred to as kinship care);
                    ``(D) developing programs and activities (including 
                mentoring) that support parent-child relationships, as 
                appropriate to the safety, security, and well-being of 
                the family, including technology to promote the parent-
                child relationship and to facilitate participation in 
                parent-teacher conferences, books on tape programs, 
                family days, and visitation areas for children while 
                visiting an incarcerated parent;
                    ``(E) helping incarcerated parents to learn 
                responsible parenting and healthy relationship skills;
                    ``(F) addressing visitation obstacles to children 
                of an incarcerated parent, such as the location of 
                facilities in remote areas, telephone costs, mail 
                restrictions, and visitation policies; and
                    ``(G) identifying and addressing obstacles to 
                collaborating with child welfare agencies in the 
                provision of services jointly to offenders in custody 
                and to the children of such offenders;
            ``(16) carrying out programs for the entire family unit, 
        including the coordination of service delivery across agencies;
            ``(17) facilitating and encouraging timely and complete 
        payment of restitution and fines by offenders to victims and 
        the community;
            ``(18) providing services as necessary to victims upon 
        release of offenders, including security services and 
        counseling, and facilitating the inclusion of victims, on a 
        voluntary basis, in the reentry process;
            ``(19) establishing or expanding the use of reentry courts 
        and other programs to--
                    ``(A) monitor offenders returning to the community;
                    ``(B) provide returning offenders with--
                            ``(i) drug and alcohol testing and 
                        treatment; and
                            ``(ii) mental and medical health assessment 
                        and services;
                    ``(C) facilitate restorative justice practices and 
                convene family or community impact panels, family 
                impact educational classes, victim impact panels, or 
                victim impact educational classes;
                    ``(D) provide and coordinate the delivery of other 
                community services to offenders, including--
                            ``(i) employment training;
                            ``(ii) education;
                            ``(iii) housing assistance;
                            ``(iv) children and family support, to 
                        include responsible parenting and healthy 
                        relationship skill training designed 
                        specifically to address the needs of 
                        incarcerated and transitioning fathers and 
                        mothers;
                            ``(v) conflict resolution skills training;
                            ``(vi) family violence intervention 
                        programs; and
                            ``(vii) other appropriate services; and
                    ``(E) establish and implement graduated sanctions 
                and incentives;
            ``(20) developing a case management reentry program that--
                    ``(A) provides services to eligible veterans, as 
                defined by the Attorney General; and
                    ``(B) provides for a reentry service network solely 
                for such eligible veterans that coordinates community 
                services and veterans services for offenders who 
                qualify for such veterans services; and
            ``(21) protecting communities against dangerous offenders, 
        including--
                    ``(A) conducting studies in collaboration with 
                Federal research initiatives in effect on the date of 
                enactment of the Second Chance Act of 2007, to 
                determine which offenders are returning to prisons, 
                jails, and juvenile facilities and which of those 
                returning offenders represent the greatest risk to 
                community safety;
                    ``(B) developing and implementing procedures to 
                assist relevant authorities in determining when release 
                is appropriate and in the use of data to inform the 
                release decision;
                    ``(C) using validated assessment tools to assess 
                the risk factors of returning inmates, and developing 
                or adopting procedures to ensure that dangerous felons 
                are not released from prison prematurely; and
                    ``(D) developing and implementing procedures to 
                identify efficiently and effectively those violators of 
                probation, parole, or post-incarceration supervision 
                who represent the greatest risk to community safety.''.
    (b) Juvenile Offender Demonstration Projects Reauthorized.--Section 
2976(c) of the Omnibus Crime Control and Safe Streets Act of 1968 (42 
U.S.C. 3797w(c)) is amended by striking ``may be expended for'' and all 
that follows through the period at the end and inserting ``may be 
expended for any activity referred to in subsection (b).''.
    (c) Applications; Requirements; Priorities; Performance 
Measurements.--Section 2976 of the Omnibus Crime Control and Safe 
Streets Act of 1968 (42 U.S.C. 3797w) is further amended--
            (1) by redesignating subsection (h) as subsection (o); and
            (2) by striking subsections (d) through (g) and inserting 
        the following:
    ``(d) Applications.--A State, unit of local government, territory, 
or Indian tribe, or combination thereof, desiring a grant under this 
section shall submit an application to the Attorney General that--
            ``(1) contains a reentry strategic plan, as described in 
        subsection (h), which describes the long-term strategy and 
        incorporates a detailed implementation schedule, including the 
        plans of the applicant to pay for the program after the Federal 
        funding is discontinued;
            ``(2) identifies the local government role and the role of 
        governmental agencies and nonprofit organizations that will be 
        coordinated by, and that will collaborate on, the offender 
        reentry strategy of the applicant and certifies their 
        involvement; and
            ``(3) describes the evidence-based methodology and outcome 
        measures that will be used to evaluate the program, and 
        specifically explains how such measurements will provide valid 
        measures of the program's impact.
    ``(e) Requirements.--The Attorney General may make a grant to an 
applicant under this section only if the application--
            ``(1) reflects explicit support of the chief executive 
        officer of the State, unit of local government, territory, or 
        Indian tribe applying for a grant under this section;
            ``(2) provides extensive discussion of the role of State 
        corrections departments, community corrections agencies, 
        juvenile justice systems, or local jail systems in ensuring 
        successful reentry of offenders into their communities;
            ``(3) provides extensive evidence of collaboration with 
        State and local government agencies overseeing health, housing, 
        child welfare, education, substance abuse, victims services, 
        and employment services, and with local law enforcement;
            ``(4) provides a plan for analysis of the statutory, 
        regulatory, rules-based, and practice-based hurdles to 
        reintegration of offenders into the community; and
            ``(5) includes the use of a State, local, territorial, or 
        tribal task force, described in subsection (i), to carry out 
        the activities funded under the grant.
    ``(f) Priority Considerations.--The Attorney General shall give 
priority to grant applications under this section that best--
            ``(1) focus initiative on geographic areas with a 
        disproportionate population of offenders released from prisons, 
        jails, and juvenile facilities;
            ``(2) include--
                    ``(A) input from nonprofit organizations, in any 
                case where relevant input is available and appropriate 
                to the grant application;
                    ``(B) consultations with crime victims and 
                offenders who are released from prisons, jails, and 
                juvenile facilities; and
                    ``(C) coordination with families of offenders;
            ``(3) demonstrate effective case assessment and management 
        abilities in order to provide comprehensive and continuous 
        reentry, including--
                    ``(A) planning while offenders are in prison, jail, 
                or a juvenile facility, pre-release transition housing, 
                and community release;
                    ``(B) establishing pre-release planning procedures 
                to ensure that the eligibility of an offender for 
                Federal or State benefits upon release is established 
                prior to release, subject to any limitations in law, 
                and to ensure that offenders obtain all necessary 
                referrals for reentry services; and
                    ``(C) delivery of continuous and appropriate drug 
                treatment, medical care, job training and placement, 
                educational services, or any other service or support 
                needed for reentry;
            ``(4) review the process by which the applicant adjudicates 
        violations of parole, probation, or supervision following 
        release from prison, jail, or a juvenile facility, taking into 
        account public safety and the use of graduated, community-based 
        sanctions for minor and technical violations of parole, 
        probation, or supervision (specifically those violations that 
        are not otherwise, and independently, a violation of law);
            ``(5) provide for an independent evaluation of reentry 
        programs that include, to the maximum extent possible, random 
        assignment and controlled studies to determine the 
        effectiveness of such programs; and
            ``(6) target high-risk offenders for reentry programs 
        through validated assessment tools.
    ``(g) Uses of Grant Funds.--
            ``(1) Federal share.--
                    ``(A) In general.--Except as provided in 
                subparagraph (B), the Federal share of a grant received 
                under this section may not exceed 75 percent of the 
                project funded under such grant in fiscal year 2008.
                    ``(B) Waiver.--Subparagraph (A) shall not apply if 
                the Attorney General--
                            ``(i) waives, in whole or in part, the 
                        requirement of this paragraph; and
                            ``(ii) publishes in the Federal Register 
                        the rationale for the waiver.
            ``(2) Supplement not supplant.--Federal funds received 
        under this section shall be used to supplement, not supplant, 
        non-Federal funds that would otherwise be available for the 
        activities funded under this section.
    ``(h) Reentry Strategic Plan.--
            ``(1) In general.--As a condition of receiving financial 
        assistance under this section, each applicant shall develop a 
        comprehensive strategic reentry plan that contains measurable 
        annual and 5-year performance outcomes, and that uses, to the 
        maximum extent possible, random assigned and controlled studies 
        to determine the effectiveness of the program. One goal of the 
        plan shall be to reduce the rate of recidivism (as defined by 
        the Attorney General, consistent with the research on offender 
        reentry undertaken by the Bureau of Justice Statistics) for 
        offenders released from prison, jail, or a juvenile facility 
        who are served with funds made available under this section.
            ``(2) Coordination.--In developing a reentry plan under 
        this subsection, an applicant shall coordinate with communities 
        and stakeholders, including persons in the fields of public 
        safety, juvenile and adult corrections, housing, health, 
        education, substance abuse, children and families, victims 
        services, employment, and business and members of nonprofit 
        organizations that can provide reentry services.
            ``(3) Measurements of progress.--Each reentry plan 
        developed under this subsection shall measure the progress of 
        the applicant toward increasing public safety by reducing rates 
        of recidivism and enabling released offenders to transition 
        successfully back into their communities.
    ``(i) Reentry Task Force.--
            ``(1) In general.--As a condition of receiving financial 
        assistance under this section, each applicant shall establish 
        or empower a Reentry Task Force, or other relevant convening 
        authority, to--
                    ``(A) examine ways to pool resources and funding 
                streams to promote lower recidivism rates for returning 
                offenders and minimize the harmful effects of 
                offenders' time in prison, jail, or a juvenile facility 
                on families and communities of offenders by collecting 
                data and best practices in offender reentry from 
                demonstration grantees and other agencies and 
                organizations; and
                    ``(B) provide the analysis described in subsection 
                (e)(4).
            ``(2) Membership.--The task force or other authority under 
        this subsection shall be comprised of--
                    ``(A) relevant State, tribal, territorial, or local 
                leaders; and
                    ``(B) representatives of relevant--
                            ``(i) agencies;
                            ``(ii) service providers;
                            ``(iii) nonprofit organizations; and
                            ``(iv) stakeholders.
    ``(j) Strategic Performance Outcomes.--
            ``(1) In general.--Each applicant shall identify in the 
        reentry strategic plan developed under subsection (h), specific 
        performance outcomes related to the long-term goals of 
        increasing public safety and reducing recidivism.
            ``(2) Performance outcomes.--The performance outcomes 
        identified under paragraph (1) shall include, with respect to 
        offenders released back into the community--
                    ``(A) reduction in recidivism rates, which shall be 
                reported in accordance with the measure selected by the 
                Director of the Bureau of Prisons under section 
                234(c)(2) of the Second Chance Act of 2007;
                    ``(B) reduction in crime;
                    ``(C) increased employment and education 
                opportunities;
                    ``(D) reduction in violations of conditions of 
                supervised release;
                    ``(E) increased child support;
                    ``(F) increased housing opportunities;
                    ``(G) reduction in drug and alcohol abuse; and
                    ``(H) increased participation in substance abuse 
                and mental health services.
            ``(3) Other outcomes.--A grantee under this section may 
        include in their reentry strategic plan other performance 
        outcomes that increase the success rates of offenders who 
        transition from prison, jails, or juvenile facilities.
            ``(4) Coordination.--A grantee under this section shall 
        coordinate with communities and stakeholders about the 
        selection of performance outcomes identified by the applicant, 
        and shall consult with the Attorney General for assistance with 
        data collection and measurement activities as provided for in 
        the grant application materials.
            ``(5) Report.--
                    ``(A) In general.--Each grantee under this section 
                shall submit an annual report to the Attorney General 
                that--
                            ``(i) identifies the progress of the 
                        grantee toward achieving its strategic 
                        performance outcomes; and
                            ``(ii) describes other activities conducted 
                        by the grantee to increase the success rates of 
                        the reentry population, such as programs that 
                        foster effective risk management and treatment 
                        programming, offender accountability, and 
                        community and victim participation.
                    ``(B) Submission to congress.--On an annual basis, 
                the Attorney General shall submit all reports received 
                under this paragraph during the previous year to the 
                Committee on the Judiciary of the Senate and the 
                Committee on the Judiciary of the House of 
                Representatives.
    ``(k) Performance Measurement.--
            ``(1) In general.--The Attorney General, in consultation 
        with grantees under this section, shall--
                    ``(A) identify primary and secondary sources of 
                information to support the measurement of the 
                performance indicators identified under this section;
                    ``(B) identify sources and methods of data 
                collection in support of performance measurement 
                required under this section;
                    ``(C) provide to all grantees technical assistance 
                and training on performance measures and data 
                collection for purposes of this section; and
                    ``(D) consult with the Substance Abuse and Mental 
                Health Services Administration and the National 
                Institute on Drug Abuse on strategic performance 
                outcome measures and data collection for purposes of 
                this section relating to substance abuse and mental 
                health.
            ``(2) Coordination.--The Attorney General shall coordinate 
        with other Federal agencies to identify national and other 
        sources of information to support performance measurement of 
        grantees.
            ``(3) Standards for analysis.--Any statistical analysis of 
        population data conducted pursuant to this section shall be 
        conducted in accordance with the Federal Register Notice dated 
        October 30, 1997, relating to classification standards.
    ``(l) Future Eligibility.--To be eligible to receive a grant under 
this section in any fiscal year after the fiscal year in which a 
grantee receives a grant under this section, a grantee shall submit to 
the Attorney General such information as is necessary to demonstrate 
that--
            ``(1) the grantee has adopted a reentry plan that reflects 
        input from nonprofit organizations, in any case where relevant 
        input is available and appropriate to the grant application;
            ``(2) the reentry plan of the grantee includes performance 
        measures to assess the progress of the grantee toward 
        increasing public safety by reducing the rate at which 
        individuals released from prisons, jails, or juvenile 
        facilities who participate in the reentry system supported by 
        Federal funds are recommitted to prisons, jails, or juvenile 
        facilities; and
            ``(3) the grantee will coordinate with the Attorney 
        General, nonprofit organizations (if relevant input from 
        nonprofit organizations is available and appropriate), and 
        other experts regarding the selection and implementation of the 
        performance measures described in subsection (k).
    ``(m) National Adult and Juvenile Offender Reentry Resource 
Center.--
            ``(1) Authority.--The Attorney General may, using amounts 
        made available to carry out this subsection, make a grant to an 
        eligible organization to provide for the establishment of a 
        National Adult and Juvenile Offender Reentry Resource Center.
            ``(2) Eligible organization.--An organization eligible for 
        the grant under paragraph (1) is any national nonprofit 
        organization approved by the Interagency Task Force on Federal 
        Programs and Activities Relating to the Reentry of Offenders 
        Into the Community, that provides technical assistance and 
        training to, and has special expertise and broad, national-
        level experience in, offender reentry programs, training, and 
        research.
            ``(3) Use of funds.--The organization receiving the grant 
        under paragraph (1) shall establish a National Adult and 
        Juvenile Offender Reentry Resource Center to--
                    ``(A) provide education, training, and technical 
                assistance for States, tribes, territories, local 
                governments, service providers, nonprofit 
                organizations, and corrections institutions;
                    ``(B) collect data and best practices in offender 
                reentry from demonstration grantees and others agencies 
                and organizations;
                    ``(C) develop and disseminate evaluation tools, 
                mechanisms, and measures to better assess and document 
                coalition performance measures and outcomes;
                    ``(D) disseminate information to States and other 
                relevant entities about best practices, policy 
                standards, and research findings;
                    ``(E) develop and implement procedures to assist 
                relevant authorities in determining when release is 
                appropriate and in the use of data to inform the 
                release decision;
                    ``(F) develop and implement procedures to identify 
                efficiently and effectively those violators of 
                probation, parole, or supervision following release 
                from prison, jail, or a juvenile facility who should be 
                returned to prisons, jails, or juvenile facilities and 
                those who should receive other penalties based on 
                defined, graduated sanctions;
                    ``(G) collaborate with the Interagency Task Force 
                on Federal Programs and Activities Relating to the 
                Reentry of Offenders Into the Community, and the 
                Federal Resource Center for Children of Prisoners;
                    ``(H) develop a national reentry research agenda;
                    ``(I) bridge the gap between reentry research and 
                practice by translating knowledge from research into 
                practical information; and
                    ``(J) establish a database to enhance the 
                availability of information that will assist offenders 
                in areas such as housing, employment, counseling, 
                mentoring, medical and mental health services, 
                substance abuse treatment, transportation, and daily 
                living skills.
            ``(4) Limit.--Of amounts made available to carry out this 
        section, not more than 4 percent shall be available to carry 
        out this subsection.
    ``(n) Administration.--Of amounts made available to carry out this 
section--
            ``(1) not more than 2 percent shall be available for 
        administrative expenses in carrying out this section; and
            ``(2) not more than 2 percent shall be made available to 
        the National Institute of Justice to evaluate the effectiveness 
        of the demonstration projects funded under this section, using 
        a methodology that--
                    ``(A) includes, to the maximum extent feasible, 
                random assignment of offenders (or entities working 
                with such persons) to program delivery and control 
                groups; and
                    ``(B) generates evidence on which reentry 
                approaches and strategies are most effective.''.
    (d) Grant Authorization.--Section 2976(a) of the Omnibus Crime 
Control and Safe Streets Act of 1968 (42 U.S.C. 3797w(a)) is amended by 
striking ``States, Territories'' and all that follows through the 
period at the end and inserting the following: ``States, local 
governments, territories, or Indian tribes, or any combination thereof, 
in partnership with stakeholders, service providers, and nonprofit 
organizations.''.
    (e) Authorization of Appropriations.--Section 2976(o) of the 
Omnibus Crime Control and Safe Streets Act of 1968 (42 U.S.C. 3797w), 
as so redesignated by subsection (c) of this section, is amended--
            (1) in paragraph (1), by striking ``$15,000,000 for fiscal 
        year 2003'' and all that follows and inserting ``$65,000,000 
        for fiscal year 2008, and $65,000,000 for fiscal year 2009.''; 
        and
            (2) by amending paragraph (2) to read as follows:
            ``(2) Limitation.--Of the amount made available to carry 
        out this section in any fiscal year, not more than 3 percent or 
        less than 2 percent may be used for technical assistance and 
        training.''.

SEC. 102. IMPROVEMENT OF THE RESIDENTIAL SUBSTANCE ABUSE TREATMENT FOR 
                    STATE OFFENDERS PROGRAM.

    (a) Requirement for Aftercare Component.--Section 1902(c) of the 
Omnibus Crime Control and Safe Streets Act of 1968 (42 U.S.C. 3796ff-
1(c)), is amended--
            (1) by striking the subsection heading and inserting 
        ``Requirement for Aftercare Component.--''; and
            (2) by amending paragraph (1) to read as follows:
            ``(1) To be eligible for funding under this part, a State 
        shall ensure that individuals who participate in the substance 
        abuse treatment program established or implemented with 
        assistance provided under this part will be provided with 
        aftercare services, which may include case management services 
        and a full continuum of support services that ensure providers 
        furnishing services under the program are approved by the 
        appropriate State or local agency, and licensed, if necessary, 
        to provide medical treatment or other health services.''.
    (b) Definition.--Section 1904(d) of the Omnibus Crime Control and 
Safe Streets Act of 1968 (42 U.S.C. 3796ff-3(d)) is amended to read as 
follows:
    ``(d) Residential Substance Abuse Treatment Program Defined.--In 
this part, the term `residential substance abuse treatment program' 
means a course of comprehensive individual and group substance abuse 
treatment services, lasting a period of at least 6 months, in 
residential treatment facilities set apart from the general population 
of a prison or jail, which may include the use of pharmacological 
treatment, where appropriate, that may extend beyond such period.''.
    (c) Requirement for Study and Report on Aftercare Services.--The 
Attorney General, through the National Institute of Justice, and in 
consultation with the National Institute on Drug Abuse, shall conduct a 
study on the use and effectiveness of funds used by the Department of 
Justice for aftercare services under section 1902(c) of the Omnibus 
Crime Control and Safe Streets Act of 1968, as amended by subsection 
(a) of this section, for offenders who reenter the community after 
completing a substance abuse program in prison or jail.

  Subtitle B--New and Innovative Programs to Improve Offender Reentry 
                                Services

SEC. 111. STATE AND LOCAL REENTRY COURTS.

    (a) In General.--Part FF of title I of the Omnibus Crime Control 
and Safe Streets Act of 1968 (42 U.S.C. 3797w et seq.), as amended by 
section 101, is further amended by inserting at the end the following:

``SEC. 2978. STATE AND LOCAL REENTRY COURTS.

    ``(a) Grants Authorized.--The Attorney General shall award grants, 
in accordance with this section, of not more than $500,000 to--
            ``(1) State and local courts; and
            ``(2) State agencies, municipalities, public agencies, 
        nonprofit organizations, territories, and Indian tribes that 
        have agreements with courts to take the lead in establishing a 
        reentry court (as described in section 2976(b)(19)).
    ``(b) Use of Grant Funds.--Grant funds awarded under this section 
shall be administered in accordance with such guidelines, regulations, 
and procedures as promulgated by the Attorney General, and may be used 
to--
            ``(1) monitor juvenile and adult offenders returning to the 
        community;
            ``(2) provide juvenile and adult offenders returning to the 
        community with coordinated and comprehensive reentry services 
        and programs such as--
                    ``(A) drug and alcohol testing and assessment for 
                treatment;
                    ``(B) assessment for substance abuse from a 
                substance abuse professional who is approved by the 
                State and licensed by the appropriate entity to provide 
                alcohol and drug addiction treatment, as appropriate;
                    ``(C) substance abuse treatment from a provider 
                that is approved by the State, and licensed, if 
                necessary, to provide medical and other health 
                services;
                    ``(D) health (including mental health) services and 
                assessment;
                    ``(E) aftercare and case management services that--
                            ``(i) facilitate access to clinical care 
                        and related health services; and
                            ``(ii) coordinate with such clinical care 
                        and related health services; and
                    ``(F) any other services needed for reentry;
            ``(3) convene community impact panels, victim impact 
        panels, or victim impact educational classes;
            ``(4) provide and coordinate the delivery of community 
        services to juvenile and adult offenders, including--
                    ``(A) housing assistance;
                    ``(B) education;
                    ``(C) employment training;
                    ``(D) conflict resolution skills training;
                    ``(E) batterer intervention programs; and
                    ``(F) other appropriate social services; and
            ``(5) establish and implement graduated sanctions and 
        incentives.
    ``(c) Rule of Construction.--Nothing in this section shall be 
construed as preventing a grantee that operates a drug court under part 
EE at the time a grant is awarded under this section from using funds 
from such grant to supplement the drug court under part EE in 
accordance with paragraphs (1) through (5) of subsection (b).
    ``(d) Application.--To be eligible for a grant under this section, 
an entity described in subsection (a) shall, in addition to any other 
requirements required by the Attorney General, submit to the Attorney 
General an application that--
            ``(1) describes the program to be assisted under this 
        section and the need for such program;
            ``(2) describes a long-term strategy and detailed 
        implementation plan for such program, including how the entity 
        plans to pay for the program after the Federal funding ends;
            ``(3) identifies the governmental and community agencies 
        that will be coordinated by the project;
            ``(4) certifies that--
                    ``(A) all agencies affected by the program, 
                including existing community corrections and parole 
                entities, have been appropriately consulted in the 
                development of the program;
                    ``(B) there will be appropriate coordination with 
                all such agencies in the implementation of the program; 
                and
                    ``(C) there will be appropriate coordination and 
                consultation with the Single State Authority for 
                Substance Abuse (as defined in section 201(e) of the 
                Second Chance Act of 2007) of the State; and
            ``(5) describes the methodology and outcome measures that 
        will be used to evaluate the program.
    ``(e) Matching Requirements.--The Federal share of a grant under 
this section may not exceed 75 percent of the costs of the project 
assisted by such grant unless the Attorney General--
            ``(1) waives, wholly or in part, the matching requirement 
        under this subsection; and
            ``(2) publicly delineates the rationale for the waiver.
    ``(f) Annual Report.--Each entity receiving a grant under this 
section shall submit to the Attorney General, for each fiscal year in 
which funds from the grant are expended, a report, at such time and in 
such manner as the Attorney General may reasonably require, that 
contains--
            ``(1) a summary of the activities carried out under the 
        program assisted by the grant;
            ``(2) an assessment of whether the activities are meeting 
        the need for the program identified in the application 
        submitted under subsection (d); and
            ``(3) such other information as the Attorney General may 
        require.
    ``(g) Authorization of Appropriations.--
            ``(1) In general.--There are authorized to be appropriated 
        $10,000,000 for each of fiscal years 2008 and 2009 to carry out 
        this section.
            ``(2) Limitations.--Of the amount made available to carry 
        out this section in any fiscal year--
                    ``(A) not more than 2 percent may be used by the 
                Attorney General for salaries and administrative 
                expenses; and
                    ``(B) not more than 5 percent nor less than 2 
                percent may be used for technical assistance and 
                training.''.

SEC. 112. GRANTS FOR COMPREHENSIVE AND CONTINUOUS OFFENDER REENTRY TASK 
                    FORCES.

    Title I of the Omnibus Crime Control and Safe Streets Act of 1968 
(42 U.S.C. 3711 et seq.) is further amended by inserting after part BB 
the following new part:

  ``PART CC--GRANTS FOR COMPREHENSIVE AND CONTINUOUS OFFENDER REENTRY 
                              TASK FORCES

``SEC. 2901. AUTHORIZATION.

    ``The Attorney General shall carry out a grant program under which 
the Attorney General makes grants to States, units of local government, 
territories, Indian tribes, and other public and private entities for 
the purpose of establishing and administering task forces (to be known 
as `Comprehensive and Continuous Offender Reentry Task Forces'), in 
accordance with this part.

``SEC. 2902. COMPREHENSIVE AND CONTINUOUS OFFENDER REENTRY TASK FORCES.

    ``(a) In General.--For purposes of this part, a Comprehensive and 
Continuous Offender Reentry Task Force is a planning group of a State, 
unit of local government, territory, or Indian tribe that--
            ``(1) develops a community reentry plan, described in 
        section 2903, for each juvenile and adult offender to be 
        released from a correctional facility in the applicable 
        jurisdiction;
            ``(2) supervises and assesses the progress of each such 
        offender, with respect to such plan, starting on a date before 
        the offender is released from a correctional facility and 
        ending on the date on which the court supervision of such 
        offender ends;
            ``(3) conducts a detailed assessment of the needs of each 
        offender to address employment training, medical care, drug 
        treatment, education, and any other identified need of the 
        offender to assist in the offender's reentry;
            ``(4) demonstrates affirmative steps to implement such a 
        community reentry plan by consulting and coordinating with 
        other public and nonprofit entities, as appropriate;
            ``(5) establishes appropriate measurements for determining 
        the efficacy of such community reentry plans by monitoring 
        offender performance under such reentry plans;
            ``(6) complies with applicable State, local, territorial, 
        and tribal rules and regulations regarding the provision of 
        applicable services and treatment in the applicable 
        jurisdiction; and
            ``(7) consults and coordinates with the Single State 
        Authority for Substance Abuse (as defined in section 201(e) of 
        the Second Chance Act of 2007) and the criminal justice 
        agencies of the State to ensure that offender reentry plans are 
        coordinated and delivered in the most cost-effective manner, as 
        determined by the Attorney General, in consultation with the 
        grantee.
    ``(b) Consultation Required.--A Comprehensive and Continuous 
Offender Reentry Task Force for a county or other defined geographic 
area shall perform the duties described in paragraphs (1) and (2) of 
subsection (a) in consultation with representatives of--
            ``(1) the criminal and juvenile justice and correctional 
        facilities within the county or area;
            ``(2) the community health care services of the county or 
        area;
            ``(3) the drug treatment programs of the county or area;
            ``(4) the employment opportunities available in the county 
        or area;
            ``(5) housing opportunities available in the county or 
        area; and
            ``(6) any other appropriate community services available in 
        the county or area.

``SEC. 2903. COMMUNITY REENTRY PLAN DESCRIBED.

    ``For purposes of section 2902(a)(1), a community reentry plan for 
an offender is a plan relating to the reentry of the offender into the 
community and, according to the needs of the offender, shall--
            ``(1) identify employment opportunities and goals;
            ``(2) identify housing opportunities;
            ``(3) provide for any needed drug treatment;
            ``(4) provide for any needed mental health services;
            ``(5) provide for any needed health care services;
            ``(6) provide for any needed family counseling;
            ``(7) provide for offender case management programs or 
        services; and
            ``(8) provide for any other service specified by the 
        Comprehensive and Continuous Offender Reentry Task Force as 
        necessary for the offender.

``SEC. 2904. APPLICATION.

    ``To be eligible for a grant under this part, a State or other 
relevant entity shall submit to the Attorney General an application in 
such form and manner and at such time as the Attorney General 
specifies. Such application shall contain such information as the 
Attorney General specifies.

``SEC. 2905. RULE OF CONSTRUCTION.

    ``Nothing in this part shall be construed as supplanting or 
modifying a sentence imposed by a court, including any terms of 
supervision.

``SEC. 2906. REPORTS.

    ``An entity that receives funds under this part for a Comprehensive 
and Continuous Offender Reentry Task Force during a fiscal year shall 
submit to the Attorney General, not later than a date specified by the 
Attorney General, a report that describes and evaluates the 
effectiveness of such Task Force during such fiscal year.

``SEC. 2907. AUTHORIZATION OF APPROPRIATIONS.

    ``There are authorized to be appropriated $10,000,000 to carry out 
this section for each of fiscal years 2008 and 2009.''.

SEC. 113. PROSECUTION DRUG TREATMENT ALTERNATIVE TO PRISON PROGRAMS.

    (a) Authorization.--Title I of the Omnibus Crime Control and Safe 
Streets Act of 1968 (42 U.S.C. 3711 et seq.), as amended by section 112 
of this Act, is further amended by inserting after section 2907 the 
following new part:

  ``PART DD--PROSECUTION DRUG TREATMENT ALTERNATIVE TO PRISON PROGRAMS

``SEC. 2911. GRANT AUTHORITY.

    ``(a) In General.--The Attorney General may make grants to State 
and local prosecutors to develop, implement, or expand qualified drug 
treatment programs that are alternatives to imprisonment, in accordance 
with this section.
    ``(b) Qualified Drug Treatment Programs Described.--For purposes of 
this part, a qualified drug treatment program is a program--
            ``(1) that is administered by a State or local prosecutor;
            ``(2) that requires an eligible offender who is sentenced 
        to participate in the program (instead of incarceration) to 
        participate in a comprehensive substance abuse treatment 
        program that is approved by the State and licensed, if 
        necessary, to provide medical and other health services;
            ``(3) that requires an eligible offender to receive the 
        consent of the State or local prosecutor involved to 
        participate in such program;
            ``(4) that, in the case of an eligible offender who is 
        sentenced to participate in the program, requires the offender 
        to serve a sentence of imprisonment with respect to the crime 
        involved if the prosecutor, in conjunction with the treatment 
        provider, determines that the offender has not successfully 
        completed the relevant substance abuse treatment program 
        described in paragraph (2);
            ``(5) that provides for the dismissal of the criminal 
        charges involved in an eligible offender's participation in the 
        program if the offender is determined to have successfully 
        completed the program;
            ``(6) that requires each substance abuse provider treating 
        an eligible offender under the program to--
                    ``(A) make periodic reports of the progress of the 
                treatment of that offender to the State or local 
                prosecutor involved and to the appropriate court in 
                which the defendant was convicted; and
                    ``(B) notify such prosecutor and such court if the 
                offender absconds from the facility of the treatment 
                provider or otherwise violates the terms and conditions 
                of the program, consistent with Federal and State 
                confidentiality requirements; and
            ``(7) that has an enforcement unit comprised of law 
        enforcement officers under the supervision of the State or 
        local prosecutor involved, the duties of which shall include 
        verifying an offender's addresses and other contacts, and, if 
        necessary, locating, apprehending, and arresting an offender 
        who has absconded from the facility of a substance abuse 
        treatment provider or otherwise violated the terms and 
        conditions of the program, consistent with Federal and State 
        confidentiality requirements, and returning such offender to 
        court for sentencing for the crime involved.

``SEC. 2912. USE OF GRANT FUNDS.

    ``(a) In General.--A State or local prosecutor who receives a grant 
under this part shall use such grant for expenses of a qualified drug 
treatment program, including for the following expenses:
            ``(1) Salaries, personnel costs, equipment costs, and other 
        costs directly related to the operation of the program, 
        including the enforcement unit.
            ``(2) Payments for substance abuse treatment providers that 
        are approved by the State and licensed, if necessary, to 
        provide alcohol and drug addiction treatment to eligible 
        offenders participating in the program, including aftercare 
        supervision, vocational training, education, and job placement.
            ``(3) Payments to public and nonprofit private entities 
        that are approved by the State and licensed, if necessary, to 
        provide alcohol and drug addiction treatment to offenders 
        participating in the program.
    ``(b) Supplement and Not Supplant.--Grants made under this part 
shall be used to supplement, and not supplant, non-Federal funds that 
would otherwise be available for programs described in such subsection.

``SEC. 2913. APPLICATIONS.

    ``To request a grant under this part, a State or local prosecutor 
shall submit an application to the Attorney General in such form and 
containing such information as the Attorney General may reasonably 
require. Each such application shall contain the certification of the 
State or local prosecutor that the program for which the grant is 
requested is a qualified drug treatment program in accordance with this 
part.

``SEC. 2914. FEDERAL SHARE.

    ``The Federal share of a grant made under this part shall not 
exceed 75 percent of the total costs of the qualified drug treatment 
program funded by such grant for the fiscal year for which the program 
receives assistance under this part.

``SEC. 2915. GEOGRAPHIC DISTRIBUTION.

    ``The Attorney General shall ensure that, to the extent 
practicable, the distribution of grants under this part is equitable 
and includes State or local prosecutors--
            ``(1) in each State; and
            ``(2) in rural, suburban, and urban jurisdictions.

``SEC. 2916. REPORTS AND EVALUATIONS.

    ``For each fiscal year, each recipient of a grant under this part 
during such fiscal year shall submit to the Attorney General a report 
with respect to the effectiveness of activities carried out using that 
grant. Each report shall include an evaluation in such form and 
containing such information as the Attorney General may reasonably 
require. The Attorney General shall specify the dates on which such 
reports shall be submitted.

``SEC. 2917. DEFINITIONS.

    ``In this part:
            ``(1) State or local prosecutor.--The term `State or local 
        prosecutor' means any district attorney, State attorney 
        general, county attorney, or corporation counsel who has 
        authority to prosecute criminal offenses under State or local 
        law.
            ``(2) Eligible offender.--The term `eligible offender' 
        means an individual who--
                    ``(A) has been convicted, pled guilty, or admitted 
                guilt with respect to a crime for which a sentence of 
                imprisonment is required and has not completed such 
                sentence;
                    ``(B) has never been charged with or convicted of 
                an offense, during the course of which--
                            ``(i) the person carried, possessed, or 
                        used a firearm or dangerous weapon; or
                            ``(ii) there occurred the use of force 
                        against the person of another, without regard 
                        to whether any of the behavior described in 
                        clause (i) or (ii) is an element of the offense 
                        or for which the person is charged or 
                        convicted;
                    ``(C) does not have one or more prior convictions 
                for a felony crime of violence involving the use or 
                attempted use of force against a person with the intent 
                to cause death or serious bodily harm; and
                    ``(D)(i) has received an assessment for alcohol or 
                drug addiction from a substance abuse professional who 
                is approved by the State and licensed by the 
                appropriate entity to provide alcohol and drug 
                addiction treatment, as appropriate; and
                    ``(ii) has been found to be in need of substance 
                abuse treatment because that offender has a history of 
                substance abuse that is a significant contributing 
                factor to that offender's criminal conduct.''.
    (b) Authorization of Appropriations.--Section 1001(a) of title I of 
the Omnibus Crime Control and Safe Streets Act of 1968 (42 U.S.C. 
3793(a)) is amended by adding at the end the following new paragraph:
            ``(26) There are authorized to be appropriated to carry out 
        part DD such sums as may be necessary for each of fiscal years 
        2008 and 2009.''.

SEC. 114. GRANTS FOR FAMILY SUBSTANCE ABUSE TREATMENT ALTERNATIVES TO 
                    INCARCERATION.

    Title I of the Omnibus Crime Control and Safe Streets Act (42 
U.S.C. 3711 et seq.) is further amended by inserting after Part II the 
following new part:

``PART JJ--GRANTS FOR FAMILY SUBSTANCE ABUSE TREATMENT ALTERNATIVES TO 
                             INCARCERATION

``SEC. 3001. GRANTS AUTHORIZED.

    ``The Attorney General may make grants to States, units of local 
government, territories, and Indian tribes to develop, implement, and 
expand comprehensive and clinically-appropriate family-based substance 
abuse treatment programs as alternatives to incarceration for 
nonviolent parent drug offenders.

``SEC. 3002. USE OF GRANT FUNDS.

    ``Grants made to an entity under section 3001 for a program 
described in such section may be used for the following:
            ``(1) Salaries, personnel costs, facility costs, and other 
        costs directly related to the operation of the program.
            ``(2) Payments to providers of substance abuse treatment 
        for providing treatment and case management to nonviolent 
        parent drug offenders participating in the program, including 
        comprehensive treatment for mental health disorders, parenting 
        classes, educational classes, vocational training, and job 
        placement.
            ``(3) Payments to public and nonprofit private entities to 
        provide substance abuse treatment to nonviolent parent drug 
        offenders participating in the program.

``SEC. 3003. PROGRAM REQUIREMENTS.

    ``A program for which a grant is made under section 3001 shall 
comply with the following requirements:
            ``(1) The program shall ensure that all providers of 
        substance abuse treatment are approved by the State and are 
        licensed, if necessary, to provide medical and other health 
        services.
            ``(2) The program shall provide for appropriate 
        coordination and consultation with the Single State Authority 
        for Substance Abuse (as defined in section 201(e) of the Second 
        Chance Act of 2007) of the State in which the program is 
        located.
            ``(3) The program shall consist of clinically-appropriate, 
        comprehensive, and long-term family treatment, including the 
        treatment of the nonviolent parent drug offender, the child of 
        such offender, and any other appropriate member of the family 
        of the offender.
            ``(4) The program shall be provided in a residential 
        setting that is not a hospital setting or an intensive 
        outpatient setting.
            ``(5) The program shall provide that if a nonviolent parent 
        drug offender who participates in the program does not 
        successfully complete the program the offender shall serve an 
        appropriate sentence of imprisonment with respect to the 
        underlying crime involved.
            ``(6) The program shall ensure that a determination is made 
        as to whether or not a nonviolent drug offender has completed 
        the substance abuse treatment program.
            ``(7) The program shall include the implementation of a 
        system of graduated sanctions (including incentives) that are 
        applied based on the accountability of the nonviolent parent 
        drug offender involved throughout the course of the program to 
        encourage compliance with the program.
            ``(8) The program shall develop and implement a reentry 
        plan for each nonviolent parent drug offender that shall 
        include reinforcement strategies for family involvement as 
        appropriate, relapse strategies, support groups, placement in 
        transitional housing, and continued substance abuse treatment, 
        as needed.

``SEC. 3004. DEFINITIONS.

    ``In this part:
            ``(1) Nonviolent parent drug offenders.--The term 
        `nonviolent parent drug offender' means an offender who is a 
        parent of a minor and who is convicted of a drug (or drug-
        related) felony that is a nonviolent offense.
            ``(2) Nonviolent offense.--The term `nonviolent offense' 
        has the meaning given such term under section 2991(a).

``SEC. 3005. AUTHORIZATION OF APPROPRIATIONS.

    ``There are authorized to be appropriated to carry out this part 
$10,000,000 for each of fiscal years 2008 and 2009.''.

SEC. 115. PRISON-BASED FAMILY TREATMENT PROGRAMS FOR INCARCERATED 
                    PARENTS OF MINOR CHILDREN.

    Title I of the Omnibus Crime Control and Safe Streets Act (42 
U.S.C. 3711 et seq.), is further amended--
            (1) by redesignating Part X at the end (relating to grants 
        for sex offender apprehension and juvenile sex offender 
        treatment) as Part KK; and
            (2) by adding at the end the following new part:

  ``PART LL--PRISON-BASED FAMILY TREATMENT PROGRAMS FOR INCARCERATED 
                       PARENTS OF MINOR CHILDREN

``SEC. 3021. GRANTS AUTHORIZED.

    ``The Attorney General may make grants to States, units of local 
government, territories, and Indian tribes to provide prison-based 
family treatment programs for incarcerated parents of minor children.

``SEC. 3022. USE OF GRANT FUNDS.

    ``An entity that receives a grant under this part shall use amounts 
provided under the grant to--
            ``(1) develop, implement, and expand prison-based family 
        treatment programs in correctional facilities for incarcerated 
        parents with minor children, excluding from the programs those 
        parents with respect to whom there is reasonable evidence of 
        domestic violence or child abuse;
            ``(2) coordinate the design and implementation of such 
        programs between appropriate correctional facility 
        representatives, the Single State Authority for Substance Abuse 
        (as defined in section 201(e) of the Second Chance Act of 
        2007), and other appropriate governmental agencies; and
            ``(3) develop and implement a pre-release assessment and a 
        reentry plan for each incarcerated parent scheduled to be 
        released to the community, and such plan shall include--
                    ``(A) a treatment program for the incarcerated 
                parent to receive continuous substance abuse treatment 
                services and related support services, as needed;
                    ``(B) a housing plan during transition from 
                incarceration to reentry, as needed;
                    ``(C) a vocational or employment plan, including 
                training and job placement services; and
                    ``(D) any other services necessary to provide 
                successful reentry into the community.

``SEC. 3023. PROGRAM REQUIREMENTS.

    ``A prison-based family treatment program for incarcerated parents 
with respect to which a grant is made shall comply with the following 
requirements:
            ``(1) The program shall integrate techniques to assess the 
        strengths and needs of immediate and extended family of the 
        incarcerated parent to support a treatment plan of the 
        incarcerated parent.
            ``(2) The program shall ensure that each participant in the 
        program has access to consistent and uninterrupted care if 
        transferred to a different correctional facility within the 
        State or other relevant entity.
            ``(3) The program shall be located in an area separate from 
        the general population of the prison or jail.

``SEC. 3024. APPLICATIONS.

    ``To be eligible for a grant under this part for a prison-based 
family treatment program, an entity described in section 3021 shall, in 
addition to any other requirement specified by the Attorney General, 
submit an application to the Attorney General in such form and manner 
and at such time as specified by the Attorney General. Such application 
shall include a description of the methods and measurements the entity 
will use for purposes of evaluating the program involved and such other 
information as the Attorney General may reasonably require.

``SEC. 3025. REPORTS.

    ``An entity that receives a grant under this part for a prison-
based family treatment program during a fiscal year shall submit to the 
Attorney General, not later than a date specified by the Attorney 
General, a report that describes and evaluates the effectiveness of 
such program during such fiscal year. Such evaluation shall be based on 
evidence-based data and shall use the methods and measurements 
described in the application of the entity for purposes of evaluating 
the program.

``SEC. 3026. PRISON-BASED FAMILY TREATMENT PROGRAM DEFINED.

    ``In this part, the term `prison-based family treatment program' 
means a program for incarcerated parents in a correctional facility 
that provides a comprehensive response to offender needs, including 
substance abuse treatment, child early intervention services, family 
counseling, legal services, medical care, mental health services, 
nursery and preschool, parenting skills training, pediatric care, 
physical therapy, prenatal care, sexual abuse therapy, relapse 
prevention, transportation, and vocational or GED training.

``SEC. 3027. AUTHORIZATION OF APPROPRIATIONS.

    ``There are authorized to be appropriated to carry out this part 
$10,000,000 for each of fiscal years 2008 and 2009.''.

SEC. 116. GRANT PROGRAMS RELATING TO EDUCATIONAL METHODS AT PRISONS, 
                    JAILS, AND JUVENILE FACILITIES.

    Title I of the Omnibus Crime Control and Safe Streets Act of 1968 
(42 U.S.C. 3711 et seq.), as amended by section 115 of this Act, is 
further amended by adding at the end the following new part:

 ``PART MM--GRANT PROGRAM TO EVALUATE EDUCATIONAL METHODS AT PRISONS, 
                     JAILS, AND JUVENILE FACILITIES

``SEC. 3031. GRANT PROGRAM TO EVALUATE EDUCATIONAL METHODS AT PRISONS, 
                    JAILS, AND JUVENILE FACILITIES.

    ``(a) Grant Program Authorized.--The Attorney General shall carry 
out a grant program under which the Attorney General makes grants to 
States, units of local government, territories, Indian tribes, and 
other public and private entities to--
            ``(1) evaluate methods to improve academic and vocational 
        education for offenders in prisons, jails, and juvenile 
        facilities; and
            ``(2) identify, and make recommendations to the Attorney 
        General regarding, best practices relating to academic and 
        vocational education for offenders in prisons, jails, and 
        juvenile facilities, based on the evaluation under paragraph 
        (1).
    ``(b) Application.--To be eligible for a grant under this section, 
a State or other entity described in subsection (a) shall submit to the 
Attorney General an application in such form and manner and at such 
time as the Attorney General specifies. Such application shall contain 
such information as the Attorney General specifies.
    ``(c) Report.--Not later than 90 days after the last day of the 
final fiscal year for which an entity described in subsection (a) 
receives a grant under such subsection, such an entity shall submit to 
the Attorney General a detailed report of the aggregate findings and 
conclusions of the evaluation described in subsection (a)(1), and the 
recommendations to the Attorney General described in subsection (a)(2).
    ``(d) Authorization of Appropriations.--There are authorized to be 
appropriated--
            ``(1) to carry out subsection (a)(1), $5,000,000 for each 
        of the fiscal years 2008 and 2009; and
            ``(2) to carry out subsection (a)(2), $5,000,000 for each 
        of the fiscal years 2008 and 2009.

``SEC. 3032. GRANTS TO IMPROVE EDUCATIONAL SERVICES IN PRISONS, JAILS, 
                    AND JUVENILE FACILITIES.

    ``(a) Grant Program Authorized.--The Attorney General shall carry 
out a grant program under which the Attorney General makes grants to 
States, units of local government, territories, and Indian tribes for 
the purpose of improving the academic and vocational education programs 
available to offenders in prisons, jails, and juvenile facilities.
    ``(b) Application.--To be eligible for a grant under this section, 
an entity described in subsection (a) shall submit to the Attorney 
General an application in such form and manner and at such time as the 
Attorney General specifies. Such application shall contain such 
information as the Attorney General specifies.
    ``(c) Reports.--An entity that receives a grant under subsection 
(a) during a fiscal year shall, not later than the last day of the 
following fiscal year, submit to the Attorney General a report that 
describes and assesses the uses of such grant.
    ``(d) Authorization of Appropriations.--There are authorized to be 
appropriated $10,000,000 to carry out this section for each of fiscal 
years 2008 and 2009.''.

                   Subtitle C--Conforming Amendments

SEC. 121. USE OF VIOLENT OFFENDER TRUTH-IN-SENTENCING GRANT FUNDING FOR 
                    DEMONSTRATION PROJECT ACTIVITIES.

     Section 20102(a) of the Violent Crime Control and Law Enforcement 
Act of 1994 (42 U.S.C. 13702(a)) is amended--
            (1) in paragraph (2) by striking ``and'' at the end;
            (2) in paragraph (3) by striking the period at the end and 
        inserting ``; and''; and
            (3) by adding at the end the following new paragraph:
            ``(4) to carry out any activity referred to in section 
        2976(b) of the Omnibus Crime Control and Safe Streets Act of 
        1968 (42 U.S.C. 3797w(b)).''.

     TITLE II--ENHANCED DRUG TREATMENT AND MENTORING GRANT PROGRAMS

                       Subtitle A--Drug Treatment

SEC. 201. GRANTS FOR DEMONSTRATION PROGRAMS TO REDUCE DRUG USE AND 
                    RECIDIVISM IN LONG-TERM SUBSTANCE ABUSERS.

    (a) Awards Required.--The Attorney General shall make competitive 
grants to eligible partnerships, in accordance with this section, for 
the purpose of establishing demonstration programs to reduce the use of 
alcohol and other drugs by supervised long-term substance abusers 
during the period in which each such long-term substance abuser is in 
prison, jail, or a juvenile facility, and until the completion of 
parole or court supervision of such abuser.
    (b) Use of Grant Funds.--A grant made under subsection (a) to an 
eligible partnership for a demonstration program, shall be used--
            (1) to support the efforts of the agencies, organizations, 
        and researchers included in the eligible partnership, with 
        respect to the program;
            (2) to develop and implement a program for supervised long-
        term substance abusers during the period described in 
        subsection (a), which shall include--
                    (A) alcohol and drug abuse assessments that--
                            (i) are provided by a State-approved 
                        program; and
                            (ii) provide adequate incentives for 
                        completion of a comprehensive alcohol or drug 
                        abuse treatment program, including through the 
                        use of graduated sanctions; and
                    (B) coordinated and continuous delivery of drug 
                treatment and case management services during such 
                period; and
            (3) to provide addiction recovery support services (such as 
        job training and placement, peer support, mentoring, education, 
        and other related services) to strengthen rehabilitation 
        efforts for long-term substance abusers.
    (c) Application.--To be eligible for a grant under subsection (a) 
for a demonstration program, an eligible partnership shall submit to 
the Attorney General an application that--
            (1) identifies the role, and certifies the involvement, of 
        each agency or organization involved in such partnership, with 
        respect to the program;
            (2) includes a plan for using judicial or other criminal or 
        juvenile justice authority to supervise the long-term substance 
        abusers who are participating in a demonstration program under 
        this section, including for--
                    (A) administering drug tests for such abusers on a 
                regular basis; and
                    (B) swiftly and certainly imposing an established 
                set of graduated sanctions for non-compliance with 
                conditions for reentry into the community relating to 
                drug abstinence (whether imposed as a pre-trial, 
                probation, or parole condition, or otherwise);
            (3) includes a plan to provide supervised long-term 
        substance abusers with coordinated and continuous services that 
        are based on evidence-based strategies that assist such abusers 
        by providing such abusers with--
                    (A) drug treatment while in prison, jail, or a 
                juvenile facility;
                    (B) continued treatment during the period in which 
                each such long-term substance abuser is in prison, 
                jail, or a juvenile facility, and until the completion 
                of parole or court supervision of such abuser;
                    (C) addiction recovery support services;
                    (D) employment training and placement;
                    (E) family-based therapies;
                    (F) structured post-release housing and 
                transitional housing, including housing for recovering 
                substance abusers; and
                    (G) other services coordinated by appropriate case 
                management services;
            (4) includes a plan for coordinating the data 
        infrastructures among the entities included in the eligible 
        partnership and between such entities and the providers of 
        services under the demonstration program involved (including 
        providers of technical assistance) to assist in monitoring and 
        measuring the effectiveness of demonstration programs under 
        this section; and
            (5) includes a plan to monitor and measure the number of 
        long-term substance abusers--
                    (A) located in each community involved; and
                    (B) who improve the status of their employment, 
                housing, health, and family life.
    (d) Reports to Congress.--
            (1) Interim report.--Not later than September 30, 2008, the 
        Attorney General shall submit to Congress a report that 
        identifies the best practices relating to the comprehensive and 
        coordinated treatment of long-term substance abusers, including 
        the best practices identified through the activities funded 
        under this section.
            (2) Final report.--Not later than September 30, 2009, the 
        Attorney General shall submit to Congress a report on the 
        demonstration programs funded under this section, including on 
        the matters specified in paragraph (1).
    (e) Definitions.--In this section:
            (1) Eligible partnership.--The term ``eligible 
        partnership'' means a partnership that includes--
                    (A) the applicable Single State Authority for 
                Substance Abuse;
                    (B) the State, local, territorial, or tribal 
                criminal or juvenile justice authority involved;
                    (C) a researcher who has experience in evidence-
                based studies that measure the effectiveness of 
                treating long-term substance abusers during the period 
                in which such abusers are under the supervision of the 
                criminal or juvenile justice system involved;
                    (D) community-based organizations that provide drug 
                treatment, related recovery services, job training and 
                placement, educational services, housing assistance, 
                mentoring, or medical services; and
                    (E) Federal agencies (such as the Drug Enforcement 
                Agency, the Bureau of Alcohol, Tobacco, Firearms, and 
                Explosives, and United States Attorney's offices).
            (2) Long-term substance abuser.--The term ``long-term 
        substance abuser'' means an offender, who--
                    (A) is in a prison, jail, or juvenile facility;
                    (B) has abused illegal drugs or alcohol for a 
                significant number of years; and
                    (C) is scheduled to be released from prison, jail, 
                or a juvenile facility within the next 24 months.
            (3) Single state authority for substance abuse.--The term 
        ``Single State Authority for Substance Abuse'' means an entity 
        designated by the Governor or chief executive officer of a 
        State as the single State administrative authority responsible 
        for the planning, development, implementation, monitoring, 
        regulation, and evaluation of substance abuse services.
    (f) Authorization of Appropriations.--There is authorized to be 
appropriated to carry out this section $5,000,000 for each of fiscal 
years 2008 and 2009.

SEC. 202. GRANTS FOR DEMONSTRATION PROGRAMS BY LOCAL PARTNERSHIPS TO 
                    REDUCE ILLEGAL DRUG DEMAND BY PROVIDING DRUG 
                    TREATMENT.

    (a) Grant Awards Required.--The Attorney General shall make 
competitive awards for demonstration programs by eligible partnerships 
for the purpose of reducing illegal drug demand by providing for drug 
treatment upon request programs through evidence-based models of such 
programs that--
            (1) increase the accessibility of such a program to any 
        individual who requests to participate in such program;
            (2) increase public awareness of the availability of such 
        programs; and
            (3) decrease the cost of drug treatment.
    (b) Use of Award Amounts.--Grant amounts received under this 
section shall be used--
            (1) to support the efforts of the agencies, organizations, 
        and researchers included in the eligible partnership;
            (2) to develop a program that provides drug treatment upon 
        request--
                    (A) at no cost to an individual who participates in 
                the program; and
                    (B) within a reasonable period to any individual 
                that requests such treatment;
            (3) to increase awareness of the availability of such a 
        program to any individual that may be interested in 
        participating in such a program; and
            (4) to record the outcomes of the program developed.
    (c) Reports to Congress.--
            (1) Interim report.--Not later than September 30, 2008 the 
        Attorney General shall submit to Congress a report that 
        identifies the best practices in providing for drug treatment 
        upon request programs, including the best practices identified 
        through the activities funded under this section.
            (2) Final report.--Not later than September 30, 2009, the 
        Attorney General shall submit to Congress a report on the 
        demonstration programs funded under this section, including on 
        the matters specified in paragraph (1).
    (d) Definitions.--For purposes of this section:
            (1) Drug treatment upon request.--The term ``drug treatment 
        upon request'' means a drug treatment program that provides to 
        any individual who requests to participate in such program full 
        availability and accessibility to such program without delay.
            (2) Eligible partnership.--The term ``eligible 
        partnership'' means a working group whose application to the 
        Attorney General--
                    (A) identifies the roles played, and certifies the 
                involvement of, two or more agencies or organizations, 
                which may include--
                            (i) State or local agencies (such as those 
                        carrying out police, probation, prosecution, 
                        courts, corrections, parole, or treatment 
                        functions);
                            (ii) Federal agencies (such as the Drug 
                        Enforcement Agency, the Bureau of Alcohol, 
                        Tobacco, Firearms, and Explosives, and United 
                        States Attorney offices); and
                            (iii) community-based organizations;
                    (B) includes a qualified researcher;
                    (C) includes a plan for identifying, with respect 
                to the date of the enactment of this Act--
                            (i) the availability, as of such date, of 
                        each drug treatment upon request program;
                            (ii) the demand, as of such date, for drug 
                        treatment that has not been met through 
                        programs in existence before such date;
                            (iii) the ease and quality of access to 
                        drug treatment, as of such date; and
                            (iv) the criteria that have influenced the 
                        outcome of drug treatment upon request 
                        programs; and
                    (D) includes a plan that describes the methodology 
                and outcome measures proposed for evaluating the impact 
                of each model used for a drug treatment upon request 
                program.
    (e) Authorization of Appropriations.--There is authorized to be 
appropriated to carry out this section $5,000,000 for each of fiscal 
years 2008 and 2009.

SEC. 203. OFFENDER DRUG TREATMENT INCENTIVE GRANTS.

    (a) Grant Program Authorized.--The Attorney General shall carry out 
a grant program under which the Attorney General makes grants to 
States, units of local government, territories, and Indian tribes in an 
amount described in subsection (c) to improve the provision of drug 
treatment to offenders in prisons, jails, and juvenile facilities.
    (b) Requirements for Application.--To be eligible to receive a 
grant under subsection (a) for a given fiscal year, an entity described 
in such subsection shall, in addition to any other requirements 
specified by the Attorney General, submit to the Attorney General an 
application that demonstrates that, with respect to offenders in 
prisons, jails, and juvenile facilities who require drug treatment and 
who are in the custody of the jurisdiction involved, during the 
previous fiscal year the entity provided drug treatment meeting 
standards set forth by the Single State Authority for Substance Abuse 
(as defined in section 201(e)) to a number of such offenders that is 
two times the number of such offenders to whom the entity provided such 
drug treatment in the fiscal year that was two years before such given 
fiscal year. Such application shall be submitted in such form and 
manner and at such time as specified by the Attorney General.
    (c) Allocation of Grant Amounts Based on Drug Treatment Percent 
Demonstrated.--In allocating grant amounts under this part, the 
Attorney General shall base the amount allocated to an entity for a 
fiscal year on the percent of offenders described in subsection (b) to 
whom the entity provided drug treatment in the previous fiscal year, as 
demonstrated by the entity in its application under such subsection.
    (d) Uses of Grants.--A grant awarded to an entity under subsection 
(a) shall be used--
            (1) for continuing and improving drug treatment programs 
        provided at prisons, jails, and juvenile facilities of such 
        entity; and
            (2) to strengthen rehabilitation efforts for offenders by 
        providing addiction recovery support services, such as job 
        training and placement, education, peer support, mentoring, and 
        other similar services.
    (e) Technical Assistance.--The Attorney General may provide 
technical assistance to any entity awarded a grant under this section 
to establish or expand drug treatment services under this section if 
such entity does not have any (or has only a few) prisons, jails, or 
juvenile facilities that offer such services.
    (f) Reports.--An entity that receives a grant under subsection (a) 
during a fiscal year shall, not later than the last day of the 
following fiscal year, submit to the Attorney General a report that 
describes and assesses the uses of such grant.
    (g) Authorization of Appropriations.--There are authorized to be 
appropriated $10,000,000 to carry out this section for each of fiscal 
years 2008 and 2009.

SEC. 204. ENSURING AVAILABILITY AND DELIVERY OF NEW PHARMACOLOGICAL 
                    DRUG TREATMENT SERVICES.

    (a) Grant Program Authorized.--The Attorney General, through the 
National Institute of Justice, and in consultation with the National 
Institute on Drug Abuse and the Substance Abuse and Mental Health 
Services Administration, shall carry out a grant program under which 
the Attorney General makes grants to States, units of local government, 
territories, Indian tribes, and public and private organizations to 
establish pharmacological drug treatment services as part of the 
available drug treatment programs being offered by such grantees to 
offenders who are in prison or jail.
    (b) Consideration of Pharmacological Treatments.--In awarding 
grants under this section to eligible entities, the Attorney General 
shall consider--
            (1) the number and availability of pharmacological 
        treatments offered under the proposed or existing program 
        involved; and
            (2) the participation of researchers who are familiar with 
        evidence-based studies and are able to measure the 
        effectiveness of such treatments using randomized trials.
    (c) Applications.--
            (1) In general.--To be eligible for a grant under this 
        section, an entity described in subsection (a) shall submit to 
        the Attorney General an application in such form and manner and 
        at such time as the Attorney General specifies.
            (2) Information required.--An application submitted under 
        paragraph (1) shall--
                    (A) provide assurances that grant funds will be 
                used only toward a program that is created in 
                coordination with (or approved by) the Single State 
                Authority for Substance Abuse, as defined in section 
                201(e), of the State involved to ensure pharmacological 
                drug treatment services provided under such program are 
                clinically appropriate;
                    (B) demonstrate how pharmacological drug treatment 
                services offered under the proposed or existing program 
                are part of a clinically-appropriate and comprehensive 
                treatment plan; and
                    (C) contain such other information as the Attorney 
                General specifies.
    (d) Reports.--An entity that receives a grant under subsection (a) 
during a fiscal year shall, not later than the last day of the 
following fiscal year, submit to the Attorney General a report that 
describes and assesses the uses of such grant.
    (e) Authorization of Appropriations.--There are authorized to be 
appropriated $10,000,000 to carry out this section for each of fiscal 
years 2008 and 2009.

SEC. 205. STUDY OF EFFECTIVENESS OF DEPOT NALTREXONE FOR HEROIN 
                    ADDICTION.

    (a) Grant Program Authorized.--The Attorney General, through the 
National Institute of Justice, and in consultation with the National 
Institute on Drug Abuse, shall carry out a grant program under which 
the Attorney General makes grants to public and private research 
entities (including consortia, single private research entities, and 
individual institutions of higher education) to evaluate the 
effectiveness of depot naltrexone for the treatment of heroin 
addiction.
    (b) Evaluation Program.--To be eligible to receive a grant under 
this section, an entity described in subsection (a) shall submit to the 
Attorney General an application that--
            (1) contains such information as the Attorney General 
        specifies, including information that demonstrates that--
                    (A) the applicant conducts research at a private or 
                public institution of higher education;
                    (B) the applicant has an established or proposed 
                plan to work with parole officers or probation officers 
                for offenders who are under court supervision; and
                    (C) the evaluation described in subsection (a) will 
                measure the effectiveness of such treatments using 
                randomized trials; and
            (2) is in such form and manner and at such time as the 
        Attorney General specifies.
    (c) Reports.--An entity that receives a grant under subsection (a) 
during a fiscal year shall, not later than the last day of the 
following fiscal year, submit to the Attorney General a report that 
describes and assesses the uses of such grant.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated $5,000,000 to carry out this section for each of fiscal 
years 2008 and 2009.

                        Subtitle B--Job Training

SEC. 211. TECHNOLOGY CAREERS TRAINING DEMONSTRATION GRANTS.

    (a) Authority To Make Grants.--From amounts made available to carry 
out this section, the Attorney General shall make grants to States, 
units of local government, territories, and Indian tribes to provide 
technology career training to prisoners.
    (b) Use of Funds.--Grants awarded under subsection (a) may be used 
for establishing a technology careers training program to train 
prisoners during the 3-year period before release from prison, jail, or 
a juvenile facility for technology-based jobs and careers.
    (c) Reports.--Not later than the last day of each fiscal year, an 
entity that receives a grant under subsection (a) during the preceding 
fiscal year shall submit to the Attorney General a report that 
describes and assesses the uses of such grant during the preceding 
fiscal year.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $5,000,000 for each of fiscal 
years 2008 and 2009.

                         Subtitle C--Mentoring

SEC. 221. MENTORING GRANTS TO NONPROFIT ORGANIZATIONS.

    (a) Authority To Make Grants.--From amounts made available to carry 
out this section, the Attorney General shall make grants to nonprofit 
organizations for the purpose of providing mentoring and other 
transitional services essential to reintegrating offenders into the 
community.
    (b) Use of Funds.--Grant funds awarded under subsection (a) may be 
used for--
            (1) mentoring adult and juvenile offenders during 
        incarceration, through transition back to the community, and 
        post-release;
            (2) transitional services to assist in the reintegration of 
        offenders into the community; and
            (3) training regarding offender and victims issues.
    (c) Application; Priority Consideration.--
            (1) In general.--To be eligible to receive a grant under 
        this section, a nonprofit organization shall submit an 
        application to the Attorney General based on criteria developed 
        by the Attorney General.
            (2) Priority consideration.--Priority consideration shall 
        be given to any application that--
                    (A) includes a plan to implement activities that 
                have been demonstrated effective in facilitating the 
                successful reentry of offenders; and
                    (B) provides for an independent evaluation that 
                includes, to the maximum extent feasible, random 
                assignment of offenders to program delivery and control 
                groups.
    (d) Strategic Performance Outcomes.--The Attorney General shall 
require each applicant under this section to identify specific 
performance outcomes related to the long-term goal of stabilizing 
communities by reducing recidivism (using a measure that is consistent 
with the research undertaken by the Bureau of Justice Statistics 
pursuant to section 241(b)(6)), and reintegrating offenders into 
society.
    (e) Reports.--Not later than the last day of each fiscal year, an 
entity that receives a grant under subsection (a) during the preceding 
fiscal year shall submit to the Attorney General a report that 
describes and assesses the uses of such grant during the preceding 
fiscal year and that identifies the progress of the grantee toward 
achieving its strategic performance outcomes.
    (f) Authorization of Appropriations.--There are authorized to be 
appropriated to the Attorney General to carry out this section 
$15,000,000 for each of fiscal years 2008 and 2009.

SEC. 222. BUREAU OF PRISONS POLICY ON MENTORING CONTACTS.

    (a) In General.--Not later than 90 days after the date of enactment 
of this Act, the Director of the Bureau of Prisons shall, in order to 
promote stability and continued assistance to offenders after release 
from prison, adopt and implement a policy to ensure that persons who 
provide mentoring services to incarcerated offenders are permitted to 
continue such services after the offender is released from prison. The 
policy shall permit the continuation of such mentoring services unless 
the Director can demonstrate that such services would be a significant 
security risk to the offender, incarcerated offenders, persons who 
provide such services, or any other person.
    (b) Report.--Not later than September 30, 2008, the Director of the 
Bureau of Prisons shall submit to Congress a report on the extent to 
which the policy described in subsection (a) has been implemented and 
followed.

             Subtitle D--Administration of Justice Reforms

             CHAPTER 1--IMPROVING FEDERAL OFFENDER REENTRY

SEC. 231. FEDERAL PRISONER REENTRY PROGRAM.

    (a) Establishment.--The Director of the Bureau of Prisons 
(hereinafter in this chapter referred to as the ``Director'') shall 
establish a prisoner reentry program (referred to in this section as 
the ``Program'') to prepare prisoners for release and successful 
reentry into the community.
    (b) Program Elements.--The Program shall provide for the following, 
in accordance with this section:
            (1) Voluntary enrollment.--Voluntary enrollment for 
        prisoners meeting enrollment criteria established by the 
        Director, provided such criteria provides that a prisoner may 
        not enroll in the Program any earlier than the first day of the 
        two-year period preceding the prisoner's expected release date.
            (2) Program phases.--An initial institutional phase, a 
        transitional institution phase, and a transitional community 
        phase under subsection (c), during each of which each prisoner 
        enrolled in the Program receives reentry education (as 
        described in subsection (e)).
            (3) Program incentives.--Program incentives described in 
        subsection (d) for prisoners meeting the phase requirements of 
        the Program.
    (c) Program Phases.--The Program shall include the following 
phases:
            (1) Initial institutional phase.--An initial institutional 
        phase for prisoners enrolled in the Program at each Federal 
        institution and, to the extent feasible, in an area set apart 
        from the general prison population.
            (2) Transitional institution phase.--A transitional 
        institution phase at each Federal institution for prisoners 
        that have completed the initial institutional phase but have 
        not yet been released or placed in pre-release custody.
            (3) Transitional community phase.--A transitional community 
        phase at each community corrections facility for prisoners that 
        have completed the initial institutional phase, have remained 
        eligible during the transitional institution phase, and have 
        been transferred to a community corrections facility.
    (d) Program Incentives.--
            (1) In general.--Subject to paragraph (4), under the 
        Program a prisoner eligible under paragraph (2) for Program 
        incentives may receive any of the following incentives:
                    (A) Temporary release for reentry preparation 
                purposes.
                    (B) The maximum allowable period in a community 
                corrections facility.
                    (C) Early release, but not earlier than the date 
                that is one year before the prisoner's original 
                scheduled release.
                    (D) Such other incentives as the Director considers 
                appropriate.
            (2) Eligibility for incentives.--
                    (A) Initial institutional phase.--To be eligible 
                for Program incentives during the initial institutional 
                phase, a prisoner must successfully complete 500 hours 
                of reentry education before the end of the one-year 
                period beginning on the date of the prisoner's 
                enrollment in the Program.
                    (B) Transitional institution phase.--To remain 
                eligible for Program incentives during the transitional 
                institution phase, a prisoner must successfully 
                complete two hours of reentry education during each 
                month--
                            (i) beginning after the month the prisoner 
                        completes the initial institutional phase; and
                            (ii) ending before the month the prisoner 
                        is released or placed in pre-release custody.
                    (C) Transitional community phase.--To remain 
                eligible for Program incentives during the transitional 
                community phase, a prisoner must successfully complete 
                one hour of reentry education during each month--
                            (i) beginning after the month of the 
                        prisoner's transfer to a community corrections 
                        facility; and
                            (ii) ending before the month the prisoner 
                        is released.
            (3) Revocation of incentives.--If a prisoner fails to meet 
        the eligibility requirements to receive Program incentives 
        during a given phase of the Program, the Director may revoke 
        any Program incentive granted to the prisoner.
            (4) Limitations.--
                    (A) Considering public safety.--When considering 
                whether to grant a Program incentive to a prisoner, the 
                Director shall take into account the prisoner's 
                behavior while imprisoned and history of criminal 
                conduct to determine whether granting such incentive 
                would endanger the safety of the public.
                    (B) Ineligibility under other provision of law.--
                For purposes of this subsection, any prisoner who is 
                ineligible for a Program incentive by operation of any 
                other provision of law shall be ineligible for such 
                incentive.
    (e) Program Reentry Education.--For purposes of subsection (b)(2), 
reentry education shall include classes and activities designed to 
prepare prisoners for release and successful reentry into the 
community. Each such class or activity shall relate to one or more of 
the following categories:
            (1) Health and nutrition issues a prisoner may face after 
        release.
            (2) Finding employment and preparation for reentry and 
        assimilation into the workforce.
            (3) Dealing with personal money management and financial 
        planning.
            (4) Familiarization with available community resources, 
        including housing availability and public welfare benefits and 
        services.
            (5) Familiarization with release procedures, including 
        prisoner compliance with pre-release and release requirements.
            (6) Social skills, family relationships and development, 
        and relapse prevention.
    (f) Definition.--For purposes of this section and section 232, the 
term ``prisoner'' means an individual committed to the custody of the 
Bureau of Prisons under section 3621 of title 18, United States Code. 
Such term does not include an individual confined in a non-Federal 
facility.

SEC. 232. IDENTIFICATION AND RELEASE ASSISTANCE FOR FEDERAL PRISONERS.

    (a) Obtaining Identification.--The Director of the Bureau of 
Prisons shall assist prisoners in obtaining identification (including 
social security card, driver's license, or birth certificate) prior to 
release.
    (b) Assistance Developing Release Plan.--If a direct-release 
prisoner so requests, a representative of the United States Probation 
System shall, prior to the prisoner's release, help the prisoner 
develop a release plan.
    (c) Direct-Release Prisoner Defined.--In this section, the term 
``direct-release prisoner'' means a prisoner who is scheduled for 
release and will not be placed in pre-release custody.

SEC. 233. IMPROVED REENTRY PROCEDURES FOR FEDERAL PRISONERS.

    The Attorney General shall take such steps as are necessary to 
modify the procedures and policies of the Department of Justice with 
respect to the transition of offenders from the custody of the Bureau 
of Prisons to the community--
            (1) to enhance case planning and implementation of reentry 
        programs, policies, and guidelines; and
            (2) to improve such transition to the community, including 
        placement of such individuals in community corrections 
        facilities.

SEC. 234. DUTIES OF THE BUREAU OF PRISONS.

    (a) Duties of the Bureau of Prisons Expanded.--Section 4042(a) of 
title 18, United States Code, is amended--
            (1) in paragraph (4), by striking ``and'' at the end;
            (2) in paragraph (5), by striking the period and inserting 
        a semicolon; and
            (3) by adding at the end the following:
            ``(6) provide for pre-release planning procedures for 
        prisoners to ensure eligibility for Federal and State benefits 
        upon release (including benefits under the old-age, survivors, 
        and disability insurance program under title II of the Social 
        Security Act, the supplemental security income program under 
        title XVI of such Act, the Medicare program under title XVIII 
        of such Act, the Medicaid program under title XIX of such Act, 
        and a program of the Department of Veterans Affairs under title 
        38) is established prior to release, subject to any limitations 
        in law;
            ``(7) include as part of the standard intake procedures for 
        offenders entering Federal custody the collection of 
        information regarding the dependent children of such an 
        offender, including the number, age, and residence of such 
        children;
            ``(8) ensure that all policies, practices, and facilities 
        of the Bureau of Prisons support the relationship between 
        parent and child; and
            ``(9) identify and address the training needs of employees 
        of the Bureau of Prisons with respect to the effect of 
        incarceration on children, families, and communities, age-
        appropriate interactions, and community resources for the 
        families of offenders.''.
    (b) Measuring the Removal of Obstacles to Reentry.--
            (1) Program required.--The Director shall carry out a 
        program under which each institution within the Bureau of 
        Prisons codes the reentry needs and deficits of inmates as 
        identified by an assessment tool that is used to produce an 
        individualized skills development plan for each inmate.
            (2) Tracking.--In carrying out the program under this 
        subsection, the Director shall quantitatively track, by 
        institution and Bureau-wide, the progress in responding to the 
        reentry needs and deficits of individual inmates.
            (3) Annual report.--On an annual basis, the Director shall 
        prepare and submit to the Committee on the Judiciary of the 
        Senate and the Committee on the Judiciary of the House of 
        Representatives a report that documents the progress of each 
        institution within the Bureau, and of the Bureau as a whole, in 
        responding to the reentry needs and deficits of inmates. The 
        report shall be prepared in a manner that groups institutions 
        by security level to allow comparisons of similar institutions.
            (4) Evaluation.--The Director shall--
                    (A) implement a formal standardized process for 
                evaluating each institution's success in enhancing 
                skills and resources to assist in reentry; and
                    (B) ensure that--
                            (i) each institution is held accountable 
                        for low performance under such an evaluation; 
                        and
                            (ii) plans for corrective action are 
                        developed and implemented as necessary.
    (c) Measuring and Improving Recidivism Outcomes.--
            (1) Annual report required.--
                    (A) In general.--At the end of each fiscal year, 
                the Director shall submit to the Committee on the 
                Judiciary of the Senate and the Committee on the 
                Judiciary of the House of Representatives a report 
                containing the statistics demonstrating the relative 
                reduction in recidivism for inmates released by the 
                Bureau of Prisons within that fiscal year and the 2 
                prior fiscal years, comparing inmates who participated 
                in major inmate programs (including residential drug 
                treatment, vocational training, and prison industries) 
                with inmates who did not participate in such programs. 
                Such statistics shall be compiled separately for each 
                such fiscal year.
                    (B) Scope.--A report under this paragraph is not 
                required to include statistics for a fiscal year that 
                begins before the date of the enactment of this Act.
                    (C) Contents.--Each report under this section shall 
                provide the recidivism statistics for the Bureau of 
                Prisons as a whole, and separately for each institution 
                of the Bureau.
            (2) Measure used.--In preparing the reports required by 
        subsection (a), the Director shall, in consultation with the 
        Director of the Bureau of Justice Statistics, select a measure 
        for recidivism (such as rearrest, reincarceration, or any other 
        valid, evidence-based measure) that the Director considers 
        appropriate and that is consistent with the research undertaken 
        by the Bureau of Justice Statistics pursuant to section 
        241(b)(6).
            (3) Goals.--
                    (A) In general.--After the Director submits the 
                first report required by paragraph (1), the Director 
                shall establish goals for reductions in recidivism 
                rates and shall work to attain those goals.
                    (B) Contents.--The goals established under 
                subparagraph (A) shall use the relative reductions in 
                recidivism measured for the fiscal year covered by that 
                first report as a baseline rate, and shall include--
                            (i) a 5-year goal to increase, at a 
                        minimum, the baseline relative reduction rate 
                        by 2 percent within 5 fiscal years; and
                            (ii) a 10-year goal to increase, at a 
                        minimum, the baseline relative reduction rate 
                        by 5 percent within 10 fiscal years.
    (d) Format.--Any written information that the Bureau of Prisons 
provides to inmates for reentry planning purposes shall use common 
terminology and language.
    (e) Medical Care.--The Bureau of Prisons shall provide the United 
States Probation and Pretrial Services System with relevant information 
on the medical care needs and the mental health treatment needs of 
inmates scheduled for release from custody. The United States Probation 
and Pretrial Services System shall take this information into account 
when developing supervision plans in an effort to address the medical 
care and mental health care needs of such inmates. The Bureau of 
Prisons shall provide inmates with a sufficient amount of all necessary 
medications (which will normally consist of, at a minimum, a 2-week 
supply of such medications) upon release from custody.

SEC. 235. AUTHORIZATION OF APPROPRIATIONS FOR BUREAU OF PRISONS.

    There are authorized to be appropriated to the Director to carry 
out sections 231, 232, 233, and 234 of this chapter, $5,000,000 for 
each of the fiscal years 2008 and 2009.

SEC. 236. ENCOURAGEMENT OF EMPLOYMENT OF FORMER PRISONERS.

    The Attorney General shall take such steps as are necessary to 
implement a program to educate employers about existing incentives for 
hiring former Federal, State, or local prisoners, including the Federal 
bonding program and tax credits.

SEC. 237. ELDERLY NONVIOLENT OFFENDER PILOT PROGRAM.

    (a) Program Established.--
            (1) In general.--Notwithstanding section 3624 of title 18, 
        United States Code, or any other provision of law, the Director 
        shall conduct a pilot program to determine the effectiveness of 
        removing each eligible elderly offender from a Bureau of Prison 
        facility and placing such offender on home detention until the 
        date on which the term of imprisonment to which the offender 
        was sentenced expires.
            (2) Timing of placement in home detention.--
                    (A) In general.--In carrying out the pilot program 
                under paragraph (1), the Director shall--
                            (i) in the case of an offender who is 
                        determined to be an eligible elderly offender 
                        on or before the date specified in subparagraph 
                        (B), place such offender on home detention not 
                        later than 180 days after the date of the 
                        enactment of this Act; and
                            (ii) in the case of an offender who is 
                        determined to be an eligible elderly offender 
                        after the date specified in subparagraph (B) 
                        and before the date that is 3 years and 91 days 
                        after the date of the enactment of this Act, 
                        place such offender on home detention not later 
                        than 90 days after the date of such 
                        determination.
                    (B) Date specified.--For purposes of subparagraph 
                (A), the date specified in this subparagraph is the 
                date that is 90 days after the date of the enactment of 
                this Act.
            (3) Violation of terms of home detention.--A violation by 
        an eligible elderly offender of the terms of the home 
        detention, including the commission of another Federal, State, 
        or local crime, shall result in the removal of the offender 
        from home detention and the return of the offender to the 
        designated Bureau of Prisons institution in which the offender 
        was imprisoned immediately before placement on home detention 
        under paragraph (1).
    (b) Scope of Pilot Program.--
            (1) Participating designated facilities.--The pilot program 
        under subsection (a) shall be conducted through at least 1 
        Bureau of Prisons institution designated by the Director as 
        appropriate for the pilot program.
            (2) Duration.--The pilot program shall be conducted during 
        each of fiscal years 2008 and 2009.
    (c) Program Evaluation.--
            (1) In general.--The Director shall contract with an 
        independent organization to monitor and evaluate the progress 
        of each eligible elderly offender placed on home detention 
        under subsection (a)(1) for the period such offender is on home 
        detention during the duration described in subsection (b)(2).
            (2) Annual report.--The organization described in paragraph 
        (1) shall annually submit to the Director and to Congress a 
        report on the pilot program under subsection (a)(1), which 
        shall include--
                    (A) an evaluation of the effectiveness of the pilot 
                program in providing a successful transition for 
                eligible elderly offenders from incarceration to the 
                community, including data relating to the recidivism 
                rates for such offenders; and
                    (B) the cost savings to the Federal Government 
                resulting from the early removal of such offenders from 
                incarceration.
            (3) Program adjustments.--Upon review of the report 
        submitted under paragraph (2), the Director shall submit 
        recommendations to Congress for adjustments to the pilot 
        program, including its expansion to additional facilities.
    (d) Definitions.--In this section:
            (1) Eligible elderly offender.--The term ``eligible elderly 
        offender'' means an offender in the custody of the Bureau of 
        Prisons who--
                    (A) is not less than 60 years of age;
                    (B) is serving a term of imprisonment after 
                conviction for an offense other than a crime of 
                violence and has served the greater of 10 years or \1/
                2\ of the term of imprisonment;
                    (C) has not been convicted in the past of any 
                Federal or State crime of violence;
                    (D) has not been determined by the Bureau of 
                Prisons, on the basis of information the Bureau uses to 
                make custody classifications, and in the sole 
                discretion of the Bureau, to have a history of 
                violence; and
                    (E) has not escaped, or attempted to escape, from a 
                Bureau of Prisons institution.
            (2) Home detention.--The term ``home detention'' has the 
        same meaning given the term in the Federal Sentencing 
        Guidelines, and includes detention in a nursing home or other 
        residential long-term care facility.
            (3) Term of imprisonment.--The term ``term of 
        imprisonment'' includes multiple terms of imprisonment ordered 
        to run consecutively or concurrently, which shall be treated as 
        a single, aggregate term of imprisonment for purposes of this 
        section.
    (e) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $5,000,000 for each of fiscal 
years 2008 and 2009.

                      CHAPTER 2--REENTRY RESEARCH

SEC. 241. OFFENDER REENTRY RESEARCH.

    (a) National Institute of Justice.--From amounts made available to 
carry out this Act, the National Institute of Justice may conduct 
research on juvenile and adult offender reentry, including--
            (1) a study identifying the number and characteristics of 
        minor children who have had a parent incarcerated, and the 
        likelihood of such minor children becoming involved in the 
        criminal justice system some time in their lifetime;
            (2) a study identifying a mechanism to compare rates of 
        recidivism (including rearrest, violations of parole, 
        probation, post-incarceration supervision, and reincarceration) 
        among States; and
            (3) a study on the population of offenders released from 
        custody who do not engage in recidivism and the characteristics 
        (housing, employment, treatment, family connection) of that 
        population.
    (b) Bureau of Justice Statistics.--From amounts made available to 
carry out this Act, the Bureau of Justice Statistics may conduct 
research on offender reentry, including--
            (1) an analysis of special populations, including prisoners 
        with mental illness or substance abuse disorders, female 
        offenders, juvenile offenders, offenders with limited English 
        proficiency, and the elderly, that present unique reentry 
        challenges;
            (2) studies to determine who is returning to prison, jail, 
        or a juvenile facility and which of those returning prisoners 
        represent the greatest risk to victims and community safety;
            (3) annual reports on the profile of the population coming 
        out of prisons, jails, and juvenile facilities;
            (4) a national recidivism study every 3 years;
            (5) a study of parole, probation, or post-incarceration 
        supervision violations and revocations; and
            (6) a study concerning the most appropriate measure to be 
        used when reporting recidivism rates (whether rearrest, 
        reincarceration, or any other valid, evidence-based measure).

SEC. 242. GRANTS TO STUDY PAROLE OR POST-INCARCERATION SUPERVISION 
                    VIOLATIONS AND REVOCATIONS.

    (a) Grants Authorized.--From amounts made available to carry out 
this section, the Attorney General may award grants to States to study 
and to improve the collection of data with respect to individuals whose 
parole or post-incarceration supervision is revoked, and which such 
individuals represent the greatest risk to victims and community 
safety.
    (b) Application.--As a condition of receiving a grant under this 
section, a State shall--
            (1) certify that the State has, or intends to establish, a 
        program that collects comprehensive and reliable data with 
        respect to individuals described in subsection (a), including 
        data on--
                    (A) the number and type of parole or post-
                incarceration supervision violations that occur with 
                the State;
                    (B) the reasons for parole or post-incarceration 
                supervision revocation;
                    (C) the underlying behavior that led to the 
                revocation; and
                    (D) the term of imprisonment or other penalty that 
                is imposed for the violation; and
            (2) provide the data described in paragraph (1) to the 
        Bureau of Justice Statistics, in a form prescribed by the 
        Bureau.
    (c) Analysis.--Any statistical analysis of population data under 
this section shall be conducted in accordance with the Federal Register 
Notice dated October 30, 1997, relating to classification standards.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $1,000,000 for each of fiscal 
years 2008 and 2009.

SEC. 243. ADDRESSING THE NEEDS OF CHILDREN OF INCARCERATED PARENTS.

    (a) Best Practices.--The Attorney General shall collect data and 
develop best practices of State corrections departments and child 
protection agencies relating to the communication and coordination 
between such State departments and agencies to ensure the safety and 
support of children of incarcerated parents (including those in foster 
care and kinship care), and the support of parent-child relationships 
between incarcerated (and formerly incarcerated) parents and their 
children, as appropriate to the health and well-being of the children. 
Such best practices shall include information related to policies, 
procedures, and programs that may be used by States to address--
            (1) maintenance of the parent-child bond during 
        incarceration;
            (2) parental self-improvement; and
            (3) parental involvement in planning for the future and 
        well-being of their children.
    (b) Dissemination to States.--Not later than 1 year after the date 
of the enactment of this Act, the Attorney General shall disseminate to 
States and other relevant entities the best practices described in 
subsection (a).
    (c) Sense of Congress.--It is the sense of Congress that States and 
other relevant entities should use the best practices developed and 
disseminated in accordance with this section to evaluate and improve 
the communication and coordination between State corrections 
departments and child protection agencies to ensure the safety and 
support of children of incarcerated parents (including those in foster 
care and kinship care), and the support of parent-child relationships 
between incarcerated (and formerly incarcerated) parents and their 
children, as appropriate to the health and well-being of the children.

            CHAPTER 3--CORRECTIONAL REFORMS TO EXISTING LAW

SEC. 251. CLARIFICATION OF AUTHORITY TO PLACE PRISONER IN COMMUNITY 
                    CORRECTIONS.

    (a) Pre-Release Custody.--
            (1) Amendment.--Section 3624(c) of title 18, United States 
        Code, is amended to read as follows:
    ``(c) Pre-Release Custody.--
            ``(1) In general.--The Director of the Bureau of Prisons 
        shall, to the extent practicable, ensure that a prisoner 
        serving a term of imprisonment spends a portion of the final 
        months of such term (not to exceed 12 months), under conditions 
        that will afford the prisoner a reasonable opportunity to 
        adjust to and prepare for the prisoner's reentry into the 
        community. Such conditions may include a community correctional 
        facility.
            ``(2) Home confinement authority.--The authority provided 
        by this subsection may be used to place a prisoner in home 
        confinement for the last 10 percent of the term of imprisonment 
        or the final 6 months of such term, whichever is shorter.
            ``(3) Assistance.--The United States Probation System 
        shall, to the extent practicable, offer assistance to a 
        prisoner during such pre-release custody.
            ``(4) No limitations.--Nothing in this subsection shall be 
        construed to limit or restrict the authority of the Director of 
        the Bureau of Prisons granted under section 3621 of this title.
            ``(5) Reporting.--Not later than 1 year after the date of 
        enactment of the Second Chance Act of 2007 (and every year 
        thereafter), the Director of the Bureau of Prisons shall 
        transmit to the Committees on the Judiciary of the Senate and 
        the House of Representatives a report describing the Bureau's 
        utilization of community corrections facilities. Such report 
        shall set forth the number and percentage of Federal prisoners 
        placed in community corrections facilities during the preceding 
        year, the average length of such placements, trends in such 
        utilization, the reasons some prisoners are not placed in 
        community corrections facilities, and any other information 
        that may be useful to the committees in determining if the 
        Bureau is utilizing community corrections facilities in an 
        effective manner.
            ``(6) Issuance of regulations.--Not later than 90 days 
        after the date of enactment of the Second Chance Act of 2007, 
        the Director of Bureau of Prisons shall issue regulations 
        pursuant to this subsection, which shall include modifications 
        to section 570.21 of the Bureau's regulations (28 C.F.R. 
        570.21), to ensure that such section is in accordance with the 
        provisions of this subsection.''.
            (2) Applicability of amendment.--The amendment made by this 
        subsection shall apply with respect to any prisoner who--
                    (A) is serving a term of imprisonment on the date 
                of enactment of this Act;
                    (B) has been sentenced to a term of imprisonment 
                before the date of enactment of this Act, but who has 
                not begun to serve such sentence on such date of 
                enactment; or
                    (C) is sentenced to a term of imprisonment on or 
                after the date of enactment of this Act.
    (b) Courts May Not Require a Sentence of Imprisonment To Be Served 
in a Community Corrections Facility.--Section 3621(b) of title 18, 
United States Code, is amended by adding at the end the following: 
``Any order, recommendation, or request by a sentencing court that a 
convicted person serve a term of imprisonment in a community 
corrections facility has no binding effect on the discretionary 
authority of the Bureau under this section to determine or change the 
place of imprisonment of that person.''.

SEC. 252. RESIDENTIAL DRUG ABUSE PROGRAM IN FEDERAL PRISONS.

    Section 3621(e)(5)(A) of title 18, United States Code, is amended 
by striking ``means a course of'' and all that follows and inserting 
the following: ``means a course of individual and group activities and 
treatment, lasting at least 6 months, in residential treatment 
facilities set apart from the general prison population, which may 
include the use of pharmocotherapies, where appropriate, that may 
extend beyond the 6-month period;''.

SEC. 253. MEDICAL CARE FOR PRISONERS.

    Section 3621 of title 18, United States Code, is further amended by 
adding at the end the following new subsection:
    ``(g) Continued Access to Medical Care.--
            ``(1) In general.--In order to ensure a minimum standard of 
        health and habitability, the Bureau of Prisons shall ensure 
        that each prisoner in a community confinement facility has 
        access to necessary medical care, mental health care, and 
        medicine.
            ``(2) Definition.--In this subsection, the term `community 
        confinement' has the meaning given that term in the application 
        notes under section 5F1.1 of the Federal Sentencing Guidelines 
        Manual, as in effect on the date of the enactment of the Second 
        Chance Act of 2007.''.

SEC. 254. CONTRACTING FOR SERVICES FOR POST-CONVICTION SUPERVISION 
                    OFFENDERS.

    Section 3672 of title 18, United States Code, is amended by 
inserting after the third sentence in the seventh paragraph the 
following new sentence: ``He also shall have the authority to contract 
with any appropriate public or private agency or person to monitor and 
provide services to any offender in the community, including treatment, 
equipment and emergency housing, corrective and preventative guidance 
and training, and other rehabilitative services designed to protect the 
public and promote the successful reentry of the offender into the 
community.''.
                                 <all>



    Mr. Scott. And I would like to thank Ranking Member Forbes 
and his staff for their leadership and dedicated contributions 
to continuing this important effort in Congress.
    This effort will provide greater public protection from 
crime by better assuring the successful re-entry of offenders 
from prison back into their communities.
    I would also like to thank Congressman Davis from Illinois 
and Congressman Cannon for their continued leadership in this 
effort, as well as that of Chairman Conyers and Ranking Member 
Smith and other co-sponsors of the bill.
    I also want to further acknowledge the dedication and 
tireless efforts of many members of the diverse coalition of 
national, State and local organizations and their 
representative who continue to work for the passage of this 
bill.
    Our national crime rates have been falling significantly 
over the past decade. We have seen an unprecedented explosion 
in our prison and jail populations. Now there are more than 2.2 
million people incarcerated in Federal and State prisons and 
jails--a significant increase since 1980. Moreover, 
expenditures on corrections have increased from about $9 
billion in 1982 to more than $65 billion today, a figure that 
continues to grow. These figures do not include the cost of 
arrest, prosecution, nor do they take into account the cost to 
victims.
    As a result of all the focus on incarceration, the United 
States is the world's largest incarcerator, by far, locking up 
726 inmates per 100,000 population according to 2004 data. The 
incarceration rate around the world is around 100 per 100,000, 
142 in England, 117 in Australia, 116 in Canada, 91 in Germany. 
So, the United States rate is more than seven times the 
average. The closest competitor is Russia, at 532.
    Over 95 percent of incarcerated inmates will be released at 
some time. This year, more than 650,000 people will be released 
from State and Federal prisons to communities nationwide, along 
with more than 9 million people leaving local jails. According 
to the Department of Justice's Bureau of Justice Statistics, 67 
percent of offenders leaving State and Federal prison are re-
arrested within 3 years.
    Most of those leaving prison are ill-prepared to succeed in 
earning a living and leading a law-abiding life. And the 
resources available to assist them to re-enter successfully are 
very limited. The addition of a felony record and a prison or 
jail stay certainly does not assist their job or social 
development prospects.
    With no or limited education, resources, job skills, with 
Federal benefits being disqualified because of drug or other 
convictions, and often with little or no family or community 
support, it is not surprising that as many as two-thirds of 
released prisoners are re-arrested within 3 years of their 
release.
    So, with this growing number of ill-equipped offenders 
returning to communities each year, the question is whether 
they re-enter society better prepared to lead law-abiding lives 
than when they came in.
    The Second Chance Act provides a host of evidence-based 
approaches designed to reduce the high rate of recidivism. If 
we are going to continue to send more and more people to prison 
with longer and longer sentence, we should do as much as we 
reasonably can to assure than, when they do return, they won't 
go back to prison due to new crimes.
    The primary reason for doing this is not to benefit 
offenders, although it does. The primary reason to do this is 
because it assures that all of us and other members of the 
public will be less likely to be victims of crime due to 
recidivism and also will be much less likely to have to pay the 
high cost of incarceration as taxpayers.
    So, this is a compelling issue, one that we have worked in 
a bipartisan way. And I want to thank again Ranking Member 
Forbes for working with us. This Crime Subcommittee and 
Judiciary Committee generally is a fairly contentious group of 
people. We don't always agree on many things. But on this, I 
think we have got excellent cooperation on a bipartisan basis. 
And hopefully, we can get the bill passed into law as soon as 
possible.
    With that, I will now recognize my colleague from Virginia, 
the Ranking Member of the Subcommittee, Mr. Forbes, for his 
opening statement.
    Mr. Forbes. Thank you, Chairman Scott. And I appreciate you 
holding this hearing on the Second Chance Act of 2007.
    And of course, we appreciate all of our witnesses and their 
attendance here.
    I want to begin by commending you and Chairman Conyers, 
Congressman Cannon and also Congressman Coble for your 
commitment to the issue of prison re-entry.
    The new bill, which is molded on a prior version, is an 
excellent example of bipartisan cooperation on important 
criminal justice matters.
    I also want to commend your chief counsel, Bobby Vassar, 
and Keenan Kelly from Chairman Conyers' staff.
    Also, I would like to commend our counsel, Mike Volkov; a 
member of my staff, Jamie Miller; and also a member of 
Congressman Coble's staff, Johnny Mautz, for their dedication 
and hard work on this issue. It took a long time. It was a lot 
of hard work to get it here.
    Whether you are tough on crime or favor intervention and 
prevention strategies, there is common ground on the critical 
issue of prison re-entry. I believe in tough enforcement of our 
criminal laws. Public safety is essential of a free society. 
And criminals must be aggressively prosecuted and incarcerated 
to protect our communities.
    Once criminals are incarcerated, we have an obligation to 
make sure they are rehabilitated and treated humanely. A 
critical component to this is the need to plan and provide 
effective re-entry services. We can no longer release criminals 
with new clothes and a $5 bill and expect them to become 
productive citizens.
    The Second Chance Act creates a framework of strategic 
policy innovations to provide effective re-entry services. The 
demand for innovative solutions is obvious. It is 
conservatively estimated that approximately 650,000 inmates 
will be released from State prisons in the next year. In the 
absence of actions to address this issue, 67 percent of these 
individuals will be re-arrested, and over half will return to 
prison in the 3 years following their release from prison.
    States are being crushed by an overwhelming financial 
burden for correctional cost. We need to ensure that 
governments have in place appropriate programs to ease the 
transition for offenders, to bring families together once 
again, and to make sure that offenders get the necessary 
support, so that they can truly have a second chance to live a 
law-abiding life. Successful re-entry protects those who might 
otherwise be crime victims. It also improves the likelihood 
that individuals released from prison, jail or juvenile 
detention facilities can pay fines, fees, restitution and 
provide family support.
    The Second Chance Act expands existing demonstration 
programs to improve coordination among service providers, 
supervision services and re-entry task force, and between State 
substance abuse agencies and criminal justice agencies. The Act 
also strengthens re-entry services by expanding the use of 
mentors, improving medical services, offering a continuum of 
drug treatment services, ensuring adequate education 
opportunities and promoting family relationships during 
incarceration.
    The Act also authorizes grants to operate State and local 
re-entry courts and to establish local re-entry task forces to 
develop comprehensive re-entry plans during each phase of 
transition from incarceration, to transitional housing, to 
release in the community. Finally, the Act expands drug 
treatment programs to include family-based substance abuse 
treatment programs, new pharmacological drug treatment programs 
and comprehensive drug treatment for offenders in a re-entry 
program.
    Mr. Chairman, I look forward to hearing from today's 
witnesses who can tell us firsthand how re-entry services are 
provided and what new approaches are needed.
    Mr. Scott. Thank you. And, without objection, all Members 
may include their opening statements in the record at this 
point. And we have a distinguished panel of witnesses here 
today to help us consider the important issue before us.
    Our first witness will be Stefan LoBuglio, who is an expert 
of designing and evaluating prisons re-entry recidivism 
education and employment programs, including faith-based 
programs. He is currently chief of the Pre-Release and Re-entry 
Services Division of the Montgomery County, Maryland, 
Department of Correction and Rehabilitation. He manages the 
community-based, 155-bed, pre-release and re-entry facility, as 
well as non-residential home electronic monitoring programs.
    He is previously the deputy superintendent of the Suffolk 
County Sheriff's Department Community Corrections Division in 
Massachusetts. Prior to that, he was a criminal justice policy 
consultant. He is a doctoral candidate at Harvard University 
Graduate School of Education, holds a master's in public policy 
from the John F. Kennedy School of Government and is a graduate 
of Duke University.
    Our next witness is Professor Roger Peters, chair of the 
Department of Mental Health Law and Policy of the St. Louis de 
la Parte Mental Health Institute at the University of South 
Florida, where he has been a faculty member since 1986. He 
received his Ph.D. in clinical psychology from Florida State 
University and has also studied at the University of North 
Carolina School of Medicine.
    He served as lead consultant to the Department of Health 
and Human Services Center for People with Co-Occurring 
Disorders in the Justice System. He has also served for 4 years 
on the board of directors of the National Association of Drug 
Court Professionals and, for the past 7 years, has served on 
the treatment-based drug court steering committee for the 
Florida Supreme Court.
    Our next witness is Steve Lufburrow, who is the president 
and CEO of Goodwill Industries of Houston, a Houston-based 
organization that provides training, skills development, work 
opportunities for people with disabilities and other barriers 
to employment. In his career, he has served as a member of the 
advisory board of Target Hunger and Texas Industries for the 
Blind and Handicapped, as well as the State Bar of Texas 
grievance committee.
    Currently, he serves as a member of the board of directors 
with the Better Business Bureau and the Houston-Galveston Area 
Council Work Development Board. He is a graduate of 
Southwestern University in Georgetown, Texas, and of the 
Certified Executive Training Program for Goodwill Industries of 
America.
    Our next witness will be Jack Cowley, who is the national 
director of Alpha USA's prisons and re-entry program, which 
helps churches administer to prisoners. He served for 30 years 
with the Oklahoma Department of Corrections primarily as a 
prison warden. When he retired in 1996, he joined the Prison 
Fellowship Ministries as a public policy advocate and later as 
director of Interchange Freedom Initiative, a faith-based re-
entry program.
    He has run a transitional housing and treatment program for 
released offenders. He serves on the advisory boards of the 
National Institute of Corrections and the Billy Graham 
Institute of Criminal Justice Ministries. He earned his B.S. in 
sociology, an M.S. in corrections from Oklahoma State 
University and completed coursework for a Ph.D. in 
organizational leadership from the University of Oklahoma.
    Our final witness will be George McDonald, who is the 
founder and president of the Doe Fund, a New York-based 
nonprofit organization that helps individuals break the cycles 
of homelessness, welfare dependency and incarceration through 
paid work programs, housing, support services and business 
ventures.
    A former executive and entrepreneur in the apparel 
industry, he currently chairs New York City's Independent 
Committee on Re-Entry and Employment and is co-chair of its 
Discharge Planning Initiative Employment Committee. He also 
serves on the Prisoner Re-entry Steering Committee of the 
city's Workforce Investment Board.
    The Doe Fund has been recognized by the city of New York, 
WENT Channel 13, the New York Post and the Department of 
Housing and Urban Development. He received his undergraduate 
degree from Fairleigh Dickinson University.
    Thank you.
    And before we hear from our witnesses, does the Chairman of 
the Committee have a statement?
    Mr. Conyers. I have a statement, but I would like only a 
minute or two. And then I will put it in the record.
    Mr. Scott. Thank you. Mr. Conyers?
    Mr. Conyers. Thank you, Chairman Scott and Members of this 
Committee.
    Re-entry is so important. And now, thanks to this 
Committee, we are beginning to examine the pressing need to 
provide as much as we can for the 650,000 men and women who re-
enter our communities from prison every year. And the cultural 
and economic requirements to prepare them for this coming back 
into society has been staggering.
    And I am happy to join in with all of you and the 
distinguished panel of witnesses that we have here to examine 
the Second Chance Act. I think it is a great opportunity. I 
look forward to hearing the witnesses.
    And I ask unanimous consent that my complete statement is 
included in the record.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Good afternoon. I am pleased to join my colleagues on the 
Subcommittee on Crime, Terrorism and Homeland Security today as we 
address the issues of federal offender re-entry. For the past several 
sessions, I have introduce my own comprehensive re-entry legislation. 
This year, I am happy to join as an original co-sponsor of the Second 
Chance Act. With this bipartisan legislation, we are set to take the 
next important step in building a web of programs which will help break 
the cycle of recidivism laying at the heart of our prison population 
explosion.
    As Chairman Scott observed in his opening statement, there is a 
pressing need to provide the more than 650,000 men and women who re-
enter our communities from prison each year with the education and 
training necessary to obtain and hold onto steady jobs, undergo drug 
treatment, and get medical and mental health services. The statistics 
underlying the needs of our prison population are staggering. As 
detailed by many researchers, these deficiencies include limited 
education, few job skills or experience, substance and alcohol 
dependency, and other health problems, including mental health. 
Evidence from the Department of Justice indicates that the needs of the 
prison population are not being met under the current system. If we 
allow them to return to communities with few economic opportunities, 
where their family and friends are often involved in crime and 
substance abuse, we can only expect to extend the cycle of recidivism.
    For example, 57 percent of federal and 70 percent of State inmates 
used drugs regularly before prison, with some estimates of involvement 
with drugs or alcohol around the time of the offense as high as 84 
percent. Further, over one-third of all jail inmates have some physical 
or mental disability and 25 percent of jail inmates have been treated 
at some time for a mental or emotional problem.
    In the face of these statistics, I believe that we can be 
cautiously optimistic in the support of re-entry programming. 
Researchers at the Washington State Institute for Public Policy have 
determined that programs employing ``best practices'' have yielded up 
to 20% declines in re-arrest rates. Spread across the thousands of 
arrests each year, these practices could yield a significant decline in 
recidivism, with a commensurate reduction in community and victim 
costs.
    This is what we hope for with passage of the Second Chance Act. The 
bill focuses on the development and support of programs that provide 
alternatives to incarceration, expand the availability of substance 
abuse treatment, strengthen families and expand comprehensive re-entry 
services.
    As we move toward passage, I hope that we are not caught in the 
trap of attempting to solve this problem on the cheap. In past 
Congresses, there have been objections to the cost of this bill and 
past re-entry initiatives. I must point out that Section 101, the 
demonstration projects at the heart of the legislation, works out to 
less that $200 for each of the more than 650,000 people released into 
the community each year. This bill is a truly modest measure when 
balanced against the more than $60 billion each year spent on 
incarceration. I look forward to healthy discussion on re-entry best 
practices, particularly in the area of drug treatment, to highlight the 
serious need for passage of this legislation.

    Mr. Scott. Thank you.
    Are there other statements? Without objection, they can be 
placed in the record.
    And we will hear from our witnesses, beginning with Chief 
LoBuglio.

 TESTIMONY OF STEFAN LoBUGLIO, CHIEF, PRE-RELEASE AND RE-ENTRY 
   SERVICES, MONTGOMERY COUNTY DEPARTMENT OF CORRECTION AND 
                 REHABILITATION, ROCKVILLE, MD

    Mr. LoBuglio. Thank you, Mr. Chairman.
    Mr. Scott. If I may ask, please let me recognize the other 
Members that are here: Representative Johnson from Georgia, 
Representative Gohmert from Texas, and Coble from North 
Carolina.
    Thank you. I am sorry.
    Mr. LoBuglio. Mr. Chairman, it is an honor to speak before 
you in support of this legislation. And I thank you for your 
leadership on this legislation.
    This legislation is important to the field of corrections. 
It is important to those who are incarcerated. It is important 
to communities across the country.
    I have the privilege of working on a day-to-day basis with 
a dedicated staff of correctional professionals. And we manage 
as many as 200 individuals in the community on a day-to-day 
basis. Those individuals are from the Federal system, the State 
system and the local system. They can be serving sentences of 
20 years or 20 days. The main criteria is that they are within 
1 year of release and returning home to our communities.
    When they are in our program, we know where they are at all 
times. They are working. They are receiving treatment. They are 
meeting with family members. Importantly, they are earning 
money. They are paying family support. They are paying 
restitution. They are being responsible members of our society.
    In Montgomery County, 30 percent of our sentenced 
population is in our program. We are not a boutique program. 
Through a careful screening process, we are able to put a 
number of individuals of different types of offense types into 
our program.
    Right now, I have a count of 164 individuals; 135 of those 
individuals are living in a pre-release center that is a 35-
minute metro ride from where I am talking now. The other 29 are 
living at home. They have successfully graduated to our home 
confinement program. They have demonstrated that their job, 
their house, their family support system, their connection with 
communities are such that we can allow them to live in the 
community in their home with electronic monitoring.
    Those on our program are working as contractors. They are 
working in the construction field and landscapers and food 
services in offices across the greater Washington area. Every 
single employer who employs them is aware of their situation.
    We actually involve the employer in the re-entry process 
with a formal signed contract. We involve the family in our re-
entry process. We speak with the loved ones of those who are 
with us and talk about ways that we can work in partnership to 
assist them as they transition to the community.
    Importantly and as part of our everyday practice, we work 
with every community organization that we can, from Government 
agencies, to nonprofit organizations, to the faith-based 
community. There is a limit to the expertise that we have in 
corrections. We know it. And we need the assistance and the 
expertise of outside agencies.
    We have a premise in Montgomery County that it is better 
for individuals to leave our work release program than to leave 
a correctional facility--whether our own correctional facility 
or a facility in a State prison system or a Federal prison 
hundreds of miles away. We do everything we can to get them 
into our program.
    For those who can't come into our program, we have 
extensive re-entry services at our jail. We have developed a 
one-step career center in our jail. We involve over 40 social 
service providers every 2 weeks in a re-entry discussion about 
those who are going to be released, and what wraparound 
services they need.
    Ours is but one of many local and State programs that is an 
example of how re-entry can work. I find it remarkable that, at 
this point in time, there is a consensus--a bipartisan 
political consensus, a consensus of advocates, a consensus of 
professional organizations, and a consensus among the 
leadership in corrections--that re-entry is the way to go; and 
that we have an opportunity now, perhaps the first in 30 years, 
to transform the way that we do corrections, so that re-entry 
is our standard operating procedure. The Second Chance Act will 
help stoke that effort.
    We have learned a lot about re-entry in the last 8 years. 
Eight years ago, a correctional official might have been 
excused for not knowing what works and how a re-entry program 
could work in their facility. However, now there is a huge body 
of evidence that points us in the right direction. It is a body 
of evidence that has been developed by correctional 
practitioners and by leaders and academics in many other 
disciplines.
    There is no one re-entry model that will work in any 
system. And that is why we need the Second Chance Act. We need 
each jurisdiction in the multiple criminal justice systems 
across the country to work out among themselves how does re-
entry work? What stakeholders should be part of it? And how 
will they put together the plan?
    Another important point I need to make this morning, that 
it is not only the 650,000 returning from State and Federal 
prisons; but it is the 12 million bookings and the 9 million 
individuals who are both being processed into and being 
discharged from our local jails annually. I work at the local 
system. Jail re-entry is as much a part of the discussion as 
prison re-entry is in the State system.
    And what is important and valuable about the Second Chance 
Act is that it recognizes that jails have a role. Jails are 
struggling right now with many issues such as inmates with 
mental health issues and issues of domestic violence issues. 
And re-entry has to be part of the fabric of how we run our 
programs.
    Re-entry requires collaboration. It requires the outreach 
and in-reach of community service providers and faith-based 
organizations. What is important about the Second Chance Act, 
what has been important about the Serious and Violent Offender 
Re-Entry Initiative--the precursor to this Act, is that it has 
leveraged enormous amount of local resources.
    I know I am over my time a few minutes. But with that, I 
will conclude in a minute if I may. Re-entry is sound 
corrections. There are leaders at all levels in corrections--
from line officers, sergeants, lieutenants, shift commanders, 
sheriffs, wardens--who are ready to embrace re-entry. We need 
some assistance. We need some good models. We are ready to do 
the task.
    Those facilities and those systems that incorporate re-
entry are among the cleanest, the most humane, and the ones 
that best use their bed space. Re-entry has a great advantage, 
not only to public safety, not only to community well-being, 
not only to victims, but also to the correctional professionals 
who staff our thousands of correctional facilities, and those 
that monitor the millions of individuals in community 
supervision. It can literally transform how we do corrections 
to the betterment of those in the correction field.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. LoBuglio follows:]
                 Prepared Statement of Stefan LoBuglio
                              introduction
    My name is Stefan LoBuglio and I serve as the Chief of the 
Montgomery County Department of Correction and Rehabilitation's Pre-
Release and Reentry Services Division in Maryland. I am honored to 
present testimony to support the introduction and enactment of the 
Second Chance Act.
    From my perspective as both a practitioner and as a researcher in 
corrections for 15 years, I believe this legislation can catalyze the 
demonstrated leadership across this county in different disciplines and 
at all organizational and political levels to incorporate prisoner 
reentry as part of our nation's correctional systems' policies and 
practices. Such reforms will directly benefit public safety and 
community well-being, individual incarcerants and their families, and 
just as important, the working environment and job functions of the 
thousands of correctional professionals who run the country's jails and 
prisons and who supervise probationers and parolees in the community.
    The Second Chance Act will provide important seed money to 
encourage and expand innovative prisoner reentry programs in 
jurisdictions throughout this country from county and tribal jails to 
state and federal prisons. Building on the success of the $100 million 
federal Serious and Violent Offender Reentry Initiative, the funds from 
the Second Chance Act will spur partnerships and collaborations across 
disciplines that will leverage local resources in the areas of health, 
workforce development, housing, and treatment services. Also 
significant, the Second Chance Act will continue to build the body of 
research and identify promising practices in prisoner reentry that will 
assist local, state, and federal jurisdictions to better assess what 
models and programs are best adapted for their locations.
    By way of background, I currently have the privilege of working 
with a dedicated staff of correctional professionals and oversee a 
program that manages nearly 200 sentenced individuals--almost 30% of 
Montgomery County's total sentenced population--who are living and 
working in the community and who are within 6-8 months of release from 
federal, state, and local custody. Prior to Montgomery County, I helped 
develop reentry programs in a 2,000-bed sentenced facility located in 
Boston for the Suffolk County Sheriff's Department. In the course of my 
correctional career, I have made dozens of presentations on different 
reentry topics at local, state, and national conferences, and more 
recently have worked with the field's major professional 
organizations--the American Jail Association and the American 
Correctional Association--to advance training and education in this 
area. I have also been active in a number of innovative reentry 
projects sponsored by the National Association of Counties and the 
Council of State Governments.
    In terms of research, I have co-authored several articles on 
reentry on subjects ranging from correctional education, community 
supervision, recidivism, and implementation challenges. This month, I 
completed a two-year evaluation of a jail reentry program in 
Massachusetts, which also serves as my doctoral thesis at Harvard 
University's Graduate School of Education. Currently, I serve as a 
member of the External Advisory Committee for the national evaluation 
of the federal Serious and Violent Offender Reentry Initiative, which 
is one of the largest and most comprehensive evaluations of reentry 
program in recent history. With funding from the U.S Department of 
Justice's Bureau of Justice Assistance, I am also currently 
participating in a research effort to collect and disseminate 
information about jail reentry programs and practices--called the Jail 
Reentry Roundtable--which is co-sponsored by the Urban Institute, the 
John Jay College of Criminal Justice, and the Montgomery County 
Department of Correction and Rehabilitation.
    In this written statement, I provide an overview of prisoner 
reentry issues with an emphasis on six major points. First, I believe 
we have a window of opportunity--perhaps the first in 30 years--to 
reexamine and change correctional practices and post-release support 
with the mutually supportive goals of increasing public safety, 
community well-being, and the lives of the former incarcerated and 
their families. Prisoner reentry enjoys wide support from bi-partisan 
policy makers, practitioners, professional associations, think tanks, 
faith-based organizations and the inmate-advocacy community, and 
provides a strategy to mitigate the rising social and economic costs of 
high rates of incarceration.
    Second, we have learned an enormous amount about what programs and 
services are effective in supporting reentry goals over the past 
decade. This body of research along with the examples of many promising 
program models that have emerged in jurisdictions throughout this 
country can provide direction, support, and technical assistance to 
spur the development of more programs and to help bring them to scale.
    Third, jails and local correctional systems serve as the entry and 
exit point in the nation's correctional system and must be included in 
the development of prisoner reentry systems. Not only do jails face the 
enormous challenge of processing millions of court-involved individuals 
each year, but they also face unique reentry issues such as managing 
institutional populations with high proportions of individuals with 
mental health and serious physical health problems.
    Fourth, reentry programs require extensive collaborations and 
partnerships with government agencies and community organizations to 
provide the wide range of support and services needed to address the 
many needs of those under correctional supervision. Correctional 
facilities are highly complex and challenging institutions to operate, 
and correctional staff behind the walls and in the community need the 
expertise and resources of practitioners from many other disciplines to 
provide targeted and relevant transitional assistance to this 
population.
    Fifth, prisoner reentry reaffirms and refocuses correctional 
systems on one of their historical goals to correct and rehabilitate. 
The safest, cleanest, most secure and orderly correctional facilities 
that I have seen are the same ones that have the most extensive reentry 
programming. These facilities enjoy a healthy culture that supports 
mutual respect between staff and incarcerants, and utilize more of the 
skills and talents of correctional professionals to manage and motivate 
the institutional population. They are also the facilities that most 
efficiently manage their bed space and which are best able to classify 
appropriate individuals for lower security levels while reserving the 
use of the higher security levels for those who need this additional 
level of control and confinement. Prisoner reentry also will lead to 
more transparent institutions as the magnitude and complexity of the 
issue transcends corrections alone, and requires the active 
partnership, collaboration, and in-reach of social service agencies, 
workforce community, the community and faith-based organizations, law 
enforcement and other public safety departments.
    Sixth, and finally, reentry programs face enormous implementation, 
coordination, and capacity-building challenges, and it is too soon to 
expect that many of them will accomplish such long-term goals as 
significantly reducing recidivism. Instead, we need to ensure that 
these programs are targeting the right individuals, are addressing real 
needs of the population that can affect their post-release success, are 
well-designed with evidenced-based practices, and are implemented with 
integrity and quality control. Such programs should demonstrate an 
ability to accomplish intermediate goals in their treatment domains, 
but an expectation of an immediate reduction in recidivism rates is 
unrealistic, and may lead us to prematurely conclude these programs are 
ineffective before they have had a fair chance to demonstrate their 
long-term benefits.
                      prisoner reentry background
    The growth of the nation's correctional population and the high 
recidivism rates among those released has triggered a re-examination of 
correctional policies and programs that aims to assist inmates' 
transition from incarceration to community life. By mid-year 2005, the 
nation's correction population had risen to 2.2 million--up 380% from 
1980--of which 750,000 were housed in jails and the remainder in state 
and federal prisons (Harrison & Beck, 2006). Many inmates sentenced to 
correctional facilities had previously been incarcerated, giving 
credence to the metaphorical ``revolving door'' at the prison gate. In 
June 2002, the United States Department of Justice's Bureau of Justice 
Statistics published one of the largest and best known studies that 
found that among a representative sample of the nation's prison 
population released in 1994, 67.5% were rearrested within 3 years, 
46.9% were convicted for a new crime and 51.8% were re-incarcerated 
(Langan & Levin, 2002).
    For decades, researchers and policy makers have vigorously debated 
the effectiveness of prisoner rehabilitation programs to reduce post-
release criminality; however, the current national policy discussion on 
reentry programs has reframed the issue. Instead of being mired in 
rancorous opinions about inmates' deservedness for programs, the 
current discussion about prisoner reentry has placed community 
interests and safety at the forefront of the desired outcomes. It has 
focused on the daily reality that large numbers of inmates are leaving 
correctional facilities and returning to communities across the nation, 
and that better preparing them for release is in everyone's best 
interests.
    As such, this new focus has been notable for attracting bi-partisan 
support from both sides of the political aisle. Then-President Clinton 
and his Attorney General Janet Reno launched the reentry dialogue in 
the late 1990's, and more recently, President Bush has accelerated the 
discussion by including the issue in his inaugural address in 2004 and 
by authorizing a $100 million grant program--called the Serious and 
Violent Offender Reentry Initiative--that provided funds for reentry 
programs for every state in the nation. The Second Chance Act will 
further the development of prisoner reentry programs in more 
jurisdictions and provide additional opportunities for research and 
dissemination of promising practices.
    These reentry initiatives are touted as serving community interests 
and safety and draw support from the sheer number of released jail and 
prison inmates and the growing social and economic costs of 
corrections. Collectively, correctional budgets at all governmental 
levels now total more than $60 billion annually, and have begun to 
rival expenditures for such public goods as higher education (Hughes, 
2006).
    Additionally, the hundreds of thousands of state and federal 
prisoners returning home, and the millions being released from jails, 
typically return to the same poorly-resourced neighborhoods and bring 
with them housing, health, and employment problems that further 
destabilize these areas. An estimated one in three of all African-
American males in their mid-to-late twenties is under correctional 
supervision; the disproportional impact of corrections on this and 
other groups and regions threatens to solidify a perpetual underclass 
in this society. Most individuals in prison have poor educational 
backgrounds and skills (average math and reading scores are 5.0 and 7.8 
grade level equivalencies), and their criminal backgrounds handicap 
them from pursuing certain various careers, licensures, and positions, 
and from receiving government benefits such as student financial aid 
(Jeremy Travis, 2000, 2001; Jeremy Travis, Solomon, & Waul, 2001).
      effective programming: risk, needs, treatment, and fidelity
    For policy makers and correctional practitioners, the new interest 
in reentry programs has been welcome, but has also left them struggling 
with the question about which types of programs should be offered, and 
how these programs should be developed and evaluated. Fortunately, 
researchers have worked over the past two decades to provide some 
guidance on effective correctional programs and their designs. This 
body of work has emerged to counter earlier reports that questioned 
whether any treatment programming works in corrections to reduce 
recidivism (D. Lipton, Martinson, & Wilks, 1975; D. S. Lipton, 1995; 
Robert Martinson, 1974; Robert Martinson, 1979).
    In the late '80's and the '90's, several researchers re-analyzed 
data from earlier studies and conducted new studies, and came forth 
with much different conclusions. They found that treatment programming 
was effective providing that it met certain four principles: first, the 
programs need to target high risk offenders; second, they need to focus 
on factors that lead to recidivism; third, they need to incorporate a 
curriculum that is responsive to this population; and fourth, the 
programs need to be well-designed, implemented, and enjoy institutional 
support (i.e. the programs need to demonstrate ``fidelity'' to these 
goals) (Andrews et al., 1990; Cullen & Gendreau, 2000; Gaes, Flanagan, 
Motiuk, & Stewart, 1999; Lowenkamp, Latessa, & Holsinger, 2006; Lyman, 
2004; Lyman, Morehouse, & Perkins, 2001). Subsequent meta-analyses have 
also identified certain treatment programs as more effective than 
others. For instance, in a policy report in January of 2002, the 
Washington State Institute for Public Policy found that vocational 
programs in prison can reduce recidivism by 12.6 percent, basic adult 
education by 5.1, and cognitive behavioral programming in the community 
by 31.2, whereas boot camps and behavioral therapy for sex offenders 
were found to be ineffective (Aos, Miller, & Drake, 2006).
    The failure of previous programs to meet the four principles of 
effective programming--risk, needs, treatment, and fidelity--explains 
why researchers have often failed to find statistically significant and 
causal connections between treatment programming and reduced recidivism 
in literally thousands of studies over the past five decades.\1\ Gaes 
et al. explains that education and treatment programs have not been 
designed or optimized to reduce recidivism:
---------------------------------------------------------------------------
    \1\ The literature on ``what works'' in corrections has greatly 
expanded in recent years. Professor Edward Latessa from the University 
of Cincinnati has synthesized this literature into the framework of 
four principles of effective programming--risk, needs, treatment, and 
fidelity--which is used in this paper.

        ``The design and delivery of educational programs has commonly 
        violated many of the principles of effective correctional 
        treatment . . . education programs in prison have not been 
        directed to specific criminogenic needs of offenders, have not 
        been part of a multimodal intervention strategy, have not 
        considered responsivity effects, have not been tailored to 
        address the needs of offenders in different risk 
        classifications, and have not been adequately funded to permit 
        the high doses of educational intervention that many offenders 
---------------------------------------------------------------------------
        require ``(Gaes et al., 1999).

Risk
    The first principle, ``risk,'' argues that correctional programs 
must target offenders who are at high risk of recidivating if they are 
to demonstrate success at reducing recidivism. By definition, lower-
risk offenders do not need such programs, and studies have actually 
shown that they can fare worse if made to participate. Programs for 
these offenders can interfere with the structure and support systems 
that they would be able to create for themselves (Lowenkamp et al., 
2006).
    Unfortunately, several factors converge in the correctional 
environment that leads to lower-risk offenders enrolling in programs. 
Many programs are offered in lower security settings that are off-
limits to higher-risk inmates. Others have incorporated eligibility 
criteria that specifically exclude high risk offenders as part of a 
strategy to win greater institutional and community support. Also, 
since programs offer inmates many advantages within the institution--
greater out-of-cell time, reduction in sentence length, nominal pay--
and have open and voluntary enrollment policies, they tend to attract 
the most motivated, highly-skilled, and savviest inmates who are less 
likely to recidivate. Many evaluations that find statistically 
significant reductions in recidivism between program participants and a 
control group are actually finding the ``self-selection'' bias that is 
comparing low-risk inmates in programs with high-risk inmates in the 
controls.
Needs
    The second principle of effective programming, ``needs,'' requires 
that programs specifically target those risks and needs that make 
certain offenders at higher risk of recidivating. In the field of 
criminal justice, the most commonly identified criminogenic factors 
include individual characteristics and traits that are static and 
immutable: age, family upbringing, prior juvenile and adult criminal 
history, prior drug use; and others that are dynamic and that can be 
changed: anti-social/pro-criminal attitudes, belief, and values 
(sometimes called criminal thinking), impulsive behavior, association 
with criminal peers, return to high-crime areas; and poor education and 
vocation skills.
    The needs principle states that only programs that explicitly 
address these dynamic criminogenic factors can reduce recidivism. This 
obvious point addresses the problem of internal validity that is 
commonplace in the evaluation literature of correctional treatment 
programs. Programs that are not designed to reduce recidivism and that 
lack a direct logical mechanism to address factors that could reduce 
future criminality are nonetheless often solely evaluated by their 
success at reducing recidivism. Not surprisingly, the evaluations of 
these programs find them unsuccessful at demonstrating the 
effectiveness of this outcome, although the programs may offer other 
benefits to inmates and to jail administrators that have nothing to do 
with reduced recidivism rates.
    Programming in most correctional facilities was not designed with 
the specific purpose to reduce recidivism. Instead, many institutions 
have an eclectic collection of programs that have evolved rather than 
being the results of deliberative planning. In many cases a community 
volunteer, organization, or church will have proposed a program or 
service, and the institution has gladly accepted the opportunity to 
have inmates engaged in programming that has little cost. 
Alternatively, cyclical grant programs funded by outside organizations 
will lead to the development of new programs that did not necessarily 
address a specific institutional need, but are welcomed nonetheless. 
From a correctional administrator's standpoint, these programs serve a 
valuable function--to occupy inmates' time in a constructive fashion 
making the job of running the facility easier--but most of these 
programs were not designed with the goal of reducing recidivism.
Treatment
    The third principle for effective programming, ``treatment,'' 
relates to the importance of incorporating social learning theory in 
the curriculum and classroom activities where new skills and behaviors 
are modeled. It promotes a widely-used therapy used by psychologists in 
this country called cognitive behavioral therapy (CBT) that focuses on 
action, motivation, goal setting, and ``correct'' thinking patterns. 
Unlike psychoanalytic therapy, CBT does not attempt to delve into past 
issues to identify root causes of active behavior, but rather is 
oriented in the present and future. This type of therapeutic style can 
be infused in treatment programs that focus on specific needs such as 
substance abuse or anger management.
Fidelity
    The fourth principle, ``fidelity,'' for effective correctional 
programming, concerns the need to ensure that programs are well-
designed, robust, implemented with integrity by qualified and motivated 
staff, and are supported by the institution. Again, a seemingly obvious 
point, but many correctional programs do not subscribe to these 
criteria. Often programs meet infrequently, have no standardized 
curriculum, are taught by volunteers and staff (and sometimes fellow 
inmates) who are not schooled in delivering programs effectively, and 
the programs are poorly supported by the institution.
                       implementation challenges
    Recent studies of reentry programs reveal the enormous challenges 
that correctional practitioners face to develop and implement reentry 
programs, and to demonstrate their effectiveness particularly on the 
sole measure of reduced recidivism rates. In an evaluation of a modest 
jail reentry program in Boston, Piehl, LoBuglio and Freeman generalized 
the implementation challenges of reentry programs into four points:

        <bullet>  First, they recognized that correctional institutions 
        have few incentives to develop reentry programs given that the 
        benefits of these programs accrue to society as a whole, while 
        the institutions bear the full costs and liabilities of running 
        them. The traditional responsibility of caring for and 
        controlling complex inmate populations proves difficult enough 
        but, unlike recidivism, these goals are within the means of 
        correctional officials to control directly;

        <bullet>  Second, the researchers indicated that the fractious 
        jurisdictional differences in the country's criminal justice 
        systems make replicating one reentry model difficult, and that 
        the design of reentry programs will be driven by the local 
        stakeholders and community institutions of the facility;

        <bullet>  Third, the case study details just how difficult it 
        is to operate programs in a busy correctional environment, and 
        the critical importance of institutional support for reentry 
        programs;

        <bullet>  And fourth and finally, the authors write that while 
        analysts and practitioners agree on the need to support inmates 
        reentering the community, there is no clear consensus on 
        reentry treatment models or the rank ordering of inmates to 
        participate in such programs in terms of deservedness, greatest 
        need, or potential highest public safety return on investment 
        (Piehl, LoBuglio, & Freeman, 2003).

    The research findings to date of the largest and most comprehensive 
evaluation of reentry programs have also identified implementation 
issues as a significant problem. Many of the 69 program sites studied 
as part of the national evaluation of the $100 million Serious and 
Violent Offender Initiative (SVORI) were delayed in meeting their 
planned start-up dates and were under-enrolling participants in their 
programs. After thousands of interviews with individuals during their 
incarceration and post-release, researchers from the two organizations 
leading the study--the Urban Institute and the Research Triangle 
Institute--have found that SVORI program participants did receive 
slightly more services than non-program participants, but that the 
level of the services received were generally far below the levels of 
self-reported needs. There is some encouraging evidence to indicate 
that the program participants are demonstrating better outcomes on a 
wide range of program goals, and a recidivism comparison between the 
treatment and control groups will be completed by next year (Lattimore 
& Steffey, 2006).
    This study and the Boston case study both raise concern that if 
these start-up issues are not carefully considered and if the 
expectations of program success are unrealistically too high initially, 
the enormous implementation challenges may squander this unique 
opportunity to reassess the three-decade movement of corrections away 
from rehabilitative ideals and post-release support and supervision. 
Unfortunately, failure to address implementation challenges could 
reaffirm the cynical notion that ``nothing works'' in offender 
programming, without giving reentry programming a fair chance to prove 
its effectiveness.
                           reentry from jail
    For the past seven years, the policy discussion on offender reentry 
has focused exclusively on the return of prisoners from state and 
federal prisons and has largely ignored jails. Several factors may 
explain this omission. First, comparatively little data exists at the 
national level on jail populations. While state and federal 
correctional systems are easy to identify, there were over 3,600 jails 
in the country when last surveyed in 1999, each of them can be 
organized and run by different entities including sheriff's 
departments, county and municipal departments, Indian tribes, states, 
penal commissions, and the federal government. They range in size from 
modest lock-up facilities in rural areas with a handful of cells, to 
large systems such as those in Los Angeles and New York City that 
incarcerate more offenders than many state prison systems (19,500 and 
14,000 respectively). Nearly half of the nation's jails have 
populations under 50, yet the almost 160 jails with average daily 
populations of more than 2,000 inmates incarcerate 30% of the total 
number of inmates in the country (Sabol & Beck, 2007).
    A second reason that jails have been ignored in the policy 
discussion on prisoner reentry is that their populations are more 
varied and complex than prison populations and many policy makers and 
even some jail practitioners do not understand the relevance of 
offender reentry for a highly mobile population, most of whom will be 
released back into the community in a matter of hours. In the criminal 
justice system, jails serve a variety of functions, from holding 
individuals pre-trial, holding individuals temporarily (juveniles, 
mentally ill, military, court witnesses, protective custody), to 
holding individuals awaiting transfer to a state or federal agencies 
(often due to overcrowding).
    Third, while jails book large numbers of offenders annually, most 
of these individuals stay for only a few hours or days, and some 
believe it is not practical or feasible to offer reentry services in 
this limited time period. The nation's jails process 12 million 
bookings of 9 million individuals each year. By comparison, 
approximately 700,000 individuals are both admitted and discharged from 
the country's state and federal prisons, and the average inmate spends 
several years in these facilities. Finally, jail inmates are often 
viewed as less serious offenders than state and federal inmates, and 
therefore are viewed as requiring fewer services.
    In reality, jails are often the point of entry into the nation's 
correctional system and incarcerate offenders who are alleged to have 
committed or who have been convicted of crimes of all types. Jails also 
incarcerate large numbers of offenders serving relatively short post-
conviction sentences for which offender reentry programs are extremely 
relevant. In many states, offenders sentenced to one year or less serve 
their sentences in jails rather than in the state prison system.
    The sentence threshold between serving time in jails versus serving 
time in a state prison system actually varies from state to state. In 
Massachusetts, which has the 30-month sentencing threshold, more 
sentenced offenders are held in county jails than in state prisons. 
While the vast majority of the 12 million individuals moving in and out 
of jails remain only for a few hours or days before community release 
or institutional transfer, an estimated 20% will spend at least one 
month in jail, 12% at least two months, and 4% will spend more than 6 
months (Gerard, 2005; Sabol & Beck, 2007).
    The growing recognition of the importance of including jails in the 
policy discussion on offender reentry is evidenced by the fact that the 
government's main statistical gathering entity, the Bureau of Justice 
Statistics, is due to release the first large-scale survey of jail 
populations in its history. Also, the Bureau of Justice Assistance, an 
agency within the U.S. Department of Justice, funded a national 
conference on jail reentry in June of 2006 that brought together 
practitioners, policy makers, and academics from across the country. As 
part of this conference, several papers were commissioned to study 
effective means of transitioning jail inmates back into their 
communities.\2\
---------------------------------------------------------------------------
    \2\ The conference was organized by the Urban Institute with 
funding from the U.S. Department of Justice's Bureau of Justice 
Assistance and was co-sponsored by the John Jay College of Criminal 
Justice and the Montgomery County Department of Correction and 
Rehabilitation.
---------------------------------------------------------------------------
    Indeed, by including jails in the discussion, policy makers and 
practitioners have begun to realize that jails possess enormous 
geographical advantages in delivering reentry services as compared to 
federal and state prison systems. Most jail releasees are released to a 
neighborhood in proximity to the jail, whereas state and federal prison 
inmates are released from correctional institutions hundreds if not 
thousands of miles from their homes. Some states like Virginia are 
experimenting with reentry models that transfer state inmates to local 
jails in order to allow the inmates to develop stronger family and 
community ties before release. Many state systems and the Federal 
Bureau of Prison also contract with local jails and community-based 
facilities to place carefully selected inmates into work release 
programs just prior to release.
                          promising practices
    In the last decade, many jurisdictions have developed and refined 
promising reentry programs. The Report of the Re-entry Policy Council, 
a 648-page summation of the work of hundreds of stakeholders from 
around the country organized by the Council of State Governments, lists 
dozens of noteworthy reentry programs in jurisdictions from across the 
country. Similarly publications and websites from the American 
Correctional Association, the Urban Institute, the National Institute 
of Corrections and other organizations have profiled programs of all 
types and sizes that target specific populations with specialized 
services. In this information age, there is no dearth of data on 
different programmatic reentry models and a Google search on the term 
``prisoner reentry'' yields over 480,000 entries and illustrates the 
explosion of interest and research in this topic.
    In Montgomery County, we continue to develop new programs and ideas 
daily to improve reentry services both for incarcerated individuals who 
are confined to our detention centers and to those who are enrolled in 
our work release program. As mentioned earlier, our Pre-Release and 
Reentry Services (PRRS) Division supervises nearly 200 sentenced 
individuals who are living and working in the community and who are 
within 6-8 months of release from federal, state, and local custody. 
Our work-release program holds them accountable for their whereabouts 
at all times, and most importantly directly contributes to public 
safety and community well-being by ensuring that they are working, 
paying program fees, child support, and restitution orders, addressing 
their housing and treatment needs, and developing a support system with 
family and community institutions that will assist them transition back 
into their communities.
    For thirty years, our program has assisted over 11,000 individuals 
sentenced at the local, state, and federal level who are returning home 
to Montgomery County and the Greater Washington area. We conduct 
extensive screening and assessment to ensure that we enroll individuals 
who can work, participate in treatment, comply with the rules of the 
program, and refrain from criminal behavior. Unlike most programs, we 
have few disqualifiers and operate on the premise that whenever 
possible--even in the case of lower level sex offenders--it is in the 
community's best interest and the individual's best interest to have 
them leave confinement from our program with housing, a job, and family 
support rather than from a correctional facility, which in the case of 
state and federal inmates, might be located hundreds of miles from 
their home.
    We look at each case uniquely and carefully balance the benefits 
and the risks of bringing each individual into our program. The only 
exceptions are that we will not accept individuals who have a prior 
history of escape and individuals who have assaulted correctional 
officers. In our program, we provide intensive and quality services and 
develop unique reentry plans that combine goals for work, treatment, 
and family/community support.
    At the same time, our programs employs many methods and 
technologies to ensure that program participants are either at our 
community correctional facility or at an approved community location 
whether it be a job site, a treatment program, or the home of a family 
member. If they are not and we can not locate them within two hours, we 
file criminal escape charges, and work directly the police and 
sheriff's department to apprehend the individual and with the State 
Attorney's Office to ensure that the individual is prosecuted to the 
full extent of the law. Once apprehended, we follow the case and attend 
all of the disposition hearings and I will personally speak at 
sentencing hearings about the harm that the escape caused our program 
and public safety.
    While we have not measured whether our program reduces recidivism 
rates, our performance measures speak to many accomplishments. To cite 
data from 2006:

        <bullet>  85% successfully completed our program and were 
        released from the pre-release facility instead of from the 
        jail;

        <bullet>  Nearly 90% were released with employment;

        <bullet>  99% were released with a housing plan that does not 
        include a shelter;

        <bullet>  Nearly all of the residents were referred to 
        community and faith-based organizations and have made follow-up 
        appointments;

        <bullet>  Almost $400,000 of program fees were collected by 
        clients;

        <bullet>  The average individual released had savings of more 
        than $600.

    The Montgomery County Department of Correction and Rehabilitation's 
(MCDCR) commitment to reentry extends not only to those on our work 
release program, but also to those individuals in the jail who are pre-
trial detainees and who are ineligible for the work-release program and 
to sentenced individuals who due to institutional misconduct, the 
nature of their cases, or on-going legal matters cannot be placed in 
the community program either. In 2006, 9,400 individuals were received 
and discharged from the Department, and the vast majority of them were 
detained on a pre-trial status. Of this number, most were released from 
the detention centers and 550 participated in the work release program, 
which demonstrates the need for reentry program both in the community 
and in the jail settings.
    To serve the population of individuals in the detention center, the 
MCDCR introduced a program called ``Reentry for All,'' in 2005 to 
better coordinate the extensive array of education, treatment, and 
workforce programming and services offered within the jail and to 
develop extensive linkage and in-reach partnerships with community and 
government agency collaborators. In the longer-term detention facility, 
the Montgomery County Correctional Facility, over 75% of the 
institutional population of over 700 individuals is engaged in some 
form of work or reentry programming that lasts for a minimum of 6 hours 
a day. These programs include a full service educational program that 
includes special education instruction, drug treatment and cognitive 
behavioral therapeutic communities within several living units, mental 
health therapy in the Crisis Intervention Unit, and a workforce 
production section. The workforce programs--the Job Shop and the 
Digital Imaging Shop--offer individuals an opportunity to perform real-
world jobs in a work environment that teaches a variety of job 
readiness and job production skills.
    In 2006, the MCDCR, in collaboration with the Montgomery County 
Workforce Investment Board, located a full-service One-Stop Career 
Center in the jail. This career center is staffed by workforce 
personnel who move between the One-Stop Career locations in the jail 
and in the community. This allows them to work with individuals in the 
jail and then to continue to provide direct services post-release at 
the One-Stop Career Center in Wheaton, Maryland. The One-Stop offers 
incarcerated individuals carefully controlled internet access to sites 
with job listings, and offers job readiness and instructional videos, 
and literature and program guides on a variety of services that can 
assist them as they reenter the labor market. With technical assistance 
from the National Institute of Corrections and the US Department of 
Labor, the program is seeking to extend service hours by tapping 
volunteers from faith-based organizations.
    For selected inmates within 90 days of release and who will be 
returning to communities in Montgomery County directly, the ``Reentry 
for All'' program has also created a Collaborative Case Management 
Process where more than forty social service providers from community, 
faith-based organizations, and government agencies review the reentry 
needs of these individuals and team-up to provide wrap-around services 
post-release. Meeting twice a month, this group examines the unique 
reentry challenges that individuals face such as housing, employment, 
and health service. These issues are discussed at length and a workable 
and coordinated reentry plan among the partner agencies is developed. 
Finally, the ``Reentry for All'' initiative also provides released 
inmates with a temporary identification card with the County seal: this 
can assist individuals secure housing, jobs, education opportunities--
and in one case--was even helpful to an individual to allow him to 
participate in school functions with his children. The 60-day card also 
serves as a bus pass and a library card, thus addressing very practical 
transportation and informational needs that individuals have 
immediately after release.
    Montgomery County is but one of dozens of jurisdictions from around 
the country committed to developing effective Prisoner Reentry 
programs, and many others offer innovative and exciting models that are 
worthy of study and emulation. A brief--but by no means complete--
survey of such noteworthy models might include:

        <bullet>  The Hampden County Sheriff's community health care 
        model that successfully integrates the community and 
        institutional health care delivery systems such that 
        incarcerated individuals see the same doctors in the 
        institution that they see in neighborhood health clinics;

        <bullet>  The Allegheny County State Forensic Program that 
        provides mental health services and support for individuals 
        released from the Pennsylvania prison system and those that are 
        detained in the in the county jail in Pittsburgh;

        <bullet>  Statewide efforts in Colorado, Texas, and Virginia 
        that have connected the workforce development system with the 
        correctional system to assist returning individuals secure 
        employment and benefits;

        <bullet>  Parole agents in Iowa case managing individuals 
        before they are released from prisons in Iowa to ensure a 
        greater continuity of support and services;

        <bullet>  Police and Sheriff Departments' efforts to implement 
        monthly public safety and social service panels as part of the 
        Boston Reentry Initiative that seek to target the highest risk 
        returning offenders with an array of services provided by 
        community-based partners, and including a community college and 
        faith-based organizations;

        <bullet>  The efforts to provide discharge planning services in 
        New York City's correctional department with community partners 
        for a system that has an average daily population of 13,000 
        individuals and that processes over 100,000 per year;

        <bullet>  The array of innovative community correction programs 
        in Minnesota's 31 Community Correction Act Counties that 
        integrate the delivery of adult and juvenile correctional 
        services at the local level including Hennepin's County 
        Sentencing to Service Homes program that trains state prisoners 
        to build homes;

        <bullet>  The correctional and community-based partnership in 
        Davidson County, Tennessee that provides a continuum of jail-
        based and community-based services including mentors to 
        individuals within seven months of release;

        <bullet>  Family Justice's efforts in New York City, New 
        Jersey, and other jurisdictions to team up with correctional 
        agencies to incorporate family members in the reentry planning 
        processes;

        <bullet>  The job opportunities and training provided by such 
        organizations as CEO in New York City and Pioneer Human 
        Services in Seattle to employ individuals exiting local and 
        state correctional systems into real jobs;

        <bullet>  The integration of work, treatment, and case 
        management services provided by such community-based programs 
        as the Safer Foundation in Illinois, the Talbert House in 
        Cincinnati, Ohio, Community Resources for Justice in Boston, 
        Massachusetts, the 6th Judicial District's Residential 
        community Corrections/Work Release program in Cedar Rapids, 
        Iowa; and Volunteer of America's programs in New Jersey and 
        Minnesota.

    Again, this is hardly an exhaustive list: there are dozens of other 
reentry programs at all levels of government involving an array of 
community and government agency partners, and providing different 
combinations of services, which are promising and deserving of 
recognition. The needs of the population of individuals returning from 
jails and prisons are extensive, and jurisdictions need to employ a 
variety of combinations of reentry programs and strategies to address 
them.
                               conclusion
    Prisoner reentry represents effective corrections and smart public 
policy. It recognizes the reality that hundreds of thousands of 
individuals leave state and federal prisons and that upwards of nine 
million individuals leave jails each year and return to communities and 
neighborhoods. It better prepares them and their communities for 
release, and in the long run, will result in reduced crime and 
recidivism, and other positive social outcomes for former incarcerants 
such as increased employment, decreased use of shelter beds, improved 
mental and somatic health care, and increased parental and civic 
involvement. Within correctional facilities, prisoner reentry programs 
can improve safety and order by engaging inmates in productive 
activities and focusing their attention on equipping themselves for 
their lives post-release. Such programs contribute to an institutional 
culture of respect and order and promote better inmate management and 
control.
    The Second Chance Act will spur more jurisdictions to adopt and 
enlarge prisoner reentry programs, and to continue developing applied 
research that will guide the development of more effective programs and 
systems. Passage of this act would continue the important role of 
federal leadership in encouraging local and state collaborations of 
government and community stakeholders to responsibly address the 
challenges of re-integrating large numbers of individuals returning 
from correctional supervision. Given the magnitude of the costs of 
corrections in the country, it represents a modest but critical effort 
that will be leveraged many times over by local sources, and one that 
potentially can yield an extraordinary high rate of return on 
investment for our nation's communities.
                               references
Andrews, D., Zinger, I., Hoge, R., Bonta, J., Gendreau, P., & Cullen, 
    F. (1990). Does Correctional Treatment Work? A clinically-relevant 
    and psychologically-informed meta-analysis. Criminology, 28, 369-
    404.
Aos, S., Miller, M., & Drake, E. (2006). Evidence-Based Public Policy 
    Options to Reduce Future Prison Construction, Criminal Justice 
    Costs, and Crime Rates. Olympia: Washington State Institute for 
    Public Policy.
Cullen, F. T., & Gendreau, P. (2000). Assessing Correctional 
    Rehabilitation: Policy, Practice, and Prospects. In J. Horney 
    (Ed.), Criminal Justice 2000--Policies, Processes, and Decisions of 
    the Criminal Justice System V 3, P , 2000, , ed.--See ) (Vol. 3, 
    pp. 109-175).
Gaes, G. G., Flanagan, T. J., Motiuk, L. L., & Stewart, L. (1999). 
    Adult Correctional Treatment. In M. H. Tonry & J. Petersilia 
    (Eds.), Prisons: Crime and Justice: A Review of the Research (Vol. 
    26, pp. 361-426). Chicago: University of Chicago Press.
Gerard, V. S. (2005). New Study Proves Jails are an important Component 
    of the Reentry Equation. On the Line, 28(2), 2.
Harrison, P. M., & Beck, A. J. (2006). Prisoners in 2005 (No. NCJ 
    215092). Washington, D.C.: Bureau of Justice Statistic, Office of 
    Justice Program, U.S. Department of Justice.
Hughes, K. A. (2006). Justice Expenditure and Employment in the United 
    States, 2003 (No. NCJ 212260)). Washington, D.C.: Bureau of Justice 
    Statistics, Office of Justice Programs, U.S. Department of Justice.
Langan, P. A., & Levin, D. J. (2002). Recidivism of Prisoners Released 
    in 1994 (No. NCJ 193427). Washington D.C.: Bureau of Justice 
    Statistics.
Lattimore, P. K., & Steffey, D. (2006). Intermediate Outcomes: Initial 
    Findings from the SVORI Impact Evaluation. Washington: RTI 
    International, Urban Institute.
Lipton, D., Martinson, R., & Wilks, J. (1975). The effectiveness of 
    correctional treatment: A survey of treatment evaluation studies. 
    New York: Praeger Press.
Lipton, D. S. (1995). CDATE: Updating ``The Effectiveness of 
    Correctional Treatment'' 25 Years Later. Journal of Offender 
    Rehabilitation, 22(1-2), 1-20.
Lowenkamp, C. T., Latessa, E. J., & Holsinger, A. (2006). The risk 
    principle in action: What we have learned from 13,676 offenders and 
    97 correctional programs. Crime and Delinquency, 52(1), 77-93.
Lyman, M. A. (2004). Hampden County House of Correction Recidivism 
    Report: Recidivism Rates One and Three Years Post Release. Ludlow: 
    Hampden County Sheriff's Department.
Lyman, M. A., Morehouse, D. A., & Perkins, M. A. (2001). Maximizing 
    Accountability Through Programming: Targeting Criminogenic Factors 
    for Successful Offender Reintegration. Ludlow: Hampden County 
    Sheriff's Department.
Martinson, R. (1974). What works? Questions and answers about prison 
    reform. The Public Interest, 35, 22-54.
Martinson, R. (1979). New findings, new views: A note of caution 
    regarding sentencing reform. Hofstra Law Review, 7, 243-258.
Piehl, A. M., LoBuglio, S. F., & Freeman, R. B. (2003). Prospects for 
    Prisoner Reentry. EPI Working Paper, 125, 37.
Sabol, W. J., & Beck, A. J. (2007). Trends in Crime, Jail Population 
    Growth, and Prisoner Reentry [Powerpoint]. Washington, D.C.: Bureau 
    of Justice Statistics, Office of Justice Programs, U.S. Department 
    of Justice.
Travis, J. (2000). But they all come back : rethinking prisoner 
    reentry. Sentencing & corrections ; no. 7., 11.
Travis, J. (2001). Prisoner Reentry Seen Through a Community Lens. 
    Paper presented at the Luncheon Address at the Neighborhood 
    Reinvestment
Corporation Training Institute.
Travis, J., Solomon, A. L., & Waul, M. (2001). From Prison to Home: The 
    Dimensions and Consequences of Prisoner Reentry. Washington D.C.: 
    Urban Institute.

    Mr. Scott. Thank you.
    And we apologize. You were supposed to have gotten a yellow 
light. And we figured out how to work the machine now. 
Everybody else will get a yellow light, which means the time is 
about to run out. You will get a little better warning than you 
did.
    Dr. Peters?

 TESTIMONY OF ROGER H. PETERS, Ph.D., CHAIRMAN AND PROFESSOR, 
DEPARTMENT OF MENTAL HEALTH LAW AND POLICY, UNIVERSITY OF SOUTH 
                       FLORIDA, TAMPA, FL

    Mr. Peters. Thank you, Chairman Scott and Ranking Member 
Forbes, and thank you, Members of the Subcommittee, for this 
opportunity to testify on the Second Chance Act of 2007 and to 
participate in this important hearing.
    I have studied drug addiction and treatment in the criminal 
justice system over the past 20 years. And during this time, I 
think we have made great strides in developing effective 
treatments to break the harmful cycle of drug abuse and crime.
    Drug abuse is a major burden to our society. The estimated 
annual cost of drug-related crime are $107 billion. We know 
that substance abuse is closely linked to crime with over half 
of all violent crime, property crime and child abuse and 
neglect cases are related to drug use.
    Of the nearly 7 million adults in the criminal justice 
system, the majority have drug disorders. Most of these 
individuals have never participated in a comprehensive drug 
treatment program. We also know that incarceration without 
treatment is ineffective and is also a costly solution to this 
problem that we have.
    Drug and alcohol disorders do not resolve simply through 
forced abstinence in jails and prisons. Within the first year 
of release, 85 percent of offenders with drug disorders return 
to substance abuse. And within 3 years, two-thirds are re-
arrested.
    Research conducted by NIDA and NIJ demonstrates that 
substance abuse treatment within the criminal justice system 
reduces recidivism, drug use, family violence, unemployment and 
welfare dependence. These findings are not only robust, but 
they are consistent and compelling.
    Substance abuse treatment reduced drug use by about half, 
reduces crime by up to 80 percent, reduces arrests up to 64 
percent and increases employment by 40 percent. Treatment is 
also effective across different criminal justice settings, 
including prisons, jails, work release center, day reporting 
centers and drug courts. The effectiveness of drug treatment is 
not diminished when it is leveraged through legal mandate.
    The most effective correctional programs are those that 
combine drug treatment in jails and prisons with treatment for 
at least 3 months following re-entry to the community. A NIDA 
study found that those participating in the prison treatment 
followed by treatment in a community work release center were 
seven times more likely to be free of drugs after 3 years than 
those who received no treatment, and were more than twice as 
likely to remain arrest free.
    Treatment in the criminal justice system is not only 
effective, but it also saves money. Cost savings related to 
treatment in reducing drug-related crime amount to $4 to $7 for 
every dollar spent. Despite the effectiveness of the drug 
treatment, only 10 percent to 12 percent of offenders receive 
any form of treatment--a small fraction of those who need it. 
Often these services are not comprehensive in scope.
    One of the most significant treatment gaps is community re-
entry services following release from jail or prison--a 
particularly vulnerable time when offenders are exposed to high 
risk for relapse and re-arrest. Fewer than half of jails and 
prisons in the U.S. now offer any type of re-entry services. 
This may be the single most important gap that we face in 
services within the criminal justice system.
    Through research, we now have a better understanding of the 
key elements of effective treatment in the justice system. Drug 
addiction is a chronic and relapsing disorder of the brain that 
progresses over an extended period of time. And it is 
characterized by compulsive behavior. As a result, 
comprehensive treatment services are needed over a sustained 
period to interrupt the harmful cycle of drug use and crime.
    Like other chronic health disorders that are relapsing, 
such as asthma, diabetes and hypertension, drug addition 
requires ongoing attention but can be effectively treated and 
managed over time. According to NIDA's recently published 
Principles of Drug Abuse Treatment for Criminal Justice 
Populations, the most effective drug treatments are those that 
combine behavioral and pharmacological approaches and also 
include re-entry services. The Second Chance Act of 2007 
provides an important step toward enhancing correctional 
treatment of re-entry services and breaking the harmful cycle 
of drug abuse and crime.
    Also needed to achieve the goals of the Second Chance Act 
are to provide stable sources of funding and support for 
treatment and re-entry services throughout the criminal justice 
system; incentives to create State coordinating councils to 
help plan, develop and implement statewide offender treatment 
and re-entry systems; continued cooperation and partnerships 
between the Justice Department and SAMSA to expand and improve 
the continuum of correctional treatment and re-entry services. 
Finally, support for additional research to examine effective 
offender treatment is of critical importance, if we are going 
to continue building on the success stories discussed here 
today.
    In closing, drug abuse disorders are widespread in our 
society and particularly effect those involved in the justice 
system. We know that there is a strong connection between drug 
abuse and crime and of the harmful cycle that leads from drug 
abuse to crime and to incarceration. We also know that drug 
treatment and re-entry services can be highly effective in 
breaking this cycle, particularly if these services are 
comprehensive and coordinated across different points in the 
justice system. Yet, drug treatment now is provided to only a 
small fraction of offenders who need these services.
    For all of these reasons, your efforts to enact the Second 
Chance Act of 2007 make good sense from both a policy and a 
human perspective.
    Thank you for allowing me to share this information with 
you. And I will be happy to answer any questions later that you 
have.
    [The prepared statement of Mr. Peters follows:]
                 Prepared Statement of Roger H. Peters

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Thank you very much.
    We have been joined at one time or another by Mr. Nadler 
from New York, Mr. Chabot from Ohio, Mr. Lungren from 
California.
    Mr. Lufburrow?

   TESTIMONY OF STEVE LUFBURROW, PRESIDENT AND CEO, GOODWILL 
               INDUSTRIES OF HOUSTON, HOUSTON, TX

    Mr. Lufburrow. Mr. Chairman and Members of the 
Subcommittee, my name is Steve Lufburrow, and I am the 
president and CEO of Goodwill Industries of Houston. And I 
really am pleased to testify today in support of the Second 
Chance Act.
    The need to help hundreds of thousands of incarcerated 
individuals in this country re-integrate into society has 
reached epidemic proportions. The critical underlying factor in 
any re-integration plan for the community is public safety.
    The Second Chance Act would lead our Nation in the right 
direction, as we discussed earlier, through the integration of 
the four major areas: drug treatment and mental health; job 
training; mentoring; and family strengthening. Inmates exiting 
the Nations jails and prisons need all of these vital services.
    Goodwill Industries is a network of 186 community-based 
independent member organizations in the United States, Canada 
and then 15 other countries. Each organization serves people 
with disabilities, low-wage workers and other jobseekers by 
providing education and career services as well as job 
placement opportunities and post-employment support. Our goal 
is to help people overcome their barriers to employment and 
become independent taxpaying members of our communities.
    In 2005, more than 846,000 people benefited from Goodwill's 
career services. Goodwill Industries reported $2.65 billion in 
revenues and channels 83 percent of the revenues directly into 
the programs and services. Goodwill Industries has unique 
experience as a service provider in areas impacting prisoner 
re-entry.
    Even before the re-integration program reached epidemic 
proportions, local Goodwill agencies throughout the country had 
been working with this population in both jails and prisons and 
when inmates are released. Since our agencies are community-
based, we are able to work directly with the probation 
officers, the courts, the jails, the prisons and other partners 
in the community. In 2005, 97 local Goodwill agencies helped 
more than 45,000 current and former prisoners.
    The challenges in helping this population are tremendous. 
And legislation, such as the Second Chance Act, recognizes the 
need for comprehensive and integrated services. According to 
the Thurgood Marshall School of Law in Houston, between one-
third and one-half of ex-offenders are caught committing new 
crimes within 3 years of their release. But in a 2004 study of 
the Urban Institute showed that inmates who are involved in 
work programs while incarcerated are approximately 20 percent 
less likely to re-offend upon release.
    In the State of Texas, we have 19 local Goodwill agencies. 
Our clients are primarily those with the most severe barriers 
to obtain employment, such as people with disabilities and 
welfare recipients. However, more individuals who seek our 
services have some prior criminal background. And we believe 
this is due to the growing rate of incarceration in this 
country.
    For example, of the 26,043 persons served by my friends and 
our friends at the San Antonio Goodwill last year, 10,945 were 
ex-offenders. That is nearly half of their entire client 
population. And out of all of our agencies in Texas, 14,308 ex-
offenders were served. And that is startling to me.
    There exists a lack of comprehensive and coordinated 
services for ex-offenders from local, State and Federal 
authorities. And we are pleased that this legislation includes 
a role for nonprofit service providers. For years, our 
nationwide network has been providing juvenile and adult ex-
offenders.
    And funding for prisoner re-entry is critical and often 
lacking in not for profits; because at Goodwill, we support 
many of our programs through the revenue provided by sales of 
donated clothes and household goods in our retail stores. The 
Second Chance Act, though, would help reduce recidivism by 
allocating the necessary funds to support those comprehensive 
services that have been identified as reducing recidivism.
    Many of the clients served by local Goodwill agencies have 
some type of criminal background on their record. And some 
estimates indicated as many 30 percent to 50 percent of the 
individuals served by local Goodwill agencies have a prior 
conviction. As a human service organization, Goodwill 
Industries understands that for ex-offenders to re-enter 
society, they must have the following: safe housing; substance 
abuse treatment; services for physical and mental illness; 
training, education and jobs; occupational skills training; and 
job retention services.
    I have included for the record a more extensive list of our 
programs and services. We believe that the Second Chance Act is 
urgently needed. Until the necessary steps are taken to help 
former prisoners obtain and retain jobs, the downward spiral of 
recidivism will continue.
    By keeping former prisoners from returning to a life of 
crime and being incarcerated, we increase public safety, reduce 
correction cost. And the Second Chance Act furthers us toward 
these goals and saves taxpayers dollars.
    Thank you very much.
    [The prepared statement of Mr. Lufburrow follows:]
                 Prepared Statement of Steve Lufburrow
    Mr. Chairman and members of the Subcommittee, my name is Steve 
Lufburrow, and I am the President and CEO of Goodwill Industries of 
Houston. I am pleased to testify today in support of the Second Chance 
Act.
    The need to help the hundreds of thousands of incarcerated 
individuals in this country reintegrate into society has reached 
epidemic proportions. The critical underlying factor in any 
reintegration plan for the community is public safety.
    The Second Chance Act would lead our nation in the right direction 
through the integration of four major areas: drug treatment and mental 
health, job training, mentoring, and family strengthening. Inmates 
exiting the nation's jails and prisons need all of these vital 
services.
    Goodwill Industries is a network of 186 community-based, 
independent member organizations in the United States, Canada, and 15 
other countries. Each organization serves people with disabilities, 
low-wage workers and other job seekers by providing education and 
career services, as well as job placement opportunities and post-
employment support.
    Our goal is to help people overcome barriers to employment and 
become independent, tax-paying members of their communities. In 2005, 
more than 846,000 people benefited from Goodwill's career services. 
Goodwill Industries reported $2.65 billion in revenues, and channels 83 
percent of its revenues directly into its programs and services.
    Goodwill Industries has unique experience as a service provider in 
areas impacting prisoner re-entry. Even before the reintegration 
problem reached epidemic proportions, local Goodwill agencies 
throughout the country have been working with this population in both 
jails and prisons and when inmates are released. Since our agencies are 
community-based, we are able to work directly with probation officers, 
the courts, jails, prisons, and other partners in the community.
    In 2005, 97 local Goodwill agencies helped more than 45,000 current 
and former prisoners. The challenges in helping this population are 
tremendous, and legislation such as the Second Chance Act recognizes 
the need for comprehensive and integrated services.
    According to the Thurgood Marshall School of Law in Texas, between 
one-third and one-half of all ex-offenders are caught committing new 
crimes within three years of their release. But a 2004 study by the 
Urban Institute showed that inmates who are involved in work programs 
while incarcerated are approximately 20 percent less likely to re-
offend upon release. By conducting pre-release assessments to evaluate 
educational and vocational needs and facilitating collaboration with 
nonprofits and other groups to promote employment, including 
transitional jobs and time-limited subsidized work experience, the 
Second Chance Act would significantly aid in increasing ex-offender 
employment opportunities.
    In the state of Texas, we have 19 local Goodwill agencies. Our 
clients are primarily those with the most severe barriers to obtaining 
employment, such as individuals with disabilities and welfare 
recipients. However, more individuals who seek our services have some 
prior criminal background. We believe this is due to the growing rate 
of incarceration in this country.
    For example, of the 26,043 persons served by San Antonio Goodwill 
last year, 10,945 were ex-offenders. That's nearly half of their entire 
client population. Out of all of our agencies in Texas, 14,308 
offenders/ex-offenders were served. This is startling.
    There exists a lack of comprehensive and coordinated services for 
ex-offenders from local, state, and federal authorities. With nearly 
650,000 individuals released from jails and prison each year, we are 
reaching a national crisis in serving this group and helping them to 
reintegrate into society. We believe that passage of the Second Chance 
Act is a step in the right direction and long overdue. We support the 
integration of the workforce development system with housing, health 
services, education, mental health, and drug and alcohol treatment. 
Because of this crisis, many of our local agencies across the country 
are beginning prisoner re-entry programs.
    We are pleased that the legislation includes a role for nonprofit 
service providers. The Second Chance Act would support the development 
of healthy child-parent relationships through implementing programs in 
correctional agencies to include the collection of information 
regarding any dependent children.
    According to the Commission on Safety and Abuse in America's 
Prisons, the most accurate indicator of a successful return to society 
is the inmate's connection to family. Children of incarcerated parents 
are six times more likely than other youth to land in prison at some 
point in their own lives. Over 1.5 million children have at least one 
parent in prison.
    Goodwill agencies understand that reconnecting to one's family can 
be immensely effective in ending the cycle of recidivism. Through an 
ongoing partnership with the Annie E. Casey Foundation, local Goodwill 
agencies across the U.S. assist in supporting strong family 
relationships.
    For years, our nationwide network has been providing juvenile and 
adult services to ex-offenders. Some of our programs receive state or 
foundation support. The Second Chance Act would provide support for 
family strengthening programs like the one we operate at Goodwill 
Industries.
    Funding for prisoner re-entry is critical and often lacking for 
nonprofits. At Goodwill Industries, we support many of our programs 
through the revenue provided by sales of donated clothing and household 
goods in our retail stores. Currently, adequate funding does not exist 
for prisoner re-entry programs. Much of the funding in the corrections 
system is spent on housing inmates, and not on comprehensive services 
that would actually help prepare them for release and ultimately lead 
to a decrease in the nation's recidivism rate. The Second Chance Act 
would help reduce recidivism by allocating the necessary funds to 
support those comprehensive services that have been identified as 
reducing recidivism.
    The legislation would also help reduce state corrections' costs. A 
significant portion of state budgets are dedicated to correction-
related expenses. The average cost to house a federal inmate is over 
$25,000 a year. The average cost on the state level in 2000 was only 
slightly less--$21,170 yearly. While the costs to taxpayers soared from 
$9 billion per year on corrections in 1982 to $60 billion two decades 
later, recidivism has not improved over the last 30 years. Given the 
current cost spent on corrections, even a modest reduction in the rate 
of recidivism would yield substantial economic benefits.
    Many of the clients served by local Goodwill agencies have some 
type of criminal background on their records, and some estimates 
indicate as many as 30-50 percent of the individuals served by local 
Goodwill agencies have a prior conviction. As a human service 
organization, Goodwill Industries understands that for ex-offenders to 
re-enter society, they must have the following:

        <bullet>  Safe housing

        <bullet>  Substance abuse treatment

        <bullet>  Services for physical and mental illness

        <bullet>  Training, education, and jobs

        <bullet>  Occupational skills training

        <bullet>  Job retention services

    Many of our agencies are involved in providing such services, which 
we believe are critical in reducing the nation's rate of recidivism. We 
have two local agencies--Goodwill Industries of New York and New Jersey 
and Goodwill Industries of San Antonio--that received the Prisoner 
Reentry Initiative grant from the U.S. Department of Labor. We support 
the expansion of this program and the authorization of new funding for 
job training programs operated by nonprofits.
    Goodwill Industries of San Antonio leads a collaboration of faith 
and community-based providers in an efficient, seamless service 
continuum for non-violent offenders. The agency's ``Learn While You 
Earn'' project features transitional employment, job retention support 
and continuous case management, in addition to job placement, housing 
assistance, counseling, and alcohol and drug treatment. In each of 
these service areas, the agency partners with other providers.
    Goodwill Industries of New York and New Jersey began Project Caring 
Community in 2003 to help female ex-offenders successfully transition 
to community life after their release from prison. This agency provides 
wrap around case management services and medical assistance. The 
program also provides counseling by trained psychologists to deal with 
psychiatric, substance abuse, housing, education, social, personal and 
family related issues. This program serves women at several women's 
prisons in upstate New York. I have included for the record a more 
extensive list of our programs and services.
    Our local agencies specialize in vocational screening, pre-
employment and soft skills training, transitional work experience, 
placement and retention services. The successful reintegration of 
individuals coming out of our nation's prisons depends upon community 
and family support, and placement into employment--this ultimately will 
help us to reach our goal of improving public safety.
    We believe that the Second Chance Act is urgently needed. Until the 
necessary steps are taken to help former prisoners obtain and retain 
jobs, the downward spiral of recidivism will continue. By keeping 
former prisoners from returning to a life of crime and being 
incarcerated, we increase public safety and reduce corrections' costs. 
The Second Chance furthers us toward these goals.
    Thank you.

    Mr. Scott. Thank you very much.
    Mr. Cowley?

   TESTIMONY OF JACK G. COWLEY, NATIONAL DIRECTOR, ALPHA FOR 
            PRISONS AND RE-ENTRY, WICHITA FALLS, TX

    Mr. Cowley. Thank you, Mr. Chairman, Members of the 
Committee.
    I was raised in a prison town and went to school with kids 
whose dads worked in prison in Oklahoma, the Oklahoma State 
Reformatory. And I was hired in 1970 by the LEAA, a grant from 
the Federal Government, as the first inmate relief counselor in 
Oklahoma. It was a pretty disappointing job. But I have stayed 
with corrections ever since and was a warden for many years; 
continued to work in the field.
    I am probably in a prison perhaps once a month. I know 
inmates. I know wardens. I know correctional officers. I know 
the victims. And the system is in dire need of hope--dire need 
of hope.
    They do have models that work. Wardens, quite frankly, have 
long given up on re-entry. And they don't really even think 
about what they do in terms of recidivism rates. They just try 
to keep the toilets flushing and the chicken from being bloody 
when it comes off the stove.
    I was talking with a warden Friday, as he said, at the 
worst prison in Texas--a 3,330 long-term prison for young 
offenders--were opening what I will refer to you in a moment as 
``God pods'' there. And he said, ``Jack, I am running a 34 
percent vacancy rate. All I can do is just try to survive.''
    In 1997, in the State of Texas, under the leadership of 
Prison Fellowship and then-Governor Bush, we started what was 
called the Interchange Freedom Initiative, which was an 
intensive in-prison pre-release program of at least 18 months, 
in which volunteers came into the prison, made relationships 
with inmates, and began to mentor them upon their release.
    In fact, I got the rule changed in Texas, whereby inmates 
could be released from that prison directly into the arms of 
their mentor rather than traveling all the way to Huntsville to 
be released and having to take a bus home. Many of them don't 
make it.
    That program was studied by Byron Johnson and found that 
what they call a 50 percent recidivism rate in Texas, which is 
really closer to 70 percent--although the sample was fairly 
small, the recidivism rate for those inmates that completed and 
graduated from that program was only 8 percent. It is almost 
too good.
    Since then, with Alpha, what I do is invest in faith-based 
and community organizations in a collaborative way and provide 
wardens the opportunity to offer us a unit within the prison 
where inmates can be housed separately. Then we provide 
programming up until the time they are released. Then that work 
continues after they go home, and it is working. We will build 
so far--although the numbers are growing--was probably close to 
2,000 inmates a year. More States are getting excited about 
what we are offering, because it involves faith-based and 
community organizations in a collaborative with the State. We 
now can tell wardens something works.
    I was at a grand opening Friday of a long-term God pod in 
Rosharon, Texas. And when the warden paints the dorms and puts 
in new flower beds and gets things ready, you know that he is 
dedicated to seeing changes in his prison.
    Now, a lot of that work is being done. And quite frankly, 
it will be done without the Second Chance Act. It won't be done 
on the level that it needs to be. I mean, we have heard 650,000 
inmates go home a year. The Second Chance Act will certainly 
give us an opportunity to add capacity.
    But you have started something, quite frankly, that you 
need to finish. You see, without hope--and I am not talking 
just about inmates and their families and victims, but the 
system. We got this bill now. We say we are going to do all 
this wonderful stuff, and if it isn't done, the message is 
going to go out to the States--to wardens, and the jail 
administrators, and to inmates--well, if those guys really 
don't care, then why should we bother anymore? And I am telling 
you that is what is going to happen.
    The Second Chance Act is much more than money. As much as 
it is needed, the Second Chance Act is a shot in the arm for 
the system--not just ``second chance'' for inmates, but it is a 
``second chance'' for correctional administrators, a ``second 
chance'' for victims. So, we urge its passing. We know the 
model that works, and we are just waiting for the resources to 
build capacity.
    Thank you for the opportunity to share that with you.
    [The prepared statement of Mr. Cowley follows:]
                  Prepared Statement of Jack G. Cowley
    Thank you for offering me this time to speak with you concerning a 
subject, which has for years been debated from the halls of Congress to 
barber chairs in every corner of our country. Crime and Punishment and 
in particular recidivism rates of those inmates who are released from 
our prisons. I literally do mean ``for years'' as I was first employed 
in 1970 as the first Inmate Release Counselor in the State of Oklahoma 
prison system with a Federal Grant to assist with the reduction of 
recidivism. I therefore can speak to you today as a person who for the 
past thirty-seven years has spent as much time in the company of 
inmates as I have with my own children, of the continued failure of our 
criminal justice system to protect the safety of our country's 
citizens.
    I don't believe that I need to go into the numbers, which represent 
that failure. You have heard that testimony from others. The mere fact 
that this hearing is taking place indicates your awareness of the 
problem--a problem by the way, which grows worse as the years go by. 
While crime rates have remained somewhat stable over the past years, 
our correctional facilities are bursting at the seams and more are 
being built every year. We can no longer afford to maintain business as 
usual inside the walls.
    As a warden for over twenty-five years, I saw first hand on the 
faces of inmates about to be released the sincerity in commitment to 
remain crime free. As a director of programs for a non-profit out 
patient clinic dealing with ex-offenders who were struggling to remain 
crime free, I can attest to the fact that they really did not want to 
return to prison. My Dad would say, ``Anyone can stay out of prison 
that really wants to.'' We like to think in this country that anyone 
can be what who want to be. Our country in fact was founded on that 
principal. Yet, after all of
    these years of working in and believing in our system of justice, I 
have come to the conclusion that wanting something to be so, doesn't 
always make it so. There are some people who must be helped, who must 
be nurtured into being what they want to be. With a recidivism rate 
over fifty percent, it is obvious that help has not been forthcoming.
    I can tell you without hesitation that until recently the vast 
majority of wardens and directors of corrections were deliberately 
indifferent in terms of the successful reintegration of inmates back 
into society. We would all say that the programs of academic education, 
counseling and job readiness opportunities were offered inside our 
prisons for exactly that purpose. We would say that upon release parole 
officers were assigned to parolees to assist in reintegration. The 
inference was of course that the system was doing all that could be 
done to provide inmates with the tools of success and therefore the 
failure to remain crime free was due solely to the desire of the ex-
offender. I can tell you that parole systems are now for the most part, 
given the hike in the recidivism rate, geared solely toward the 
surveillance of parolees and not toward their reintegration back into 
their communities.
    It was in part this philosophy, which gave rise to ``Lock'em up and 
Throw Away the Key'' that prisons came to be constructed at a 
staggering rate all over the country. We couldn't get tough enough on 
crime. As warden I had one public official who said, ``let them carry 
rocks from one side of the prison yard to the other ten hours per day, 
feed them dog food and I bet that they won't come back in.'' The 
reality (and I believe we all know this now) is that you can't build 
our way out of the problems we face in our prisons. Being tough on 
crime is not making those at whom we are angry, hurt; it is providing 
them an environment in which to change and the tools with which to do 
so while incarcerated. It is conscientious assistance upon release with 
becoming tax-paying/crime free citizens. Toughness on crime is 
effective public policy, which promotes public safety. You see the 
Second Chance Act is not a rehabilitation tool. It has nothing to do 
with being soft on crime. It is in fact a bill that promotes public 
safety as it will assuredly reduce the number of future crime victims.
    We now have a model for effective reintegration, which cannot be 
denied. Intensive pre-release programs in which offenders who have 
volunteered are housed within the prison on specific living units, 
participating together in programs led by local volunteers willing to 
continue the
    solid relationships formed during the offenders' incarceration, 
upon release. The inmates' families are asked to participate in support 
programs held in the community. Housing and job opportunities are 
provided through collaborations of faithbased and community 
organizations. The recidivism rate according to the study conducted by 
Dr. Byron Johnson was significantly reduced for those inmates who 
completed the program. The Second Chance Act will send a message to not 
only those state and federal employees that Congress is serious about 
making the system work effectively, it will also encourage the 
development of local collaborations of support upon which rest the 
foundation recidivism reduction.
    Let me conclude my comments by saying at the heart of making the 
system work effectively and thereby reducing the rate at which ex-
offenders are returned to prison, someone must be held accountable for 
reducing the current rate of recidivism. In other words, if wardens, 
parole supervisors and directors of corrections were held accountable 
for the reduction in recidivism rates, the criminal justice system 
would change over night. By placing that requirement on the annual 
evaluations of federal and state corrections employees, the methods by 
which business is conducted inside our prisons and parole offices would 
dramatically change. No more business as usual. In other words, those 
individuals who choose to work in corrections and who fail to correct 
must be held accountable.
    Passage of this bill will signal to those inside the criminal 
justice system and those ``outside'' of it who are considering becoming 
partners, that there is hope. Much needed resources would become 
available to those correctional administrators willing to make changes 
necessary to overcome the lasting pains of incarceration. The pain of 
the offender most assuredly will become the community's pain if not 
healed. Remember the vast majority of those who are in our prisons are 
simply people at whom we are angry and not of whom we are afraid. We 
now have a proven effective model with which to work. We can reach 
these people, these offenders, these neighbors and now it is a matter 
of holding the system accountable for putting it into practice.

    Mr. Scott. Thank you very much.
    Mr. McDonald?

          TESTIMONY OF GEORGE T. McDONALD, PRESIDENT, 
                  DOE FUND, INC., NEW YORK, NY

    Mr. McDonald. Thank you, Mr. Chairman and fellow Members of 
the Committee. It is an honor for me to be here and have my 
second chance to testify before Congress.
    I certainly support the Second Change Act of re-integration 
the formerly incarcerated individuals into the workforce and 
the mainstream of society.
    In the early 1980's, I started working with homeless men 
and women in New York City. I spent literally 700 nights in a 
row feeding thousands of individuals who lived in, around and 
under Grand Center Terminal. I got to know them, often becoming 
their friend.
    From them, I learned the conventional solutions are 
insufficient in comprehensively and permanently addressing 
their needs. Shelters provided a place to sleep for the night. 
And a sandwich quelled their hunger for the moment. But what 
they really wanted was a room and a job to pay for it.
    The Ready, Willing and Able program answered that need. It 
was built on a promise, a contract really, between my 
organization, the Doe Fund, and those homeless men, that if 
they gave up drugs and went to work, this program would be 
there to support and open doors for them. Ready, Willing and 
Able, or as we call it RWA, started as an innovative approach 
to solving a seemingly intractable problem that today has 
become the most visible, effective, respected solution to 
homelessness in the Nation.
    We serve over 1,000 people a day in three States. As a part 
of our community improvement street-cleaning project, we send 
men in blue--and that is what we call them, because of the 
bright blue uniforms they wear with the American flag on their 
sleeve--out to clean over 150 miles of New York City streets. 
Seven days a week, 365 days a year, the sweeping, bagging of 
garbage, graffiti removal, snow shoveling and other street 
sanitation services we perform have improved the quality of 
life in our city and made our participants beloved and sought 
after additions to every neighborhood.
    Because they do this hard and humble work with diligence 
and good cheer, they have won the support of over 45,000 
individuals that not only send us financial contributions, but 
notes explaining how much they have come to rely on our 
participants. And believe it or not, feel safer because of 
their presence.
    Several years ago, we recognized that society was facing a 
crisis larger and certainly costlier than homelessness, one 
that threatens public safety, burdens taxpayers and results in 
countless human lives being wasted: criminal recidivism. As you 
have said here, Mr. Chairman, 650,000 people are released from 
jails and prisons cross the country each year. More than two-
thirds go back within 3 years.
    Knowing that 70 percent of the men we already successfully 
serve in RWA had an average of three felony convictions each, 
and that the chief factor influencing recidivism was quality 
employment, we saw an opportunity to adapt our model to serve 
those exiting prison and solve another critical societal 
problem.
    In 2001, the Department of Justice became our partner in 
these efforts. They funded the launch of a pilot program 
serving parolees who had already had housing, but were in need 
of educational; vocational; substance abuse; social services; 
and most importantly, paid work that RWA offered. Beginning 
with 30 men, the program has grown to serve over 200, who all 
put on that bright blue uniform and go out every day to clean 
our city. In an unassuming and humble way, they accomplish the 
monumental task of reversing prejudices and changing the 
perception of formerly incarcerated people.
    In 2006, building on our success in reducing recidivism by 
helping parolees rejoin the workforce, the New Jersey and New 
York congressional delegations secured additional funding 
through the Department of Justice for us to expand by adding a 
residential component. Today RWA Stuyvesant located in Bedford 
Stuyvesant, Brooklyn seizes on the critical moment when an 
inmate is about to be released and is looking to make a 
positive change in his life. Recruitment begins literally 
before the fellow's release and offers him a chance to walk out 
of the prison door onto one of our vans that will transport him 
to his new transitional home and work.
    For 9 to 12 months, he lives in a safe, drug-free, shared 
apartment. He is paid above the minimum wage to work in our 
community improvement projects, receives the comprehensive 
social services, reports to a parole officer assigned 
specifically to participants in our Stuyvesant program. 
Immediately, he becomes a productive, law-abiding member of the 
community, and an example of what is possible when opportunity 
is provided and seized.
    Jose Carrera was 19 years old when he was sentenced under 
the New York Rockefeller Drug Laws. He was 39 when he came out. 
While inside, he stabbed another inmate and spent a total of 5 
years in solitary confinement. There in the box, as they call 
it, he had an awakening and decided to change his life.
    Upon release, he came to our program, put on that blue 
uniform and pushed a bucket for a year. He remembers the things 
that kept him motivated when he thought about giving up were 
the paycheck and the passers-by who patted him on the back and 
thanked him for the job he was doing. He was used to inspiring 
fear, but never smiles of gratitude.
    The greatest sense of gratitude for his transformation 
comes from his two children. In the past, his son was told you 
are no good. You will be just like your father. Today, Jose Jr. 
sees his father as a role model and appreciates being compared 
to him. Jose graduated from our program with a job as a 
dialysis technician. He likes to say that while he once stabbed 
people to hurt them, today he does it to save their lives.
    There are thousands of stories like Jose's. And through the 
help of this bill and the Doe Fund's criminal justice programs 
and the rest of the folks here, there can and will be many 
more. We have found the way to replace the revolving door of 
criminal recidivism with the best front door in America, one 
that formerly incarcerated persons can walk through with little 
more than a desire to work hard and rebuild his life, and walk 
back out a year later with his sobriety, a permanent job and 
his own apartment.
    As I sit here addressing this Subcommittee of the United 
States Congress, I can't help but think what could be more 
fundamentally American than extending the opportunity of hard 
work and personal responsibility to people striving to become 
taxpaying, law-abiding citizens. This is an important piece of 
legislation to provide that opportunity.
    Thank you for having me here today.
    [The prepared statement of Mr. McDonald follows:]
                Prepared Statement of George T. McDonald
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to testify before you today on a matter of significant 
importance to our Nation. As Founder and President of The Doe Fund, the 
New York based non-profit that operates the Ready, Willing & Able 
residential paid work program, I have had the privilege of watching 
thousands of men break lifelong patterns of crime, homelessness and 
substance abuse to become productive, law-abiding, tax-paying citizens 
and fathers to their children.
    In the early 1980's, when I first started working with people our 
society had given up on--homeless, drug-addicted ex-offenders--I heard 
from their mouths that what they really wanted was a hand-up, not a 
handout. They wanted the opportunity to go to work, to lift themselves 
out of poverty, to escape destructive cycles and to rejoin mainstream 
society. When I handed them a sandwich they thanked me, but asked for 
something more--something I heard over and over again--``A room and a 
job to pay for it. A room and a job to pay for it.''
    The Ready, Willing & Able program fulfills that request. It was the 
first program of its kind to go beyond immediate emergency needs...to 
believe in the potential of even the most downtrodden among us to seize 
an opportunity and succeed.
    I recruited the first Ready, Willing & Able program participants 
from the floor of Grand Central Terminal. That is where they had landed 
after cycling in and out of homeless shelters and prisons. Together we 
entered into a contract in which they promised to give up drugs and go 
to work and The Doe Fund, in return, promised that Ready, Willing & 
Able (RWA) would be there to support and open doors for them.
    From that first handful of men and our first facility in Bedford-
Stuyvesant, Brooklyn we have grown to serve over 1,000 people a day, in 
six facilities and three states. Our participants come to us, no longer 
off the floor of Grand Central Terminal, but often straight from our 
prisons. They represent the largest and costliest crisis--both 
financially and in wasted human lives--our society has yet to face--
criminal recidivism.
    Each year, 660,000 individuals are released from prison. Two-thirds 
go back within three years. Studies have shown over and over again that 
the chief factor influencing their recidivism is the ability to find 
quality employment. It is therefore no surprise that Ready, Willing & 
Able's work-based approach has had such extraordinary success in 
helping this population permanently escape the revolving door of 
incarceration.
    As part of our renowned and highly visible community improvement 
street cleaning project, we put the ``Men in Blue'' (as we call them 
because of the bright blue uniforms they wear) to work cleaning over 
150 miles of city streets every day. They earn above minimum wage and 
immediately begin to develop the work ethic and dignity that comes from 
an honest day's work.
    The sweeping, bagging of garbage, graffiti removal, snow shoveling 
and other street sanitation services they perform have improved the 
quality of life in the cities where we operate and made our 
participants beloved and sought after additions to every neighborhood. 
Because they do this hard and humble work with diligence and good 
cheer, they have won the support of more than 45,000 individuals who 
not only send financial contributions, but notes explaining how much 
they have come to rely on our participants and--believe it or not--feel 
safer because of their presence. After 9 months in our program we help 
them find full-time private sector jobs and get ready to exchange their 
blue uniforms for suits and ties, chef's hats and doorman uniforms.
    When in 2001, Kings County (New York) District Attorney Charles 
Hynes asked us to launch a pilot ``day'' program serving parolees who 
had housing, but needed the educational, vocational, substance abuse 
and, most importantly, paid work that RWA offered, we didn't hesitate.
    Beginning with 30 men, our day program has grown to serve over 200. 
All put on our signature bright blue uniforms and go out every day to 
clean our city. In an unassuming and humble way, they accomplish the 
monumental task of reversing prejudices and changing the perception of 
formerly incarcerated people.
    Last year, building on our extraordinary success in reducing 
recidivism by helping parolees rejoin the workforce, we secured 
additional funding through the Department of Justice to help us expand 
our program to serve parolees by adding a residential component to the 
services we were already providing. Today, RWA-Stuyvesant, located in 
Bedford-Stuyvesant, Brooklyn, is one of the most comprehensive 
residential, work-based models serving this population. It focuses on 
the critical moment when an inmate is about to be released and is 
looking to make a positive change in his life. Recruitment begins 
before he is even released and literally offers him a chance to walk 
out the prison door and onto one of our vans that will transport him to 
his new transitional home.
    For 9-12 months he lives in a safe, drug-free shared apartment, is 
paid above minimum wage to work in our community improvement project, 
receives comprehensive social, services and reports to a Parole Officer 
assigned specifically to participants in RWA-Stuyvesant. Immediately, 
he becomes a productive, law-abiding member of the community and an 
example of what is possible when meaningful opportunity is provided and 
seized.
    Last year, I was asked by Chauncey Parker, then Director of the New 
York State Division of Criminal Justice Services, to assemble a 
committee to formulate recommendations that would enhance employment 
opportunities for job seekers with criminal records. I had the honor of 
working, for over a year, with brilliant and dedicated experts to 
create The Independent Committee on Reentry and Employment's Report and 
Recommendations to New York State on Enhancing Employment Opportunities 
for Formerly Incarcerated People. I am proud of the recommendations we 
put forth in this report and could include findings and statistics from 
it in this testimony, but instead, I would like to share the stories of 
some of our program graduates with you.
    Anthony Malpica came to Ready, Willing & Able with over 50 
convictions for Breaking and Entering. During his three decade long 
addiction to heroin he had known two homes: a prison cell and a 
cardboard box in an abandoned lot in Spanish Harlem that he called 
``Cardboard Co-op City.'' Upon his last release, he heard about RWA at 
a Narcotics Anonymous meeting. Putting on our blue uniform and sweeping 
the streets of New York was Anthony's first legitimate job at the age 
of 45. When it came time for him to look for permanent employment, he 
applied for a job as--of all things--a locksmith apprentice. As he 
says, ``I had broken many locks to rob, but I had never imagined myself 
fixing them.'' Today, Anthony has been drug-free for 8 years. He is 
married and lives in his own home. He is no longer a locksmith 
apprentice, but a certified, bonded locksmith.
    Jose Carrero was 19 when he was sentenced under New York's 
Rockefeller Drug laws. He was 39 when he came out. While inside, he 
stabbed another inmate and spent a total of 5 years in solitary 
confinement. There, ``in the box'' as inmates call it, he had an 
awakening and decided to change his life.
    Upon release, he came to our program, put on a blue uniform and 
pushed a bucket for a year. He remembers that the things that kept him 
motivated, when he thought about giving up, were the paycheck and the 
passersby who patted him on the back and thanked him for the job he was 
doing. He was used to inspiring fear in people, but never smiles or 
gratitude.
    The greatest sense of gratitude for his transformation, however, 
comes from his two children. In the past, his son was told, ``You're no 
good. You will be just like your father.'' Today Jose, Jr. sees his 
father as a role model and appreciates being compared to him.
    Jose graduated from our program with a job as a dialysis 
technician. He likes to say that while he once stabbed people to hurt 
them, today he does it to save their lives.
    There are thousands of success stories like Anthony's and Jose's, 
and through the help of programs like The Doe Fund's there can be more. 
Enacting this bill is a start toward assembling the formula--of which 
work opportunities are the key--to ensuring their success and that of 
the thousands of formerly incarcerated individuals who seek to re-enter 
society and the workforce.
    Ready, Willing & Able has found the way to replace the revolving 
door of criminal recidivism with the best front door in America--one 
that a formerly incarcerated person can walk through with little more 
than the desire to work hard and rebuild his life and walk out of, a 
year later, with his sobriety, a permanent job and his own apartment.
    In my testimony to this Subcommittee of the United States Congress 
, I cannot help but think--``what could be more fundamentally American 
than enacting legislation like this that will extend the opportunity of 
hard work and personal responsibility to people striving to become tax-
paying, law abiding citizens?''

    Mr. Scott. Thank you. Thank you, Mr. McDonald.
    I now will proceed to questions under the 5-minute rule. I 
will begin recognizing myself for 5 minutes and start with Dr. 
Peters.
    How important is mental health services to rehabilitation?
    Mr. Peters. Thank you, Mr. Chairman. Important point; 
mental health is a critical issue for our inmates. I think you 
heard several of the panelists discuss that already this 
afternoon. We know that 15 percent of our offenders have major 
mental health disorders in this country.
    In some cases, people talk about our correctional system 
now as the public safety net of last resort for our society. 
Unfortunately, these systems are not funded to provide 
intensive services in many cases, nor are they staffed to do 
that.
    So, it is really an important task for us to be able to 
identify those people and get them out of the system if 
possible as early as possible; and in the process at the point 
of entry to jail, for example, if those people don't present a 
public safety risk, to be placed in jail diversion programs 
with court monitoring, supervision and treatment services.
    Of course, for those people in jails and in prisons, they 
need to receive their medication and get treatment services 
that they need, and then be able to receive the same type of 
re-entry services that we are talking about here today for this 
population, who are at very extremely high risk of relapse and 
recidivism, and re-entry to hospitalization crisis 
stabilization units and other, kind of, key services in our 
society that cost huge amounts of money.
    So, a very important group that we need to target for 
resources and for re-entry services as well.
    Mr. Scott. Thank you.
    Chief LoBuglio, you mentioned the important of having re-
entry programs in jails. With jail overcrowding and the short 
period of time that people are going to be in a local jail, how 
effective can re-entry programs be in the local jails?
    Mr. LoBuglio. They can be very effective. And there are 
numerous opportunities to intervene in creative ways to work 
with the jail population. In the jail population--again the 9 
million individuals coming and going from the jail system 
annually--some will be staying for short periods of time, 
others will be staying for years.
    A re-entry plan for each individual is going to be unique. 
It is going to be tailored based on their needs and how long 
they are going to be with us for those in Montgomery County we 
find that in our jail-based program we are able to provide a 
one-stop career center for those who are sentenced for 90 days 
or less.
    There are other re-entry services that can be provided it 
for individuals that are there for shorter periods of time. In 
Allegheny County in Pittsburgh, there is a forensic mental 
health program that provides mental health services to 
individuals have who have been locked up for just 2 hours. They 
come in and they make sure that there is continuity of care.
    So, there are many models of re-entry. That is, I think, a 
theme of this legislation and the experience over the last 8 
years. Not every re-entry program is going to serve every type 
of individual. But don't forsake jails. There is much that can 
be done in jails to promote re-entry, and there are many 
examples across this country. I can cite those for you, Mr. 
Chairman.
    Mr. Scott. Thank you.
    Mr. Cowley, you represent several faith-based 
organizations. Do they need to discriminate in employment with 
Federal money in order to be effective?
    Mr. Cowley. No.
    Mr. Scott. As a former warden, did you have second chance 
programs in your prisons?
    Mr. Cowley. No.
    Mr. Scott. You didn't have any second chance programs in 
your prisons when you were a warden?
    Mr. Cowley. And very few do today. We talk about reducing 
the custody level, and that in turn means re-entry for most 
systems. But interventions are not that meaningful. We are 
strictly talking bed custody.
    So, when they talk about going to a halfway house, they are 
still--we offer things, but we say, okay, it is just--an inmate 
to get it if he wants to get it. It has to be more involved----
    Mr. Scott. What kind of programs do you think would be 
popular for inmates? What kind of programs would they be most 
likely to actually participate in?
    Mr. Cowley. Inmates know what is good for them if given the 
environment in which to change. Job readiness--most of them, if 
they are given this opportunity, want to know how to be better 
dads, because they know that statistically, just being in 
prison, their kids are at a higher risk. Most want to know how 
to fill out a resume.
    I had one guy that was in for 14 years. The day he got out, 
he said, ``Jack, will you teach me how to eat?'' They don't get 
to use forks and knives, Mr. Chairman. He wanted to know just 
how to eat. So, we did pretty good when he cut his meat, but 
then he didn't know what to do with the fork when he reached 
for his glass, so he just stuck it in the top of his steak 
which, you know--those are the kinds of things they want to 
know.
    Mr. Scott. Thank you very much.
    Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, without objection, I would like 
to introduce for the record a letter from 15 faith-based 
organizations that approve of this legislation as it is 
currently written.
    Mr. Scott. Thank you. Without objection.
    Mr. Gohmert. Could I reserve objection? Is that the one 
with the top 10 names on it? We had an issue last year where 
some of the faith-based groups that we checked with were not 
familiar with the particular thing their name was----
    Mr. Forbes. Mr. Chairman, I will debate this later if he 
has an objection. If he could voice his objection, and then we 
will deal with it as we get through the--rather than use my 
time on this one.
    Mr. Scott. Well, we will start your time over, but there is 
a motion made to introduce the letter for the record. Is there 
objection?
    Mr. Gohmert. Well, if I could reserve objection----
    Mr. Scott. The right to object has been reserved. We will 
start the time now.
    Mr. Forbes. Thank you, Mr. Chairman.
    I want to thank all of you witnesses for being here and for 
the programs that you are involved in.
    Mr. Lufburrow--I hope I am pronouncing that correctly--I 
know that Goodwill does a lot of programs in this area. Can you 
tell us what success rate that you have had?
    Also, how does family-based treatment address the needs of 
children participating in the program? What is the broad 
picture of the children affected by parental incarceration, 
substance abuse?
    If you can be as brief as possible, because I want ask a 
few questions of some of the other witnesses.
    Mr. Lufburrow. Sure. Let me try to answer those.
    The family side for the children, obviously, they have a 
rough run when they have someone, a parent, incarcerated. So, 
when we can work with the parent and get their self-esteem 
built up, it sure helps and rubs off on those kids. We are more 
working with the parent side as they are incarcerated.
    The first question again, sir?
    Mr. Forbes. The first question is, what success rate has 
Goodwill had?
    Mr. Lufburrow. Well, when we work with folks who have been 
incarcerated, you know, we will see not as much as I would like 
to see. But if we could get it to 50, I am happy. We work with 
so many other populations as well, which we are a little higher 
with.
    That is why we are pushing for this to pass through, 
because we don't have the dollars to make these programs 
official. So, we have to do it in other ways.
    Mr. Forbes. Okay.
    Dr. Peters, one of the things we are always looking at is 
effectiveness and how we measure effectiveness of programs. Can 
you tell us the difference between a short-term, let's say 30-
day, drug program that we try to put on somebody and a more 
comprehensive program that you talked about, the difference in 
effectiveness between those two kinds of programs?
    Mr. Peters. Absolutely, yes. We know that treatment to be 
effective needs to be approximately 90 days for offenders and 
for others that have chronic problems like this. We also know 
that longer-term programs such as 6-to 12-month programs are 
those that create long-term sustained outcomes, and those are 
the programs that we look at.
    And you see some of the figures cited in the testimony, 
where you have 27 percent who are re-arrested over the course 
of 3 years of follow-up after intensive treatment in prison and 
outside of prison, compared to in the range of 75 who don't 
receive treatment in those settings. So, you have a fairly 
persuasive 50 percent reduction in recidivism based on those 
long-term programs.
    You still see marked gains, though, in those intermediate 
range programs over 90 days. But it looks like that is the 
threshold, sir, that we need to reach for. And you can still 
achieve some significant gains in reductions in recidivism and 
substance abuse. But again, those don't typically lead to 
sustained changed in behaviors over time.
    Mr. Forbes. Good.
    Mr. Cowley, I know you have seen it from both sides. You 
have seen it as a warden. You have also worked with several 
faith-based organizations. Based on the organizations that you 
have worked with, do they approve of this bill and its current 
structure as it is written?
    Mr. Cowley. The ones that know about it do. And the ones 
that don't know about it do as well. I can tell you faith-based 
groups and community organizations, not only are they aware of 
the debate in many cases, but they are looking for the 
opportunity to be involved. And with wardens and other Federal 
organizations that would receive the grant money, these people 
would line up, definitely.
    Mr. Forbes. Well, thank you.
    And, Mr. LoBuglio, if I could, first of all, you have a 
model program; done a great job with that in Montgomery County. 
But again, one of the things we are always looking at is 
measuring effectiveness and what measures should we use to 
evaluate re-entry programs. Because it is one of the things we 
are always looking at here, is recidivism.
    You know, I mean, is re-arrested or re-incarceration the 
only valuable measure? Or, if not, what other things?
    Mr. LoBuglio. There are other measures.
    We have been around for 30 years. We have had 11,000 people 
go through our program. In 2006, our performance measures that 
we track and measure the quality of our program with include 
the statistic that 99 percent of those who were with us in our 
work release program left with housing. Ninety percent left 
with employment. All of them left with community referrals and 
contacts and working with family. We recorded $200,000 that was 
provided by inmates for family support. We generated $400,000 
in program fees to support our programs.
    There are many performance measures that can be used to 
measure the effectiveness of programs. Recidivism is an 
interesting figure. It is a figure that, for some programs it 
is appropriate; for other programs, it is probably beyond their 
ability. The factors that go into an individual recidivating 
including, one, their motivation. It also includes other 
exogenous factors, such as police policies, prosecutorial 
policies, probation and parole policies. Those are beyond the 
control of specific programs.
    That said, the research is clear that quality programs 
implemented with integrity can reduce recidivism over the long 
term. I think the findings of the Serious and Violent Offender 
Re Initiative, where we had 69 program sites, that are being 
evaluated give us pause to remind ourselves of the capacity 
that we still need to build within the system to make re-entry 
a reality.
    Mr. Forbes. Good.
    My time is up, but thank you all so much for your 
testimony.
    Mr. Scott. Chairman Conyers?
    Mr. Conyers. Thank you, Mr. Chairman. What an exercise of 
great magnitude this has been. My feeling for hope has 
increased.
    When I look at a bill with Randy Scott on it, Coble, 
Cannon--yes, Cannon--not Bobby Scott. You are usual. I am 
calling off some names for a special reason--Forbes, 
Sensenbrenner, Chabot, let's see, Coble. But I don't see Judge 
Gohmert on here. And that saddens me deeply.
    We are going to be working on this--because as I look out 
in the audience, I see Charlie Sullivan of CURE and many other 
organizational representatives that have been in this for years 
and years, with Chairman Scott during the large work.
    The subject matter that I want to raise with you, and maybe 
I should be doing this with the Chairman and the Ranking 
Member, is the things that I keep hearing that are still going 
on in prisons.
    And I am going to ask Mr. Cowley to lead this off.
    But the only time I heard the subject of rape in prisons 
brought forward is by the former attorney general of California 
that sits on this Committee. And to me, this plus the coercion 
and violence and gang control that occupies too many prisons 
that I hear about that make them so dysfunctional that this 
probably requires a whole consideration of itself.
    I don't want to get it superimposed upon a perfectly great 
re-entry plan. Elijah Cummings, our colleague from Maryland, 
asks me every day to make sure he is on this bill, because I 
think, as this leadership shows, we have got a real head of 
steam moving forward with a lot of control.
    But with those problems in the prison and the lack of vote 
for prisoners coming out, which I know is frequently a State 
determination, when a person comes out, you are whole, except 
one thing buddy. We don't need you to vote. We accept you back 
into society, but, no, no vote. And yet there are places where 
votes take place inside of prisons.
    So, what I want to ask of Jack Cowley and George McDonald, 
all of you, how are we going to put our arms around this 
problem, which is really what shapes a lot of attitudes? And 
conduct when you get out is what happened to you when you were 
on the inside.
    How do we match the heads and tails of this incredibly 
difficult societal problem, Mr. Cowley?
    Mr. Cowley. Well, we can change it overnight.
    Mr. Conyers. Well, I have been waiting 40 years for this 
moment.
    Mr. Cowley. Well, and I am here to tell you. All we have to 
do is hold wardens, directors of corrections and parole chiefs 
responsible for recidivism rates.
    As an old Government employee, I was fondly aware of my 
annual evaluation. And not anywhere was there an expectation 
that those inmates that went through my prison stayed out when 
they got out--nowhere. It is not discussed. I can tell you it 
is not any employment training on correctional officers or 
wardens that the inmates in their prisons remain free.
    So, if we say to wardens, directors of corrections across 
this country, that you will be responsible; because see, now we 
have models that work. Before, we didn't. Now, we do. And we 
say to them, ``If you cannot reduce recidivism significantly 
for those inmates that go through your system, then you won't 
have a job come next year.'' I tell you it will change 
literally overnight. The way we do business will not be the 
same.
    Mr. Conyers. Well, I hope you will become a candidate for 
the Federal corrections chief----
    Mr. Cowley. Well, I don't know. Thank you.
    Mr. Conyers [continuing]. When it opens up, which I hope 
will be soon.
    Mr. Scott. Thank you, Mr. Conyers. Your time has expired.
    Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    I would like to point out I agree with you, Mr. Cowley. 
Accountability is a good thing.
    I mean, all five of you have now said this is an extremely 
important piece of legislation. And I got to tell you, when I 
first heard last year that we were bringing up a second chance 
act, I was excited, because we have got to do a better job of 
training and rehabilitating people while they are in prison. It 
is an embarrassment to this country, and it should be to every 
State, that we do not do a better job of that.
    The thing is, we got the bill. The first bill was a 40-page 
bill. And it had things in it that concerned me greatly that 
went far beyond the scope of what was imagined. And I was told 
well, it is being redrafted, not to worry. The day of the 
markup, it turned out, we had a 90-page bill that nobody had 
seen. And we were expected to vote on it that day. A few of us 
raised enough Cain. It was put off. And later, a 60-page bill 
emerged for our markup.
    The latest bill I have gotten is 107-page bill. So, have 
you each read all 107 pages of this bill? Is that correct?
    Mr. Cowley. No, I haven't.
    Mr. Gohmert. Okay. So, when you say this is an extremely 
important piece of legislation, you are not sure what all is in 
there, correct?
    Mr. Cowley. I am sure of those things that will make a 
difference.
    Mr. Gohmert. Well now, Mr. Cowley, you just said that the 
way we could change this overnight was if we held some people 
accountable.
    Mr. Cowley. Right.
    Mr. Gohmert. And I have not found anything in the 107 pages 
that holds anybody accountable. It just spend $360-something 
million over 2 years, plus another provision that says all such 
sums as may be necessary. So, I am not sure how big that goes.
    In the previous bill we took up last year, there was 
nothing about preschool nurseries in the prisons, things like 
this, transportation. These are all new things that have been 
added that I am finding in the new bill.
    So, it goes way beyond the scope of what I had originally 
thought was there. There was one provision I saw that, as I 
understood it, said medical care as long as needed. And I don't 
find too many people that ever quit needing medical care in 
their lifetime. So, there are some things, it seems to me, that 
need to be worked out.
    But I needed to ask you, Mr. Cowley, about one other 
question you answered. And I am not sure if you understood the 
ramifications of what you had said. You were asked by our 
Chairman if these faith-based groups need to discriminate in 
order to be effective. And you answered no, they don't. And let 
me make sure if we are on the same page here.
    Traditionally in the United States--and the Supreme Court 
has upheld this--a Christian group was allowed to hire 
Christians and could discriminate to the point that, if you 
were an atheist and you thought that Christianity was just a 
bunch of baloney, then the Christian group didn't have to hire 
you in their charge; because it would create some problems.
    An issue has come up in the last session where we debated 
this last summer that gee, why couldn't a Christian group hire 
an atheist to do this kind of work? They should have to 
discriminate.
    And it was my contention, and I think previously the 
Supreme Court's and most Christian groups', that there should 
be that uniformity of belief. If you are a Mormon group, you 
shouldn't be forced to hire somebody that thinks Mormons are 
crazy. If you are a Jewish group, you should have to hire 
somebody that things all Jewish people should be killed.
    I mean, there should be some discrimination allowed in 
order to be faith-based, or it isn't a faith-based group 
anymore. You understand where I am coming from?
    Mr. Cowley. I understand.
    Mr. Gohmert. So, in the faith-based groups with which you 
have dealt, have you run into any faith-based groups who did 
not hired people that believed in the same faith that they did?
    Mr. Cowley. Right. They do. And in those cases, it seems to 
me that has been worked out. There have been Federal grants 
gone to faith-based groups.
    Mr. Gohmert. Well, you mentioned that they would line up.
    Mr. Cowley. Right.
    Mr. Gohmert. I tried to have language installed last year 
that would say simply an organization or group cannot be 
discriminated against simply because it is faith-based. And 
that was fought.
    Mr. Cowley. I think we have grown up since then, 
Congressman. Faith-based groups--either they will take it as it 
comes. And if they want to be involved and take the money----
    Mr. Gohmert. And my time is running out, let me ask you 
very quickly.
    Mr. Cowley [continuing]. That is very possible.
    Mr. Gohmert. Have you not run into any sheriffs or any 
wardens who said I am afraid of lawsuits by the ACLU, so I 
don't want to hire a group that is faith-based because it is 
faith-based?
    Mr. Cowley. That is happening.
    Mr. Gohmert. It has. Yes.
    Mr. Cowley. And that is why we need the Second Chance Act 
in order to alleviate that.
    Mr. Gohmert. But it does not protect faith-based in the 
Act.
    Mr. Cowley. It doesn't need to. It doesn't need to. That is 
what I am saying.
    Mr. Gohmert. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Scott. The gentleman's time has expired.
    Mr. Forbes?
    Mr. Forbes. Yes, sir. Mr. Chairman, I would repeat my 
request to have the letter from the 15 faith-based 
organizations admitted to the record.
    Mr. Scott. The gentleman asks for a regular order on the 
unanimous consent request, which means that you either press 
the objection or withdraw it.
    Mr. Gohmert. Well obviously, I have been here and haven't 
had a chance to check with all these groups. But I got burned 
on it once. And I don't mean to be a jerk. But I got burned. 
Some of the groups didn't know what they were asked to sign 
onto, and their name was typed.
    And I just was hoping for the opportunity to check on that. 
If I could have 24 hours, I would--if you want to press it, 
then I would object. If not, if I could have time to check on 
it----
    Mr. Scott. Objection was heard.
    Mr. Forbes. Mr. Chairman, I move that the letter be 
admitted to the record.
    Mr. Scott. There is a motion made that the letter be placed 
in the record.
    All in favor of the motion, say, ``Aye.''
    All opposed?
    Mr. Gohmert. I abstain, because I don't have enough 
information at this time.
    Mr. Scott. The motion is agreed to. The letter is placed in 
the record.
    And we will make sure that Mr. Gohmert gets a copy, so if 
he subsequently wants to make a comment, he certainly will be 
able to.
    Gentlelady from Texas, Mr. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member for yielding to me.
    And I certainly thank Mr. Davis of Illinois and Ms. Tubbs 
Jones of Ohio. I know that they have been working on this issue 
for a very long time, as many of us who have constituencies who 
have negatively been impacted by stark and sometimes 
unreasonable incarceration principles and laws.
    And I think, Warden, you know that in your new life, that 
probably there were good reasons for some of those incarcerated 
you may have come in contact with, short of individuals 
perpetrating heinous crimes and on death row short of being 
found innocent, that could have benefited from a number of 
alternatives, even before they were incarcerated.
    Right now, in the State of Texas, we are dealing with two, 
I think, horrific collapses, or calamities, as it relates to 
incarcerated facilities.
    One, our local jail has been found, over the past 10 years, 
to have had 117 deaths, individuals who went in and--you know, 
local jails are basically holding places. Sometimes you serve a 
6-month sentence. But basically, you are being held on your way 
somewhere else or waiting for trial--crises where we have had 
individuals fallen ill and those who are responsible then say, 
``What do you want me to do? Get a BandAid? Someone is laying 
in a pool of blood.''
    Then we have had the Texas Youth Commission that now is 
renowned for sexually abused incarcerated youth. That says to 
me that the whole system needs overhauling, and people have not 
listened. But I think it is a good step that we are making 
today dealing with the question of the idea of the next step.
    So, I know the witnesses have answered questions. I welcome 
Steve Lufburrow, because he is an institution in our community. 
His family is an institution. He has always been on the forward 
side of things.
    And so, let me just pose to Warden Cowley the idea of a 
second chance bill. Can it be the wave of the future, one, in 
terms of maybe even how we look at potential incarcerated 
persons before they go in and how we look at them coming out? 
The question to you.
    To Mr. Lufburrow, how do we impact State systems? We are 
dealing with a Federal bill. But how do we impact State systems 
and get them to understand that a goodwill program is a 
valuable program and a good alternative to having someone 
incarcerated for 20, 30, 40 years, certainly if they have 
perpetrated a non-violent act.
    And I believe I am looking at--I have had for a number of 
years a bill dealing with the early release of older non-
violent offenders. I see this section. I assume it is taken 
from my bill. I hope that is the case. I had asked about this 
to the staff of this Committee. And I see it here in this bill. 
So, maybe I will get an explanation about it as to relate to 
whether or not it is the good time early release language or 
not.
    But I do want to try and find out about the value of 
individuals who have been in this incarcerated condition, and 
they are older. They may be aging and get, if you will, sick. 
And what is the purpose of keeping them incarcerated? What 
about these programs being useful for them.
    So, let me just yield, because I see the light. And I see 
Mr.--is it Roger? If you would be kind enough to answer. Yes, 
Roger Peters, Ph.D.
    Mr. Cowley?
    Mr. Cowley. Whether or not the bill could be the wave of 
the future, again cheerleading is a valuable tool, particularly 
in corrections, the criminal justice system, where we have been 
bombarded for years and years literally about get tough, get 
tougher. And when you say that, means the life isn't valued. 
Let's just lock them up and throw them away the key. The heck 
with them.
    And wardens know. Wardens know their inmates to a great 
degree, even in larger prisons. They know who is worthy and who 
isn't. And yet we look at them all the same anymore. So, this 
gives us an--it is the wave of the future, because it sends the 
clear message that there is an opportunity for a second chance.
    We had a collaborator meeting. In Dallas, TX, we are 
starting a God pod at the Hutchins State Jail. And we had over 
35 faith-based and community organizations show up to get 
involved. The warden came and welcomed them. And that is the 
wave of the future.
    Ms. Jackson Lee. Thank you.
    Mr. Lufburrow?
    Mr. Lufburrow. Thank you very much for your comments also. 
And thank you for having me here today.
    How do we impact State systems? Collaboration is the key. 
We didn't used to have collaboration as much in the agencies 
throughout the States. And now we are all a lot more open to 
it.
    And we are working with all the different agencies. For 
instance, in Texas, we have 18 different Goodwills that spread 
a whole lot of our Texas territory. And we are all working with 
other organizations--State, local, you name it--trying to work 
together for good, trying to make a change in people's lives.
    And the lack of funding is an issue, even on the State 
level. And it is something that we need to continue to address. 
But, I tell you, our hearts are pretty big in these worlds of 
not-for-profits. We do seem to care a lot about the people that 
we work with. And we are compassionate about the problems, 
because we do see it on a day-to-day level. But the funding to 
make it happen is important to us.
    And we can't all be good at all things. And so we have had 
to decide at Goodwill across the State and across the country, 
what are we really good at? We are really good at providing job 
opportunities, training and placement into the competitive 
business world. Then we need to work with the folks that are 
really great with the housing side, and the drug abuse and the 
alcohol treatment side.
    And I think the collaboration answers your question. I went 
around a long way. But I wanted to get that in. So, 
collaboration, I hope, is the answer that you were looking for. 
And certainly, I will stand behind.
    Ms. Jackson Lee. Dr. Peters?
    Mr. Peters. If I understand your question, Representative 
Jackson Lee, it is about the elderly?
    Ms. Jackson Lee. Yes.
    Mr. Peters. About their amenability to treatment and what 
we need----
    Ms. Jackson Lee. And their amenability to an early 
release--having individuals incarcerated for ever and ever and 
ever, is it good that non-violent offenders would have that 
option to be released?
    Mr. Peters. I think it is a very important area. As we all 
know, the tremendous number of the elderly are now in jails and 
prisons, particularly prisons, spending time in larger 
proportion that every before. They pose slightly different 
substance abuse problems and issues than other offenders too. 
And because of that, we need some unique solutions. They are 
more likely to use alcohol and prescription medications rather 
than methamphetamine, cocaine, some of the other drugs of abuse 
that we are used to with our traditional offenders.
    And because of that, I think we need specialized treatment 
approaches. And SAMSA has developed those. In fact, there are 
treatment manuals now for the elderly with substance abuse. It 
recognized some of these other specialized needs of the 
elderly, including depression, for example, and other mental 
health needs that are sometimes, kind of, under the radar that 
are silent that we don't pick very often and don't get 
attention, because they are not vocal and don't come to the 
forefront with these other problems.
    So, there are some interventions that are available, but we 
need to develop more of those. And certainly research is needed 
by NIDA and other agencies to examine the impact of those 
interventions.
    I think you have raised an important point. We have a lot 
of people aging in our prisons right now. What can we do with 
them? And how does re-entry fit with that? I think that we 
talked about today some of the those solutions that can be 
effective for this group which are, for example, in-prison 
treatment plus work release and re-entry services.
    Pre-release services that we talked about today can be 
particularly useful for the elderly, which in many ways are a 
lower risk category for acting out and recidivism than are 
other populations and are quite good candidates for these 
release programs that couple in-prison treatment with treatment 
after release from custody.
    So, that is a really good group and I think a very good set 
of candidates for the programs that are described in this bill, 
and that we will be able to examine those carefully down the 
road.
    Ms. Jackson Lee. Thank you.
    Mr. Peters. Thank you.
    Ms. Jackson Lee. And I thank the Chairman very much.
    Mr. Scott. Thank you.
    Mr. Coble?
    Mr. Coble. Mr. Chairman, let the record show that during 
the time I served as Chairman of this Subcommittee, not once 
did the microphones fail.
    But I will say to Chairman Scott, he and I worked very 
diligently last session on this, along with others as you 
mentioned, Mr. Chairman, Congressman Cannon among others. This 
is an important piece of legislation. Obviously, you gentleman 
continue to work diligently as well.
    Mr. McDonald, you have had extensive experience in this 
matter with former prisoners. Let me ask you this. Should we 
focus more on treatment while prisoners are incarcerated or 
after they have been released and acclimating back into 
society? Or are they both about equal?
    Mr. McDonald. Congressman, I have been sitting here wishing 
somebody would ask me that question. So, thank you very much.
    My experience is with post-release, well, we go into a 
prison right before somebody is going to be released on parole. 
We don't work in the prison. So, I don't have any expertise. I 
haven't ever been a warden. Thank the Lord and I haven't ever 
been an inmate.
    But I can tell you that, out of the people that we see in 
New York City, 77 percent are African-American, 70 percent 
haven't graduated from high school, 88 percent have a long 
substantial history of substance abuse, and 78 percent have 
been formerly incarcerated. Now, those are the people that are 
coming through the front door of our intake homeless shelter. 
Seventy-eight percent have been formerly incarcerated.
    So, I am here to tell you that the hardest thing in the 
world to do, or the hardest thing for us to do, is to get a man 
a job after he has come out of prison. And you can't do that 
for him when he is in prison. You have to do it when he gets 
out of prison in some manner, shape or form.
    Mr. Coble. Thank you.
    Mr. McDonald. But it is an economic opportunity for him to 
take responsibility for himself and work. And there are so many 
barriers that are created for this fellow to get on the right 
road that, you know, we welcome this Act.
    Mr. Coble. I thank you for that, Mr. McDonald.
    Mr. Cowley, you mentioned the ``lock them up and throw away 
the key'' philosophy. And many people continue to embrace that. 
At one time I embraced it.
    Mr. Cowley. Sure.
    Mr. Coble. But I was younger and less wise--not to say that 
I am wise now, but I am wiser now than I was then. Prison 
overcrowding plagues us. Recidivism plagues us. Those two 
issues have caused me to change my thinking about that.
    Mr. Cowley. Good.
    Mr. Coble. And I no longer embrace that theory.
    Now, in your testimony, Mr. Cowley, you mentioned the 34 
percent vacancy rate. I am not sure what that means.
    Mr. Cowley. No, I was talking about the employees. He had a 
34 percent vacancy rate in his employees. He was down 34 
percent of his staff.
    Mr. Coble. Oh.
    Mr. Cowley. That is what I was referring to.
    Mr. Coble. Okay. I didn't follow that.
    Mr. LoBuglio, my State, North Carolina, has embraced the 
re-entry approach. But I am convinced that more can be done 
with Federal support in large part through funding. Which 
grants or Federal funds are used by your office? And what 
funding, is it your belief, is most needed to improve your 
services?
    Mr. LoBuglio. We don't use Federal grants in the re-entry 
programs in Montgomery County. The Federal money that is out 
there for re-entry is the Serious and Violent Offender Re-Entry 
Initiative. And that funding has been directed to Baltimore 
programs.
    In terms of your latter question, how can the Federal money 
be used? It can aid those jurisdictions that do need assistance 
in spurring the development of re-entry programs. I think it 
can also be used to get collaborators to the table who aren't 
there now. And those stakeholders include both social service 
agencies, the faith-based organizations, and law enforcement 
agencies who can gather around the table and talk about re-
entry.
    I think the experience of the previous $100 million that 
was spent under the Serious and Violent Offender Re-entry 
Initiative is very helpful for us as we consider this 
legislation. That legislation has sponsored a number of very 
exciting collaboratives.
    And some of the findings now from the natonal evaluation 
being done by the Research Triangle Institute in North Carolina 
and The Urban Institute are promising. They have conducted 
already over 3,000 interviews with individuals while they are 
incarcerated and post-release. They are finding that most of 
those collaborations and most of those programs are continuing, 
even as the grant funds stop.
    Mr. Coble. Mr. Chairman, as you and Mr. Forbes know, I am 
not one who advocates hurling Federal money at every problem 
that surfaces. But I think this is one situation where it is 
justified.
    And I thank you, Mr. Chairman.
    And thank you, gentlemen, for being with us.
    Mr. Scott. Thank you. Thank you, Mr. Coble.
    And when we ``throw money'' at this situation, we end up 
saving more money, having money thrown back on us if we make 
those important investments.
    I thank you.
    Representative Forbes, do you have a final comment?
    Mr. Forbes. Yes, Mr. Chairman.
    First of all, once again, I would like to thank all the 
witnesses.
    But the Chairman raised some good points earlier when he 
talked about prison rape and some of the conditions in the 
prisons. And now only has Mr. Lungren worked hard on that, but 
so has Frank Wolf and several other Members.
    And one of the things Chairman Scott and I have talked 
about recently is we are not quite as optimistic, Mr. Cowley, 
as you are that we can change it overnight. But at least we can 
bump it in the right direction.
    So, we actually plan to make some trips around the country 
and visit our prisons and talk to some of the inmates and see 
what we can do to alleviate some of these situations.
    We won't change the whole system. That is not going to 
happen. But we can make some big differences. So, we think that 
is going to happen. And we have agreed to do that.
    Mr. Scott. Thank you.
    And I want to thank the witnesses for their testimony 
today.
    Members may have additional written questions for our 
witnesses. I would ask them to forward them to you. And if we 
can get responses as quickly as possible, we can make them part 
of the record.
    And, without objection, the hearing record will remain open 
for 1 week for submission of additional materials.
    And, without objection, the Committee is now adjourned.
    [Whereupon, the Subcommittee was adjourned.]














                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
